<html>
<title> - OVERSIGHT OF MULTILATERAL AND BILATERAL INTERNATIONAL DEVELOPMENT PROGRAMS AND POLICIES</title>
<body><pre>[Senate Hearing 114-136]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-136

   OVERSIGHT OF MULTILATERAL AND BILATERAL INTERNATIONAL DEVELOPMENT 
                         PROGRAMS AND POLICIES

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON MULTILATERAL
                INTERNATIONAL DEVELOPMENT, MUTILATERAL,
               INSTITUTIONS, AND INTERNATIONAL ECONOMIC,
                    ENERGY, AND ENVIRONMENTAL POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 6, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                        U.S. GOVERNMENT PUBLISHING OFFICE
98-151 PDF                   WASHINGTON : 2016                        
          
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f394839cb3908680879b969f83dd909c9edd">[email&#160;protected]</a>  
             
              
              
                          COMMITTEE ON FOREIGN RELATIONS         

                 BOB CORKER, TENNESSE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
              Lester E. Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        

                         ------------          

           SUBCOMMITTEE ON MULTILATERAL INTERNATIONAL        
            DEVELOPMENT, MULTILATERAL INSTITUTIONS,        
            AND INTERNATIONAL ECONOMIC, ENERGY, AND        
                      ENVIRONMENTAL POLICY        

                JOHN BARRASSO, Wyoming, Chairman        

DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JAMES E. RISCH, Idaho                BARBARA BOXER, California
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               EDWARD J. MARKEY, Massachusetts

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     1

Coleman, Hon. Isobel, Ambassador, U.S. Representative to the 
  United Nations for U.N. Management and Reform, U.S. Mission to 
  the United Nations, Washington, DC.............................     7
    Prepared statement...........................................     9

Crocker, Hon. Bathsheba Nell, Assistant Secretary, Bureau of 
  International Organization Affairs, U.S. Department of State, 
  Washington, DC.................................................     3
    Prepared statement...........................................     5

Detchon, Reid, Vice President for Energy and Climate Strategy, 
  United Nations Foundation, Washington, DC......................    55
    Prepared statement...........................................    57

Garber, Hon. Judith G., Acting Assistant Secretary, Bureau of 
  Oceans and International Environmental and Scientific Affairs, 
  U.S. Department of State, Washington, DC.......................    10
    Prepared statement...........................................    12

Schaefer, Jay Brett D., Kingham Senior Research Fellow in 
  International Regulatory Affairs, Margaret Thatcher Center for 
  Freedom, Heritage Foundation, Washington, DC...................    42
    Prepared statement...........................................    44

Tong, Hon. Kurt, Principal Deputy Assistant Secretary, Bureau of 
  Economic and Business Affairs, U.S. Department of State, 
  Washington, DC.................................................    21
    Prepared statement...........................................    23

Udall, Hon. Tom, U.S. Senator From New Mexico....................     2

              Additional Material Submitted for the Record

Written statement submitted by Peter Yeo, Better World Campaign..    68

Material Submitted for the Record by Senator John Barrasso of 
  Wyoming, Subcommittee Chairman.................................    71

    Copy of a letter submitted to the U.N. Secretary General and 
      U.N. Executive Heads by former U.N. whistleblowers.........    71

    The Climate of Insecurity, by Jeff Kueter, president, George 
      C. Marshall Institute......................................    74

    Copy of a letter submitted to the EPA by Wyoming Governor 
      Mathew H. Mead.............................................    84

                                 (iii)

  

 
   OVERSIGHT OF MULTILATERAL AND BILATERAL INTERNATIONAL DEVELOPMENT 
                         PROGRAMS AND POLICIES

                              ----------                              


                         WEDNESDAY, MAY 6, 2015

        U.S. Senate, Subcommittee on Multilateral 
            International Development, Multilateral 
            Institutions, and International Economic, 
            Energy, and Environmental Policy Committee on 
            Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the subcommittee) presiding.
    Present: Senators Barrasso, Risch, Gardner, Udall, and 
Markey.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Good afternoon.
    I would like to call to order this hearing of the 
subcommittee of the Senate Foreign Relations Committee.
    This afternoon, our subcommittee is holding its first 
hearing in the 114th Congress.
    So I am pleased to be chairing the subcommittee, along with 
my good friend, Senator Tom Udall, who is the subcommittee's 
ranking member. Senator Udall, I look forward to continuing to 
work with you in a very productive way as we have done in the 
past. Thank you.
    The subcommittee is meeting today to evaluate the resource, 
management, and performance of the international programs under 
our jurisdiction. I believe Congress needs to ensure that these 
programs focus on U.S. priorities, that they evaluate the 
effectiveness of all the programs, that Congress needs to 
support programs that are getting real results and eliminate 
programs that are not working.
    In preparation for a potential State Department 
reauthorization, I have asked all of our witnesses today to 
identify ways to achieve efficiencies and savings, as well as 
opportunities to more effectively advance U.S. priorities 
around the world.
    The American people I believe are very generous. 
Individuals, groups, and communities across the country give 
their time and precious resources to help others, both to 
people here and people around the world. There is a long 
history of people across this Nation generously supporting 
victims of international disasters, famines, diseases, and 
wars.
    With our national debt, however, at around $18 trillion, I 
think it is irresponsible to borrow more money to fund 
initiatives that are failing to prove results or provide real 
value for taxpayers. The Government must be a good steward of 
U.S. taxpayer dollars. Every Government branch and agency needs 
to be carefully evaluated and streamlined to eliminate 
duplicative and wasteful spending. Each program needs to be 
carefully analyzed to ensure it is being designed and 
implemented in the most effective and efficient manner. And we 
must also be focused on whether participation at multilateral 
institutions is actually advancing American values, American 
ideals, American standards.
    So there is a lot of area to cover here today, including 
the greatly needed reforms at the United Nations, promoting 
economic opportunities for U.S. businesses around the world, 
implementing real budgetary discipline at multilateral 
institutions, and eliminating duplication and wasteful 
spending. These are all important issues.
    I look forward to hearing the testimony of our witnesses, 
and we will now turn to our ranking member, Senator Udall, to 
offer his opening remarks.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Barrasso. And 
as you have said, we have had a good working relationship and 
look forward to doing the same on this subcommittee.
    Our subcommittee's jurisdiction covers a lot of ground, 
some would say from the ocean floor out to space. The Bureau of 
Oceans and International Environmental and Scientific Affairs I 
think would agree on that. Their work, ranging from 
environmental issues such as climate change to emerging issues 
such as space is crucial to our foreign policy.
    In addition, Congress has a vital interest in international 
institutions. The United Nations and other international 
institutions impact how we interact with the world and how the 
world views the United States.
    Also, I think it is important to note that this is an area 
where we share burdens a lot, and I am going to talk a little 
bit in questions about how the GAO has looked at the idea of 
the U.N. and doing things through other countries and the 
United States doing things alone. And I think it is an 
interesting perspective there.
    So I am pleased that we have two great panels here today to 
examine ongoing efforts to strengthen the United Nations and 
also discuss U.S. support for other key issues that are before 
this panel such as peacekeeping and humanitarian activities, 
economic diplomacy, and the negotiations for a new climate 
change agreement that will take place in Paris this December.
    I recognize that the United Nations is a highly complex and 
decentralized organization. Potential reforms may be slow, but 
I believe it is also important to highlight the position that 
this administration has taken to engage the United Nations on 
many fronts and to elevate the status of the U.S. Permanent 
Representative to the United Nations to a Cabinet-level 
position that reports directly to the President. I know that 
the President has directed the State Department to see how we 
can evaluate and improve U.N. system transparency and 
effectiveness. I will be happy to hear more about our progress 
and challenges in those areas from Assistant Secretary Crocker.
    I am also looking forward to a discussion of the role the 
Economic Bureau plays. Chairman Barrasso mentioned that. This 
Bureau is helping businesses and workers succeed in a global 
economy. Senator Barrasso, I think, would agree there are many 
areas, particularly in energy and natural gas, where the United 
States can excel if businesses are given the opportunity to 
export overseas. In addition, I would like to know how the 
Economic Bureau is working to support normalization efforts 
with Cuba and how Congress can support these efforts further.
    And finally, I am hoping our panelists can provide us with 
an overview of ongoing international climate negotiations and 
perhaps give us a sense of the steps we need to take to make 
sure that a successful agreement is reached.
    So with that, Chairman Barrasso, I have finished with my 
opening. I turn it back to you.
    Senator Barrasso. Well, thank you very much, Senator Udall.
    At this point, I would like to welcome all of our 
witnesses. I know you have all very busy schedules, important 
responsibilities. I appreciate you taking the time to be with 
us today.
    Joining us this afternoon on the first panel is Assistant 
Secretary of State Sheba Crocker with the Bureau of 
International Organization Affairs; also Ambassador Isobel 
Coleman, U.S. Representative to the United Nations for 
Management and Reform; Acting Assistant Secretary Judith 
Garber, Bureau of Oceans and International Environmental and 
Scientific Affairs; and Principal Deputy Assistant Secretary 
Kurt Tong with the Bureau of Economic and Business Affairs.
    Secretary Crocker, since Senator Udall mentioned you, 
perhaps we could start with you. I would say that your full 
statement will be entered into the record, and I would ask you 
to summarize it in about 5 minutes in order for members to have 
an opportunity to ask questions.
    Secretary Crocker.

STATEMENT OF HON. BATHSHEBA NELL CROCKER, ASSISTANT SECRETARY, 
 BUREAU OF INTERNATIONAL ORGANIZATION AFFAIRS, U.S. DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Ms. Crocker. Chairman Barrasso, Ranking Member Udall, it is 
my pleasure to appear before you today to discuss U.S. actions 
to promote efficiency and effectiveness across the United 
Nations and other international organizations.
    As Assistant Secretary of State for International 
Organization Affairs, it is my job to ensure that U.S. 
multilateral priorities are advanced across the entire 
multilateral system, including at the United Nations and 
several dozen other international organizations. That effort 
spans seven U.S. multilateral missions, including our mission 
to the United Nations in New York, and requires collaboration 
with other Federal agencies that depend on international 
organizations to help advance their priorities.
    The organizations we work with are diverse, from 
distributing emergency food assistance through the World Food 
Programme, to ensuring global aviation safety standards through 
the International Civil Aviation Organization. But the core 
U.S. objectives at each of these organizations are the same: to 
advance our national interests, to promote American values, and 
to advocate for the efficient and effective use of American 
taxpayer resources.
    I think it is important to recognize how much we ask of the 
U.N. and other international organizations. Consider the recent 
headlines. U.N. agencies are leading the effort to respond to 
the devastation in Nepal. They are addressing humanitarian 
emergencies in Yemen, Iraq, South Sudan, the Central African 
Republic, and in and around Syria. We rely on the World Health 
Organization to address the impact of Ebola in West Africa and 
to eliminate polio and other diseases once and for all. In many 
cases, U.N. political missions are the international 
community's last remaining eyes and ears on the ground in areas 
experiencing significant insecurity or political instability. 
In 16 missions around the world, nearly 130,000 U.N. 
peacekeepers are contributing to stability and promoting peace 
and reconciliation.
    And these are just some of the countless examples where 
U.S. interests are advanced through coordination at the United 
Nations and across many other international organizations. The 
United States simply cannot and should not address such global 
challenges alone. Working through the multilateral system 
enables us to mobilize global action and ensure that the 
financial burdens of that action are broadly shared.
    Still, there is no denying that the U.N. and other 
international organizations have not always proven to be 
effective stewards of U.S. taxpayer resources. For too long, 
the U.N. operated without the necessary commitment to 
transparency, accountability, and results. And so the United 
States and numerous partner countries have pressed the U.N. 
system to embrace modern management and budgeting practices.
    Since becoming Assistant Secretary in September 2014, I 
have prioritized management and budget reform issues and I have 
used my position and voice as frequently as possible to push 
for progress. The results of this kind of sustained engagement 
are clear.
    Within the past month alone, we have reached agreement to 
no-growth budgets at both the International Labor Organization 
and the Food and Agriculture Organization. At over half of the 
more than 45 organizations we fund through the contributions to 
the international organizations account, we are projecting no 
increases in assessments for fiscal year 2016.
    Just 2 weeks ago, I cochaired a meeting in Geneva of the 
top donors to the U.N. system where we agreed to work together 
to look at U.N. performance management practices and to 
increase scrutiny of how U.N. agencies are handling their own 
audits and ethics rules, including protection of 
whistleblowers.
    We are seeing gradual progress on needed reforms. Two 
organizations that previously did not provide access to audit 
reports, the International Maritime Organization and the 
International Telecommunications Union, have begun providing 
access. At the U.N., we gained agreement in December to 
permanent public access to audit and evaluation reports. The 
Organization of American States and the World Health 
Organization have corrected shortcomings in their whistleblower 
policies over the past year.
    Last month, I traveled to a UNICEF coordination facility in 
Copenhagen where UNICEF is working with partners to create 
economies of scale to drive down the price of immunizations and 
other crucial goods. That effort will not only save the U.N. 
tens of millions of dollars a year, but it will bring untold 
benefits to communities around the world. We are trying to 
replicate these kinds of efforts across the multilateral 
system.
    We remain determined in our efforts to improve 
accountability and transparency measures in peacekeeping 
operations. We initiated a comprehensive review of civilian 
staff in missions, which resulted in significant reductions in 
cost savings. We are holding troop-contributing countries 
accountable through financial penalties if they deploy to U.N. 
peace operations with missing or nonfunctioning equipment. And 
we worked with our partners at the United Nations to initiate a 
firm prohibition on payments to troops sent home for 
misconduct, including for sexual exploitation and abuse.
    These examples of reforms and best practices are promising. 
But we remain frustrated by sluggish progress. Some 
organizations continue to struggle to provide whistleblower 
protections, and the formulas that determine how much funding 
each member state contributes to the U.N. remain woefully 
outdated. There is certainly more work to be done across the 
board.
    So I am grateful to this subcommittee for holding today's 
hearing and for your continued interest in our work at the 
United Nations. The investments we make in the multilateral 
arena today are more important than ever to advancing U.S. 
interests, and Congress, and especially members of this 
subcommittee, play a critical role in helping to ensure 
taxpayer resources are used efficiently at multilateral 
institutions to help advance U.S. objectives.
    I welcome the opportunity to discuss these issues with you 
and your staff at any time, and I am happy to answer any 
questions you may have.
    [The prepared statement of Ms. Crocker follows:]

Prepared Statement of Assistant Secretary of State Bathsheba N. Crocker

    Chairman Barrasso, Ranking Member Udall, and distinguished members 
of the committee. It is my pleasure to appear before you today to 
discuss U.S. actions to promote efficiency and effectiveness across the 
United Nations and other international organizations.
    As the Assistant Secretary of State for International Organization 
Affairs, it is my job to ensure that U.S. multilateral priorities are 
advanced across the entire multilateral system, including at the United 
Nations and several dozen other international organizations. That 
effort spans seven U.S. multilateral missions, including our mission to 
the United Nations in New York, and requires collaboration with other 
federal agencies that depend on international organizations to help 
advance their priorities.
    The organizations we work with are diverse--from distributing 
emergency food assistance through the World Food Programme, to ensuring 
global aviation safety standards through the International Civil 
Aviation Organization--but the core U.S. objectives at each of these 
organizations are the same: to advance our national interests, to 
promote American values, and to advocate for the efficient and 
effective use of American taxpayer resources.
    As we begin our conversation today, I think it is important that we 
recognize one truth: we ask a great deal of the United Nations and 
other international organizations, and to a remarkable degree, those 
organizations are largely responsive to our demands.
    Consider the recent headlines: United Nations agencies are leading 
the effort to respond to the devastation in Nepal. They are addressing 
humanitarian emergencies in Yemen, Iraq, South Sudan, the Central 
African Republic, and in and around Syria. We rely on agencies like the 
World Health Organization not only to address the impact of Ebola in 
West Africa, but also to eliminate polio and other diseases once and 
for all. In many cases, United Nations political missions are the 
international community's last remaining eyes and ears on the ground in 
areas experiencing significant insecurity or political instability. In 
16 missions around the world, nearly 130,000 United Nations 
peacekeepers are contributing to stability and promoting peace and 
reconciliation.
    These are just some of the countless examples where U.S. interests 
are advanced through coordination at the United Nations and across many 
other international organizations. The United States simply cannot, and 
should not, address such global challenges alone. Working through the 
multilateral system enables us to mobilize global action. And it allows 
us to leverage the commitments of other countries to ensure that the 
financial burdens of that action are shared across the international 
community.
    Now, with all of that being said, there is no denying that the 
United Nations and other international organizations have not always 
proven to be effective stewards of U.S. taxpayer resources. For too 
long, the United Nations operated without the necessary commitment to 
transparency, accountability, and results.
    In recognition of that reality, the United States and numerous 
partner countries have pressed the United Nations system to embrace 
modern management and budgeting practices. Since becoming Assistant 
Secretary in September 2014, I have prioritized management and budget 
reform issues across the United Nations and other international 
organizations, and I have used my position and voice as frequently as 
possible to push for progress. The results of this sustained engagement 
are clear.
    Within the past month, we've reached agreement to no-growth budgets 
at both the International Labor Organization and the Food and 
Agriculture Organization. This continues a trend of limiting growth in 
international organizations' budgets. For instance, at over half of the 
more than 45 organizations we fund through the Contributions to 
International Organizations account, we are projecting no increases in 
assessments for fiscal year 2016.
    Just 2 weeks ago, I cochaired a meeting in Geneva of the top donors 
to the United Nations system, where we agreed to form a working group 
of senior government and United Nations agency representatives to look 
at United Nations performance management practices. We also agreed on a 
plan to increase scrutiny of how United Nations agencies are handling 
their own audits and ethics rules, including protections of 
whistleblowers from retaliation.
    We're seeing gradual progress on needed reforms in this area. Two 
organizations that previously did not provide access to audit reports, 
the International Maritime Organization and the International 
Telecommunication Union, have begun providing access. At the United 
Nations, we gained agreement in December to permanent public access to 
audit and evaluation reports. And two other organizations that had 
shortcomings in their whistleblower protection policies, the 
Organization of American States and the World Health Organization, have 
corrected those shortcomings. This week, we are hosting here in 
Washington two additional gatherings of the top donors to the United 
Nations system to focus on finding additional efficiencies in the 
multilateral system, including discussing the status of World Health 
Organization reforms in the wake of their response to the Ebola crisis.
    Last month, I traveled to a UNICEF coordination facility in 
Copenhagen that shows the United Nations' procurement system at its 
best. At the facility, UNICEF is working with partners to create 
economies of scale to drive down the price of immunizations and other 
crucial goods. That effort will not only save the United Nations tens 
of millions of dollars every year, but it also will bring untold 
benefit to communities around the world. It is these kinds of efforts 
that we are trying to replicate across the entire multilateral system.
    Furthermore, we remain determined in our efforts to improve 
accountability and transparency measures in peacekeeping operations. We 
initiated a comprehensive review of civilian staff in missions, 
resulting in significant reductions and cost savings. We are holding 
troop contributing countries accountable through financial penalties if 
they deploy units to United Nations peace operations with missing or 
nonfunctioning equipment. And we worked with our partners at the United 
Nations to initiate a firm prohibition on payments to troops sent home 
for misconduct, including for sexual exploitation and abuse.
    These examples of reforms and best practices are promising. But 
unfortunately, they are not yet the norm, and we remain frustrated by 
sluggish progress in other areas. For example, some organizations 
continue to struggle to provide whistleblower protections, and the 
formulas that determine how much funding each member state contributes 
to the important work of the United Nations remain woefully outdated. 
There is clearly more work to be done across the board.
    I am grateful to this subcommittee for holding today's hearing and 
for your continued interest in our work at the United Nations and other 
international organizations. As I said in my confirmation hearing 
before this committee, we have a deep stake in shaping the continual 
renewal of the international system and making sure it is as efficient 
and effective as possible. The investments we make in the multilateral 
arena today are more important than ever in advancing U.S. national 
interests around the globe. Congress, and especially members of this 
subcommittee, play a critical role in helping to ensure taxpayer 
resources are used efficiently at multilateral institutions to help 
advance U.S. objectives. I welcome the opportunity to discuss these 
issues with you and your staff any time, and I am happy to answer any 
questions you may have.

    Senator Barrasso. Well, thank you very much, Secretary 
Crocker.
    Next we will hear from Ambassador Coleman.

      STATEMENT OF HON. ISOBEL COLEMAN, AMBASSADOR, U.S. 
 REPRESENTATIVE TO THE UNITED NATIONS FOR U.N. MANAGEMENT AND 
   REFORM, U.S. MISSION TO THE UNITED NATIONS, WASHINGTON, DC

    Ambassador Coleman. Thank you, Chairman Barrasso, Ranking 
Member Udall, and distinguished members of the committee, for 
inviting me to testify on our efforts to make the United 
Nations a more efficient and effective institution.
    I have been in my role as U.S. Ambassador for U.N. 
Management and Reform for nearly 5 months now and have had 
numerous opportunities to see firsthand how the work of the 
U.N. is both indispensable and imperfect. I recently returned 
from visiting with the U.N.'s largest peacekeeping mission in 
the Democratic Republic of Congo, a country where a decade-long 
war starting in the mid-1990s claimed some 5 million lives. 
Today, the U.N. plays a critical role in contributing to the 
maintenance of a fragile peace in Congo. I visited bases in 
North and South Kivu from which U.N. peacekeepers patrol the 
surrounding areas and assist in disarming militias. I toured a 
U.N. camp where child soldiers are being demobilized and 
reintegrated into their communities.
    My trip to the DRC provided me with a powerful 
demonstration of the U.N. at its best, how it can help prevent 
conflict, keep the peace, go where nobody else will go to care 
for the neediest of the world, and promote universal values 
that Americans hold dear.
    However, I also saw an organization struggling to do 
critical work in more effective ways. There is ample room for 
improvement, from how troops are trained and equipped to how 
complicated missions staff up and draw down. As the Ambassador 
for U.N. Management and Reform, my job is to ensure that U.S. 
taxpayer dollars are spent wisely, and I recognize that 
opportunities and challenges abound in making the U.N. a more 
efficient, transparent, and accountable organization.
    As the largest financial contributor to the United Nations, 
we put budget discipline at the forefront of our efforts to 
ensure that the U.N. is constantly seeking ways to do more with 
less. Last December, we kept the increase in U.S. assessments 
below 2 percent compared to 4 percent or higher in biennia 
past, even in the face of new commitments such as responding to 
the Ebola crisis. We further set a budget planning figure for 
the next biennium that is 1.6 percent lower than the current 
level. This followed a significant reduction in the staffing 
level during the previous budget period, the first such action 
in almost 20 years.
    Equally as important as controlling the top line is 
ensuring fairness in how much we are required to pay to the 
United Nations. This means, first and foremost, protecting the 
22 percent ceiling on the regular budget, as that ceiling not 
only lowers our rate on the regular budget but also our 
starting point on the far larger peacekeeping budget. 
Nevertheless, we are committed to paying our U.N. dues on time 
and in full, and we will be working hard this fall during the 
scales of assessments negotiations to ensure that all countries 
pay their fair share.
    Additionally, we continue to promote long-term structural 
savings in U.N. budgets through innovation, including through 
new IT systems that will enable the U.N. to modernize its 
approach to functions such as procurement, human resources, 
finance, and supply chain management. A recent change we 
secured in procurement methodology, for example, will enable 
the U.N. to get better value on the more than 700 million 
dollars' worth of annual air contracts that it has. And we are 
pleased to note that an American company was one of the first 
to win a contract under the new rules. We have pushed these 
reforms as an important means of achieving substantial U.N. 
headcount reductions and cost savings from the streamlining of 
business processes.
    We have also worked hard to ensure that U.N. staff costs 
are more in line with the U.S. Federal Government because the 
U.N. uses the U.S. Government's pay scale as the basis of 
comparison. To that end, we have achieved freezes in U.N. pay 
and benefits, a powerful lever for budget control since staff 
costs comprise more than 70 percent of the U.N.'s budget.
    We have also focused on ways to make peacekeeping 
operations more effective, such as promoting the Global Field 
Support Strategy, a move to shared services for peacekeeping 
missions that has led to at least $250 million in savings. As a 
result of this and other initiatives, the cost per U.N. 
uniformed peacekeeper has been reduced by 17 percent since 2008 
when adjusted for inflation. We continually keep U.N. missions 
under review to ensure they are right-sized, and seize the 
opportunity to draw down when appropriate, as will occur this 
year in peacekeeping missions in Cote d'Ivoire, Haiti, Liberia, 
and the U.N.'s emergency response to Ebola, among other 
missions.
    We also press the U.N. to be more transparent and 
accountable. We achieved a significant increase in transparency 
in December by making permanent the public disclosure of the 
U.N. audit and inspection reports of the various programs so 
that all taxpayers can see how their money is spent. We 
continue to seek to strengthen the Inspector General of the 
U.N. by providing the resources and personnel needed to 
effectively fulfill its oversight role in headquarters and in 
the field.
    However, we recognize that our efforts at reform will be 
diminished unless we ensure the U.N.'s integrity. Too often, 
incidents of fraud, abuse, and mismanagement undermine the 
organization's good work, hurting the very people the U.N. is 
supposed to be protecting. We continue to push the U.N. to 
address misconduct issues, especially sexual exploitation and 
abuse. We support the establishment of an office to improve the 
evaluation of the performance and readiness of peacekeeping 
units in the field. And we also continue to work with the U.N. 
to strengthen its whistleblower protection policies.
    Reform can succeed at the U.N. even though the pace is 
frustratingly slow. But we owe it to U.S. taxpayers and to the 
billions of people who depend, many for their lives, on crucial 
services of the U.N. to push for change.
    Thank you again for the opportunity to testify today, and I 
welcome any questions you might have.
    [The prepared statement of Ambassador Coleman follows:]

            Prepared Statement of Ambassador Isobel Coleman

    Thank you Chairman Barrasso, Ranking Member Udall and distinguished 
members of the committee for inviting me to testify on our efforts to 
make the United Nations a more efficient and effective institution.
    I have been in my role as U.S. Ambassador for U.N. Management and 
Reform for nearly 5 months now, and have had numerous opportunities to 
see firsthand how the work of the U.N. is both ``indispensable'' and 
``imperfect.'' I recently returned from visiting the United Nations 
largest peacekeeping mission in the Democratic Republic of Congo--a 
country where a decade-long war starting in the mid-1990s claimed some 
5 million lives. Today, the U.N. plays a critical role in contributing 
to the maintenance of a fragile peace in Congo. I visited bases in 
North and South Kivu from which U.N. peacekeepers patrol the 
surrounding areas, and assist in disarming militias. I toured a U.N. 
camp where child soldiers are being demobilized and reintegrated into 
their communities.
    My trip to the DRC provided me with a powerful demonstration of the 
U.N. at its best: how it can help prevent conflict, keep the peace, go 
where nobody else will go to care for the neediest of the world, and 
promote universal values that Americans hold dear. However, I also saw 
an organization struggling to do its critical work in more effective 
ways. There is ample room for improvement, from how troops are trained 
and equipped, to how complicated missions staff up and draw down. 
As the Ambassador for U.N. Management and Reform, my job is to ensure 
that 
U.S. taxpayer dollars are spent wisely, and I recognize that 
opportunities and challenges abound in making the U.N. a more 
efficient, transparent, and accountable 
institution.
    As the largest financial contributor to the United Nations, we put 
budget discipline at the forefront of our efforts to ensure that the 
U.N. is constantly seeking ways to do more with less. Last December, we 
kept the increase in U.S. assessments below 2 percent compared to 4 
percent or higher in biennia past, even in the face of new commitments 
such as responding to the Ebola crisis. We further set a budget 
planning figure for the next biennium that is 1.6 percent lower than 
the current level. This followed a significant reduction in the 
staffing level during the previous budget period, the first such action 
in almost 20 years.
    Equally as important as controlling the topline is ensuring 
fairness in how much we are required to pay to the United Nations. This 
means first and foremost protecting the 22 percent ceiling on the 
regular budget, as that ceiling not only lowers our rate on the regular 
budget, but also our starting point on the far larger peacekeeping 
budget. Nevertheless, we are committed to paying our U.N. dues on time 
and in full, and we will be working hard this fall during the scales of 
assessments negotiations to ensure that all countries pay their fair 
share.
    Additionally, we continue to promote long-term structural savings 
in U.N. budgets through innovation, including through new IT systems 
that will enable the U.N. to modernize its approach to functions such 
as procurement, human resources, finance, and supply chain management. 
A recent change we secured in procurement methodology, for example, 
will enable the U.N. to get better value on its 700 million dollars' 
worth of annual air contracts. And we are pleased to note that an 
American company was one of the first to win a contract under the new 
rules. We have pushed these reforms as an important means of achieving 
substantial U.N. headcount reductions and cost savings from the 
streamlining of business processes.
    We also have worked hard to ensure that U.N. staff costs are more 
in line with the U.S. Federal Government--because the U.N. uses the 
U.S. Government's pay scale as basis of comparison. To that end, we 
have achieved freezes in U.N. pay and benefits, a powerful lever for 
budget control since staff costs comprise more than 70 percent of the 
U.N.'s budget.
    We have also focused on ways to make peacekeeping operations more 
effective, such as promoting the Global Field Support Strategy, a move 
to shared services for peacekeeping missions that has led to at least 
$250 million in savings. As a result of this and other initiatives, the 
cost per U.N. uniformed peacekeeper has been reduced by 17 percent 
since 2008, when adjusted for inflation. We continually keep U.N. 
missions under review to ensure they are right-sized, and seize the 
opportunity to draw down when appropriate, as will occur this year in 
peacekeeping missions in Cote d'Ivoire, Haiti, Liberia, and the U.N.'s 
emergency response to Ebola (UNMEER), among other missions.
    We also press the U.N. to be more transparent and accountable. We 
achieved a significant increase in transparency in December by making 
permanent the public disclosure of U.N. audit and inspection reports of 
the various programs so 
that all taxpayers can see how their money is being spent. We continue 
to seek to strengthen the Inspector General of the U.N. called the 
Office of Internal Oversight Services (OIOS) by providing the resources 
and personnel needed to effectively fulfill its oversight role in 
headquarters and in the field.
    However, we recognize that our efforts at reform will be diminished 
unless we ensure the U.N.'s integrity: too often, incidents of fraud, 
abuse, and mismanagement undermine the organization's important work by 
hurting the very people the U.N. is supposed to be protecting, and 
damaging public support for the U.N. We continue to push the U.N. to 
address misconduct issues, especially sexual exploitation and abuse 
(SEA), to ensure that effective processes are in place for prevention 
and accountability. We supported the establishment of an office to 
improve the evaluation of the performance and readiness of peacekeeping 
units in the field. We also continue to work with the U.N. to 
strengthen its whistleblower protection policies and how they can 
implement those policies more robustly.
    Reform can succeed at the U.N., even though the pace is 
frustratingly slow. But we owe it to U.S. taxpayers and to the billions 
of people who depend, many for their lives, on crucial U.N. services to 
push for change.
    Thank you again for the opportunity to testify today and I welcome 
any questions you may have.

    Senator Barrasso. Well, thank you very much, Ambassador 
Coleman. We appreciate your testimony.
    And we will now move to Acting Assistant Secretary Garber.

STATEMENT OF HON. JUDITH G. GARBER, ACTING ASSISTANT SECRETARY, 
BUREAU OF OCEANS AND INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC 
       AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Garber. Good afternoon, Chairman Barrasso, Ranking 
Member Udall. Thank you for the opportunity to testify on the 
programs and policies of the Bureau of Oceans and International 
Environmental and Scientific Affairs at the State Department. 
It is truly my honor to highlight a few of OES's major program 
priorities today.
    Secretary Kerry has made ocean conservation an imperative 
of U.S. foreign policy. The June 2014 Our Ocean Conference 
already is having concrete results to improve sustainable 
fisheries, to reduce marine pollution, and to better monitor 
ocean acidification. We have launched an ocean action plan with 
significant public engagement around the world, including 
working to bring the Port State Measures Agreement into force.
    I would like to thank the Senate for its support of these 
efforts. This agreement will recoup some of the billions of 
dollars lost each year to illegal, unreported, and unregulated 
fishing.
    In another example of our work, on April 24, the United 
States assumed the chairmanship of the Arctic Council and 
introduced an ambitious and balanced program focusing on three 
crucial areas: improving economic and living conditions for 
Arctic communities; Arctic Ocean safety, security, and 
stewardship; and addressing the impacts of climate change. In 
the months ahead, OES will work with Arctic stakeholders to 
improve community sanitation and public health to better 
prepare those responsible for search and rescue challenges in 
the Arctic and to reduce contaminants in the Arctic, including 
black carbon.
    Although OES does not lead U.S. negotiations on climate 
change, we take critical steps to spur a global all-hands-on-
deck effort. For example, we are working closely with the 
leadership of the Office of the Special Envoy for Climate 
Change to reduce climate pollutants such as methane, black 
carbon, and hydrofluorocarbons through the Climate and Clean 
Air Coalition. The CCAC is a voluntary initiative with dozens 
of countries and other stakeholder groups participating that 
enjoys bipartisan support in Congress.
    Combating wildlife trafficking is a whole-of-government 
effort, which OES coordinates among Federal agencies and pushes 
for stronger international commitment and collaboration. For 
example, we are seeking to leverage trade agreements such as 
the Trans-Pacific Partnership to press countries which account 
for a sizeable portion of the demand for illegal wildlife to 
live up to their international commitments.
    Science and technology are key drivers of the global 
economy, making them vital tools in diplomacy. S&T engagement 
creates partnerships with countries to tackle shared challenges 
such as energy security, food security, global health, climate 
change, and water scarcity. OES, with its strong complement of 
Ph.D. scientists and subject-matter experts work to ensure that 
objective scientific data informs public policy decisionmaking. 
The Joint Committee Meetings, such as the one we are having 
later this week with Germany, and science dialogues that OES 
hosts with other countries create platforms to promote 
innovation and advance policy priorities such as combating 
antibiotic-resistant bacteria and data access for U.S. 
scientists.
    OES helps advance the U.S. global health mission. The Ebola 
epidemic is a striking example of the impact that health 
threats have on our own security and of the critical importance 
of sustainable health systems overseas. Looking to the future, 
we are working to ensure the continued commitment of 
international resources for health system build-back in the 
affected Ebola countries, leaving them stronger and more 
resilient than they were before the epidemic.
    In addressing global health, we work with the Department of 
Health and Human Services, USAID, and other U.S. agencies to 
facilitate U.S. policies to counter international bioterrorism 
and infectious disease, provide surveillance and response, and 
improve health in post-conflict situations.
    The last example I would like to highlight is space. OES 
furthers the goals of national space policy by helping to build 
an international policy framework that supports the peaceful 
exploration and utilization of outer space by both public 
institutions and new private ventures. A number of U.S. 
companies have recently announced plans for unprecedented 
commercial activities in outer space. A safe, transparent, and 
accountable approach is critical in providing commercial space 
companies and investors a degree of certainty enabling them to 
make investments and spur innovation.
    By addressing these many complex challenges, OES seeks to 
leave a healthier planet for generations to come. We are 
supporting these efforts by our foot soldiers, some 300 
environment, science, technology, and health officers at our 
embassies overseas. Together we promote American values, foster 
an entrepreneurial spirit, and build relationships.
    Thank you for the opportunity to testify today, and I look 
forward to responding to any questions you may have.
    [The prepared statement of Ms. Garber follows:]

           Prepared Statement of Acting Assistant Secretary 
                       of State Judith G. Garber

                              introduction
    Chairman Barrasso, Ranking Member Udall, and distinguished members 
of the subcommittee, thank you for the invitation to testify today on 
the programs, policies and resources of the Bureau of Oceans and 
International Environmental and Scientific Affairs (OES) at the State 
Department. The OES Bureau traces its beginnings within the Department 
back to 1973. In 1973, Congress passed a State Department authorization 
bill (Public Law 93-126) establishing OES with wide-ranging global 
responsibilities, including science, pollution, conservation, and 
health, to name a few. From an historical perspective, the Bureau was 
created against the backdrop of space exploration and landmark 
legislation establishing the Clean Water, Clean Air, and Marine Mammal 
Protection Acts, among others. At a time when foreign policy was viewed 
through the lens of the cold war, Congress correctly saw the need for 
these issues to be treated as an integral part of our foreign policy. 
Since 1973, OES Assistant Secretaries and the many foreign and civil 
servants in OES have worked hard to this end. Today, OES issues are 
front and center on the international agenda and are recognized 
worldwide as critical foreign policy and security issues. Our foreign 
policy efforts to address these fundamental topics are more critical 
than ever.
    Changes to our organizational structure are helping OES meet the 
opportunities presented by the rising prominence of these foreign 
policy challenges. The Department's first Quadrennial Diplomacy and 
Development Review (QDDR), released in 2010, realigned the three 
Bureaus addressing economic growth, energy and the environment under 
the Office of the Under Secretary for Economic Growth, Energy and the 
Environment. This realignment has created new synergies among the three 
Bureaus to strengthen America's security and prosperity and has fueled 
the evolution of our diplomacy and development strategies. The just 
released 2015 QDDR contains further evidence of the priority placed 
upon OES issues, and the incorporation of these issues into the broader 
diplomatic and development mainstream.
    As coordinator of the interagency process for many international 
ocean, environmental, scientific and health issues, OES brings federal 
entities together such as the National Oceanic and Atmospheric 
Administration (NOAA), U.S. Agency for International Development 
(USAID), the Environmental Protection Agency (EPA), the National 
Science Foundation (NSF), and the Department of Health and Human 
Services (HHS), to meld our collective agendas into coherent U.S. 
Government policies, negotiating positions, and programs. We integrate 
into this work the interests of private stakeholders (including 
nongovernmental domestic and international entities). Against this 
backdrop, I will now turn to a description of the Bureau's major 
program priorities; address how they serve U.S. national and economic 
interests; and describe some of our plans moving forward.
                  seizing the momentum on ocean issues
    Secretary Kerry has made ocean conservation a centerpiece of U.S. 
foreign policy, including by hosting the groundbreaking ``Our Ocean'' 
Conference in Washington last June. The conference was a tremendous 
success, spurring new partnerships and initiatives valued at more than 
$800 million to conserve the ocean and its resources, as well as new 
commitments on the protection of more than 3 million square kilometers 
of the ocean.
    In the wake of that conference, we have made significant progress 
on sustainable fishing, marine pollution and plastics, ocean 
acidification, and marine protected areas. For example, the 
administration just rolled out its historic plan to fight illegal, 
unreported, and unregulated fishing and seafood fraud. This plan, 
developed by the Task Force on Combating Illegal, Unreported, and 
Unregulated Fishing and Seafood convened by the President provides a 
comprehensive framework of integrated programs to combat IUU fishing 
and seafood fraud. The plan breaks new ground in sustainable fisheries 
and aims to level the playing field for legal fishers and fishing 
businesses in the United States and around the world by strengthening 
enforcement, creating and expanding partnerships among local, regional, 
and international actors, and creating a risk-based traceability 
program to track seafood from harvest to entry into U.S. commerce.
    Last year the United States created the largest marine protected 
area (or ``MPA'') in the world by expanding our Pacific Remote Islands 
Marine National Monument by six times its original size. We also want 
to make sure MPAs around the world are not just paper parks, so we are 
working to improve cooperation, capacity, and the application of new 
technologies to detect illegal activities in these areas. We are very 
interested in working with other governments to create more, and more 
effective, MPAs to help the long-term health and sustainability of our 
ocean.
    Our priorities for the next Our Ocean Conference, which Chile will 
host later this year in Valparaiso, are to move forward on promoting 
sustainable fisheries (especially by bringing the Port State Measures 
Agreement into force), reducing marine debris (especially plastic 
waste), improving worldwide capability to monitor ocean acidification, 
and creating new and more effective MPAs.
    Although we are working to take advantage of the opportunities 
presented by the recent focus on the ocean, the United States has a 
strong, decades-long record of global leadership in conserving and 
managing shared fisheries resources. We negotiated innovative 
mechanisms like the U.N. Fish Stocks Agreement, the U.N. Food and 
Agriculture Organization (FAO) Fisheries Compliance Agreement and the 
FAO Code of Conduct for Responsible Fishing, to strengthen the 
conservation and management regimes of the world's fish stocks. With 
science underpinning the work of our regional fisheries management 
organizations, the United States is already a party to more than a 
dozen such regional agreements governing such diverse resources as 
tunas in the Pacific and Atlantic Oceans, groundfish in the North 
Atlantic Ocean and the Bering Sea, and salmon in the North Pacific and 
North Atlantic Oceans, among others.
    In addition to conserving target fish stocks, international 
fisheries agreements and other forms of cooperation can advance 
important economic benefits for the owners and operators of U.S. 
fishing vessels, associated industries, and consumers. In negotiating 
agreements, OES works to promote fair and equitable fishing access 
opportunities for U.S. vessels, while also protecting our global and 
regional marine conservation interests. For example, the 1987 
Multilateral Treaty on Fisheries--also referred to as the South Pacific 
Tuna Treaty--has for decades set the terms and conditions for the U.S. 
purse seine fleet to fish in a vast area of the western and central 
Pacific Ocean, providing access for up to 40 vessels to some of the 
most valuable tuna resources in the world. In collaboration with 
Department and interagency partners, OES leads U.S. efforts to revise 
and extend the terms of the treaty and explore other ways to ensure 
economically viable fishing access to waters under the jurisdiction of 
Pacific Island parties. The parties met most recently in March 2015 to 
discuss renegotiation of the treaty, as well as fishing access 
opportunities for the U.S. purse seine fleet in 2016. We remain 
committed to working with the Pacific Island parties to achieve an 
outcome that meets the economic objectives of both sides and 
contributes to an effective and transparent conservation and management 
regime.
    We are extremely pleased to note that the Senate, acknowledging the 
importance of taking action to address IUU fishing and sustainable 
fisheries management, gave its advice and consent to the following four 
important treaties last year to help cement U.S. leadership in these 
areas: The FAO Agreement on Port State Measures to Prevent, Deter and 
Eliminate Illegal, Unreported and Unregulated Fishing (hereinafter the 
``Port State Measures Agreement'' or ``PSMA''); The Convention on the 
Conservation and Management of High Seas Fisheries Resources of the 
North Pacific Ocean (hereinafter ``NPFC Convention''); The Convention 
on the Conservation and Management of High Seas Fishery Resources of 
the South Pacific Ocean (hereinafter ``SPRFMO Convention''); and 
Amendments to the Convention on Future Multilateral Cooperation in the 
Northwest Atlantic Fisheries (hereinafter ``NAFO Amendments''). These 
four agreements represent significant progress in protecting U.S. 
interests to prevent illegal fishing activities from undermining our 
global and regional efforts toward these ends, advance our 
international policies and priorities to conserve and manage shared 
living marine resources, and protect U.S. interests and the broader 
marine environment from the effects of destructive fishing practices. 
OES participated in all four negotiations that led to agreements the 
U.S. Senate approved and we continue to work with NOAA and USAID as 
part of an effective strategy to educate and raise awareness among 
foreign governments and the fishing industry of the deleterious effects 
of destructive fishing practices.
    Turning to a brief description of the four treaties, the Port State 
Measures Agreement is the first binding global agreement specifically 
intended to combat IUU fishing. IUU fishing undermines efforts to 
conserve and manage shared fish stocks and threatens the sustainability 
of all fisheries. The global values of economic losses due to IUU 
fishing have been estimated to be in the billions of dollars each year. 
The large number of developing nations that depend on fisheries for 
food security and export income are particularly vulnerable. A 
secondary benefit to the United States joining the Port State Measures 
Agreement and the other treaties under consideration is that it will 
give the United States additional tools to address illegal activities 
that are often intertwined with IUU fishing, including labor 
exploitation, drug trafficking, environmental degradation, and 
organized crime. Since IUU fishers can operate anywhere, detecting 
activities at sea is difficult and expensive. But, in order to sell or 
trade their illegal catch, they ultimately need to ensure that it is 
brought to a port for landing or transshipment. The Port State Measures 
Agreement establishes standards and requirements for port States to 
ensure IUU-caught fish will not be landed, transshipped, packaged, or 
processed in their ports.
    The OES Bureau is working to bring the Port State Measures 
Agreement into force in order to combat illegal, unreported, and 
unregulated (IUU) fishing by driving up the bad actors' cost of doing 
business and preventing illegally caught fish from entering global 
seafood markets. This is just one example of how we are carrying out 
the Secretary's vision on ocean conservation.
    Turning to the Convention on the Conservation and Management of 
High Seas Fisheries Resources of the North Pacific Ocean, the 
Convention Area of the NPFC Convention includes areas of the high seas 
immediately adjacent to the U.S. Exclusive Economic Zone (EEZ) off 
Alaska, the Pacific west coast, Hawaii, and U.S. territories and 
possessions in the North Pacific. U.S. accession will create a stronger 
United States leadership role in managing fishing activities outside 
the U.S. EEZ that could have a direct impact on resources within waters 
under U.S. jurisdiction.
    The SPRFMO Convention establishes the South Pacific Regional 
Fisheries Management Organization (SPRFMO) through which the Parties 
will cooperate to ensure the long-term and sustainable use of fisheries 
in the Convention Area. Although the United States currently has no 
fishing activity for fish stocks covered by the Convention, accession 
to the Convention will yield significant benefits to U.S. interests. 
The Convention Area includes areas of the high seas closest to the U.S. 
territory of American Samoa, and immediately adjacent to the U.S. 
Exclusive Economic Zone off a number of U.S. Pacific possessions 
including Jarvis, Howland and Baker Islands, Kingman Reef and Palmyra 
Atoll. As in the NPFC, U.S. accession to the SPRFMO Convention will 
ensure participatory rights for U.S. fishers in fisheries within the 
Convention Area.
    NAFO is charged with coordinating scientific study and cooperative 
management of the fisheries resources of the Northwest Atlantic Ocean, 
excluding salmon, tunas, and sedentary species of the Continental 
Shelf. The NAFO-adopted amendments add additional rigor and 
transparency to the decisionmaking process, establish a dispute 
settlement procedure, improve the guiding language for allocating 
catches, and provide a more equitable basis for calculating Contracting 
Parties' budget contributions more equitably.
    These agreements have strong economic benefits as well as strong 
support from a broad and diverse range of U.S. stakeholders from both 
the fishing industry and conservation community. In the weeks ahead, we 
will continue to work diligently with the Senate and the House of 
Representatives to move implementing legislation this year to make 
joining these agreements a reality.
                       leading the arctic council
    The Arctic Council is the preeminent international forum for 
promoting cooperation, coordination, and interaction among the Arctic 
States (Canada, Denmark (via Greenland), Finland, Iceland, Norway, 
Russia, Sweden, and the United States). Its mandate encompasses 
critically important environmental and economic issues with the active 
engagement of indigenous communities and other stakeholders. Created in 
1996, the Council is chaired by each member state for 2 years.
    On April 24, the United States assumed the Arctic Council 
Chairmanship and introduced an ambitious and balanced program focusing 
on three crucial areas: improving economic and living conditions for 
Arctic communities; Arctic Ocean safety, security and stewardship; and 
addressing the impacts of climate change. These priorities are 
consistent with the priorities laid out in the National Strategy for 
the Arctic Region and its subsequent Implementation Plan. Under the 
leadership of ADM Robert Papp, the U.S. Special Representative for the 
Arctic and former Commandant of the United States Coast Guard, OES is 
working with its domestic and international Arctic partners to assist 
remote Arctic communities with adapting to the rapid changes that are 
altering traditional ways of life, prioritize collaborative search and 
rescue and oil pollution preparedness and response exercises, implement 
circumpolar demonstration projects to reduce contaminants in the 
Arctic, including black carbon, develop national black carbon emission 
inventories, and work with Arctic stakeholders to encourage positive 
collaborative relationships, while continuing to see the region's 
marine ecosystems and resources flourish. As Chair of the Arctic 
Council, we are committed to advancing our national interests, pursuing 
responsible stewardship, and strengthening international cooperation in 
the Arctic Council among all Arctic stakeholders. OES intends to 
contribute in a sustained and meaningful way toward achieving these 
objectives.
    Joining the Law of the Sea Convention remains a top priority for 
the Obama administration, including for important considerations 
relating to the Arctic. The Convention, which sets forth a 
comprehensive legal framework governing uses of the oceans, protects 
and advances a broad range of U.S. interests, including U.S. national 
security and economic interests. U.S. accession will secure, as treaty 
law, highly favorable provisions that guarantee our military and 
commercial vessels worldwide navigational rights, and accord to the 
United States expansive sovereign rights over offshore resources, 
including oil and gas on the continental shelf beyond 200 nautical 
miles. Accession will also support important U.S. geostrategic 
interests by underscoring our engagement in the Arctic and 
strengthening our engagement in East Asia, particularly around South 
Asia maritime issues. Becoming a Party to the Law of the Sea Convention 
would allow the United States to fully secure its rights to the 
continental shelf off the coast of Alaska, which is likely to extend 
out to more than 600 nautical miles.
                       confronting climate change
    As the February 2015 National Security Strategy states, ``climate 
change is an urgent and growing threat to our national security, 
contributing to increased natural disasters, refugee flows, and 
conflicts over basic resources like food and water. The present day 
effects of climate change are being felt from the Arctic to the 
Midwest. Increased sea levels and storm surges threaten coastal 
regions, infrastructure, and property. In turn, the global economy 
suffers, compounding the growing costs of preparing and restoring 
infrastructure.''
    Although OES does not lead U.S. negotiations on climate change, the 
Office of the Special Envoy for Climate Change (SECC) relies on the 
Bureau for scientific and technical support. In confronting this 
challenge, we have taken numerous steps to exercise leadership and spur 
a global all-hands-on-deck effort. I will highlight just a few examples 
of this leadership. In November, the United States and China made a 
historic announcement of their intended post-2020 targets to reduce 
carbon emissions. The United States announced a strong national target 
to reduce carbon emissions 26-28 percent below 2005 levels by 2025 and 
China agreed--for the first time--to peak its CO2 emissions around the 
year 2030--and to make best efforts to peak before then. China also 
announced an ambitious target of achieving around 20 percent nonfossil 
energy in its energy mix by 2030. The United States and China are the 
world's two largest economies and the two largest emitters of carbon 
pollution. As crucial participants in climate change negotiations, the 
U.S.-China joint announcement provides momentum for the climate 
negotiations and firmly establishes that the outcome of the Paris 
conference later this year will reflect action from both developed and 
developing countries. The United States also has a critically important 
overall bilateral foreign policy relationship with China which the 
announcement reinforces.
    The administration exercised leadership in promoting climate-
resilience international development when he signed an Executive Order 
13677 in September 2014. The EO directed United States department and 
agencies to integrate climate-resilience into all U.S. international 
development work. These additional considerations are critical for 
managing risks posed by climate change in vulnerable populations and 
for insuring U.S. investments would continue to benefit developing 
countries even as climate changes. The Working Group on Climate-
Resilient International Development is actively developing guidelines 
for integrating climate change considerations in international 
decisions, identifying and facilitating the exchange of existing 
climate-change data and tools, and sharing best practices with other 
donor countries to advance climate-resilient developmental policies.
    In another example, in November, 2014, President Obama announced 
the intention of the United States to contribute $3 billion to the 
Green Climate Fund (GCF), reflecting the U.S. commitment to reduce 
carbon pollution and strengthen resilience in developing countries, 
especially the poorest and most vulnerable. By financing investments 
that help countries reduce carbon pollution and strengthen resilience 
to climate change, the GCF will help leverage public and private 
finance to avoid some of the most catastrophic risks of climate change. 
By reducing those risks, the GCF will help promote smart, sustainable 
long-term economic growth and preserve stability and security in 
fragile regions of strategic importance to the United States. We would 
also note that the United States will play a significant role in 
deciding how and where to disburse funds from the GCF, and our 
contributions to the GCF will not subject the United States to any new 
enforceable international obligations or oversight. The U.S. pledge of 
up to $3 billion to the GCF demonstrated U.S. leadership and was 
instrumental in catalyzing further contributions from developed and 
developing countries to the GCF. The GCF is just one element of a much 
larger effort by the international community to mobilize $100 billion 
from a variety of sources, including both public finance and private 
investment by 2020.
    The U.S. contribution to the GCF builds on a history of U.S. 
leadership to support climate action. In 2008, the Bush administration 
pledged $2 billion to the Climate Investment Funds, which were 
established as a transitional measure to finance efforts to help 
developing countries address climate change. The U.S. pledge to the GCF 
demonstrates a continuation of the bipartisan resolve to help 
developing nations reduce their own emissions as well as to help the 
most vulnerable cope with the impacts of climate change. The GCF will 
also help spur global markets in clean energy technologies, creating 
opportunities for U.S. entrepreneurs and manufacturers who are leading 
the way to a low-carbon future.
    In addition to concluding a successful international climate change 
agreement this December, we are committed to the success of the Climate 
and Clean Air Coalition (CCAC) to reduce climate pollutants such as 
methane, black carbon and hydrofluorocarbons (HFCs). The CCAC, a 
voluntary initiative with 41 country and 52 nonstate partners, is a 
pillar of international efforts to reduce pollution and protect human 
health. We appreciate the bipartisan efforts of Senators Murphy and 
Collins in championing landmark legislation to address these short-
lived climate pollutants in the United States.
    We are also working with Mexico and Canada to garner global support 
for a North American amendment to the highly successful Montreal 
Protocol to phase down the production and consumption and eliminate 
byproduct emissions of HFCs. These potent greenhouse gases are rapidly 
increasing in the atmosphere mostly due to increased demand for 
refrigeration and air conditioning, and because they are the primary 
replacements for ozone depleting substances (ODS) being phased out 
under the Montreal Protocol. This amendment could produce benefits of 
more than 90 billion tons of carbon dioxide-equivalent through 2050.
    Last month, I had the honor of participating in an important 
symposium on climate change at St. John's College in Santa Fe with 
former New Mexico Senator Jeff Bingaman and other distinguished 
panelists. I was impressed by the enthusiasm, genuine interest and 
reservoir of good will the audience displayed.
                          wildlife trafficking
    Wildlife trafficking is a multi-billion-dollar criminal enterprise 
that is both a conservation concern and an acute security threat. The 
increasing involvement of organized crime in wildlife trafficking 
promotes corruption, threatens the peace and security of fragile 
regions, strengthens illicit trade routes, destabilizes economies and 
communities that depend on wildlife for their livelihoods, and 
contributes to the spread of disease.
    Driven by high demand and high profits for wildlife and wildlife 
products, coupled with low risk of detection and often inadequate 
penalties, criminal syndicates are increasingly drawn to wildlife 
trafficking, which generates revenues conservatively estimated at $8-10 
billion per year. Rhino horn, for example, is currently worth more than 
gold, yet in many parts of the world those caught engaging in wildlife 
trafficking may risk small fines or minimal jail sentencing. 
Recognizing that this issue will require significant and sustained 
effort, OES worked closely with the cochairs and other members of the 
Presidential Task Force on Wildlife Trafficking over this past year to 
develop an Implementation Plan for the National Strategy for Combating 
Wildlife Trafficking. The Implementation Plan was released this past 
February on the first anniversary of the release of the National 
Strategy. The Plan will be our roadmap going forward. It details how we 
will further realize the Strategy's goals, it lays out specific next 
steps, it identifies lead agencies for each objective, and it defines 
how we will measure our progress.
    OES is leading the coordination of two elements of the Strategy--
building international cooperation and public-private partnerships to 
combat wildlife poaching and illegal trade; and reducing demand for 
illegally traded wildlife at home and abroad. To this end, we are 
engaging diplomatically to catalyze political will and mobilize global 
support for the fight against wildlife trafficking. This includes 
efforts to strengthen international agreements that protect wildlife, 
promote conservation commitments, and fight wildlife trafficking within 
and between countries and regions, while enlisting the support of our 
partners--ranging from nonprofit conservation groups and grass-roots 
activists to private industry and the media.
    We've made progress in our interactions with China. Last July, 
during the U.S.-China Strategic and Economic Dialogue, Secretary of 
State John Kerry, together with China's Vice Premier Liu and State 
Councilor Yang confirmed their commitment to stamp out illegal trade in 
wildlife. And in November, President Obama and Chinese President Xi 
Jinping reaffirmed this commitment and agreed to cooperate in the areas 
of e-commerce, public outreach, joint training, and law enforcement. 
Last month, I met with Chinese officials in Beijing for an exchange on 
the concrete activities we are undertaking on these commitments, as 
well as with Chinese wildlife NGOs who expressed appreciation for our 
focus on combating wildlife trafficking.
    Through our support for regional Wildlife Enforcement Networks 
(WENs), OES is also contributing to the third strategic priority--
strengthening domestic and global enforcement, including assessing the 
related laws, regulations, and enforcement tools.
    Addressing the threats that wildlife trafficking poses is truly a 
whole-of-government effort with more than a dozen federal agencies 
working collaboratively on this issue. OES works within and outside the 
Department to promote greater information-sharing and coordination 
within and among governments, law enforcement and intelligence 
agencies, conservation groups and other actors working in this area. 
One important effort is to leverage trade agreements and trade policy 
to press countries and regions which account for a sizeable portion of 
the consumption, illegal take and trade of wildlife and wildlife 
products to uphold their commitments to combat wildlife trafficking and 
strengthen wildlife conservation.
    We appreciate the strong attention Congress is paying to the issues 
of poaching, smuggling, and the involvement of transnational organized 
crime. We would like to extend our thanks to Senator Udall, in 
particular, for his commitment to raising the profile of this issue. 
This is evidenced by legislation he has cosponsored in the past to 
strengthen the role of the United States in the international community 
to conserve natural resources to further global prosperity and 
security. We believe that the steps the United States is taking to 
implement the national Strategy will go a long way to achieve the 
legislation's goals.
             increasing markets for u.s. goods and services
    OES leads implementation of environmental cooperation mechanisms 
that provide capacity-building and technical assistance to support 
fulfilment of environmental provisions USTR negotiates in free trade 
agreements. Since 2012, the Bureau has provided critical support to FTA 
partners from Latin America to the Middle East, with notable successes 
including capacity building for environmental oversight and enforcement 
bodies; bringing over 40.5 million hectares under improved natural 
resource management; training for over 30,700 farmers in 
environmentally friendly practices; and assistance to 829 small and 
medium sized enterprises to reduce their energy and water use and waste 
and emissions.
    Looking ahead, OES anticipates that trade-related cooperation 
programs will help support implementation of FTA obligations in future 
agreements. For example, the administration is pursuing environmental 
commitments in the Trans-Pacific Partnership Agreement (TPP) with 11 
other countries in the Asia-Pacific region as well as the Transatlantic 
Trade and Investment Partnership Agreement (T-TIP) negotiations with 
the European Union (EU). The TPP in particular includes countries 
accounting for an estimated $8-$10 billion in illegal wildlife trade, 
and one-quarter of global marine catch and global seafood exports. The 
TPP is on track to include commitments that the parties maintain high 
levels of environmental protection and effectively enforce domestic 
environmental laws. It would also include strengthened protections for 
wildlife, and commitments to combat IUU fishing, and prohibit harmful 
fisheries subsidies, including those that contribute to overfishing. 
These commitments would also be fully enforceable, including through 
recourse to trade sanctions.
    The United States has already concluded numerous free trade 
agreements and cooperated extensively with six TPP countries, including 
Australia, Canada, Chile, Mexico, Peru, and Singapore. We also have 
significant ongoing environmental capacity-building activities with 
Brunei, Malaysia, and Vietnam. To give you an idea of Bureau's 
successes related to trade and the environment, since 2012, over 40.5 
million hectares are under improved natural resource management; over 
30,700 farmers have been trained in environmentally friendly practices; 
a total of 829 small and medium sized enterprises have been helped to 
reduce their energy and water use and waste and emissions. In a 
nutshell, we are pushing for the world's highest standards in the 
environmental chapters of the trade agreements that we are pursuing.
                          water and sanitation
    Perhaps no two issues are as important to human health, economic 
development and peace and security as access to water and sanitation. 
By 2025, nearly two-thirds of the world's population will be living 
under water stressed conditions, including roughly a billion people 
that will face absolute water scarcity (a level that threatens economic 
development as well as human health). According to the 2012 
Intelligence Community Assessment on Global Water Security, ``During 
the next 10 years, many countries important to the United States will 
experience water problems--shortage, poor water quality, or floods--
that will risk instability and state failure, increase regional 
tensions, and distract them from working with the United States on 
important U.S. policy objectives.'' Without water, countries will 
struggle to produce food, generate energy, and sustain the ecosystems 
on which all life depends. These impacts are being translated across 
the global economy. For instance, the 2011 flooding in Thailand shut 
down manufacturing and disrupted global supply chains, impacting the 
production of cars and computers in the United States. As water 
resources become scarce, tensions are likely to rise. Globally, more 
than 260 rivers are shared by two or more nations. Many countries view 
water as a national security issue which is often embedded within 
broader set of regional relationships and concerns.
    The State Department is working to expand access to safe drinking 
water and sanitation, improve the management of water resources, and 
promote cooperation on shared waters. On the Nile, OES has supported 
efforts by the riparian countries to establish a cooperative framework 
for managing the basin's water resources and to reach an agreement on 
controversial projects. OES also leads the Environment and Water pillar 
in the Lower Mekong Initiative--working within the region to improve 
the sustainability of hydropower infrastructure on a river system that 
produces some 90 percent of the protein consumed regionally, and which 
will likely become a major source of energy for the region.
    Many water resource issues will be exacerbated by climate change. 
The State Department is working with other federal agencies to insure 
climate-resilience will be addressed in international development 
decisions. This insures that investments in the future of developing 
countries would withstand and adapt to changes in temperature, 
precipitation, and sea-level rise.
    We have developed partnerships, like the U.S. Water Partnership, a 
public-private partnership which unites and mobilizes American 
knowledge, expertise and resources to address international water 
challenges, especially in developing countries where needs are 
greatest. We have supported colleagues from USAID, the Millennium 
Challenge Corporation and many others from across the U.S. Government 
in their efforts to bring safe drinking water and sanitation to 
millions of people throughout the world.
                    leading in science & innovation
    Science and technology (S&T) are among the most respected fields of 
endeavor in our society, creating opportunities for international 
leadership in science diplomacy. Science and technology are key drivers 
of the global economy, making them vital tools in diplomacy and 
development. S&T engagement can create partnerships with developed and 
developing countries to tackle the most pressing problems confronting 
humanity: climate change, energy security, food security and water 
shortages. OES, with its strong complement of Ph.D. scientists and 
subject matter experts, helps to ensure that our decisions are rooted 
in science and that objective scientific data informs public policy 
decisionmaking. Through our bilateral science and technology 
relationships, we provide a framework for scientific engagement and 
contribute to a diversity of thought in line with key U.S. policies, 
including intellectual property rights and access to data. Our science 
diplomacy facilitates access for U.S. researchers to cutting edge 
research as well as research infrastructure overseas. The Joint 
Committee Meetings and science dialogues that OES hosts create 
platforms to promote the administration's policy and program 
initiatives, such as the national strategies on innovation and 
combatting antibiotic-resistant bacteria.
    I just returned last week from Colombia where I participated in an 
environmental and scientific dialogue to enhance U.S. understanding of 
the complexities that Colombia faces to sustain its natural resource 
base in a post-conflict environment. The importance of the State 
Department's efforts, including those of our embassies and consulates 
overseas, to build relationships with representatives of foreign 
governments in respective areas of expertise cannot be overstated. This 
communication leads to more confidence, trust and understanding of 
cultures. Absent such an exchange of ideas, fostering U.S. economic 
growth and opening up new markets for Americans becomes a more 
difficult undertaking.
    The Bureau's investments in science, technology, and innovation 
have shown results. The OES-sponsored Global Innovation through Science 
and Technology (GIST) initiative has worked in 86 emerging economies to 
train over 4,500 startups and has created a network of over 243,000 
young motivated entrepreneurs who are moving their science and 
technology based innovations into the commercial arena. As the National 
Security Strategy notes, ``More than 50 percent of the world's people 
are under 30 years old. Many struggle to make a life in countries with 
broken governance.'' Our GIST program is a small and inexpensive effort 
to tap into the collective global entrepreneurial spirit and to the 
sharp and nimble minds of young people everywhere to foster sustained 
growth and prosperity. The GIST initiative does not operate in a 
vacuum. It is part of the Department's larger Shared Prosperity Agenda 
that seeks to advance U.S. commercial and economic interests worldwide, 
elevate the role of economics in U.S. foreign policy, and provide the 
Department's personnel with the needed tools and training to carry out 
that mission.
    Additionally, the Science Envoy program continues to build on its 
previous successes, with the unveiling of the fifth cohort of eminent 
scientists, bringing their expertise and engagement to bear in our 
engagement with countries and civil society around the world. This new 
cohort is focusing on infectious disease, energy, women in science, and 
the ocean.
                        addressing global health
    Building health capacity abroad is a central pillar of U.S. foreign 
policy; OES is a critical partner in advancing the U.S. global health 
mission. The Ebola epidemic is a striking example of the impact health 
threats have on the security, stability and the development potential 
of nations and of the critical importance of sustainable health 
systems. OES works with foreign governments, international 
organizations, and civil society to help countries develop the health 
standards and systems they need for stable, healthy, productive 
societies. We work with global partners to improve their ability to 
prevent, detect, and respond to health emergencies, whether from 
disease, disaster, food contamination, or the accidental or intentional 
release of a biological agent. In addressing global health, we also 
coordinate the work of the Department and other federal agencies to 
facilitate U.S. policies to counter international bioterrorism and 
infectious disease, provide surveillance and response, protect 
environmental health and improve health in post-conflict situations.
    Having seconded key staff members to the Department's Ebola 
Coordination Unit since September 2014, the OES Bureau reassumed lead 
responsibility for addressing the health, science, and technology 
related aspects of the response effort when the Unit stood down 
effective March 31. We are working hand in hand with the Department's 
Bureau of African Affairs, as well as a host of U.S. agencies and 
international organizations and the affected country governments to 
ensure that all three affected countries reach--and stay at--zero new 
cases. Reaching ``zero'' will require epidemiological teams to track 
down every step in the transmission chain. New flareups in Guinea and 
Sierra Leone, coupled with continued challenges with social 
mobilization, make clear the need for continued international action to 
stop future and ongoing transmissions. OES is working to secure a 
sustained commitment from donor nations to ensure that the resources 
needed are available to end the epidemic. In one specific example, OES 
led diplomatic outreach efforts to encourage francophone countries to 
deploy senior epidemiologists as a first priority.
    Looking to the future, the OES Bureau is working to ensure the 
continued commitment of international resources for health system 
build-back in the affected countries, leaving them stronger and more 
resilient than they were before this epidemic. With the heightened 
global awareness of the devastating impact of health emergencies, we 
are actively pursuing international efforts to improve local, national, 
regional and global efforts to prevent, detect, and respond to health 
threats. We are involved in extensive diplomatic engagement and 
coordinate the work of the Department and other federal agencies to 
advance measurable progress under the Global Health Security Agenda 
launched by President Obama and 40 nations on September 26, 2014. In 
addition to advancing GHSA globally, OES enables advancement of some of 
the GHSA core elements including vaccination, the International Health 
regulations, and combating antibiotic resistance.
    The OES Assistant Secretary serves as the Special Representative on 
Avian and Pandemic Influenza and Pandemic Influenza Coordinator. In 
this capacity, OES led the successful adoption of the Pandemic 
Influenza Preparedness Framework at the World Health Organization. This 
broke new ground by creating a public-private partnership to improve 
influenza preparedness capabilities around the world. This required 
taking an innovative approach with both funding and donated vaccines 
from the private sector and utilizing WHO's surveillance and response 
network. As a result of the norms established by this Framework, China, 
the WHO, and other international partners such as the United States 
were able to rapidly and transparently share information during the 
2013 outbreak of H7N9 avian influenza and thereby facilitate 
surveillance activities and the immediate development of a vaccine to 
prevent an epidemic from ever arising.
    OES also supports global vaccination activities such as the global 
effort to eradicate polio. OES engages donors, regional organizations, 
and multilateral organizations to encourage support of global polio 
eradication efforts and to condemn violence against polio workers in 
Pakistan. While the world is closer than ever to eradicating polio, 
substantial political and security challenges remain. OES engagement 
has led to an increased commitment from new donors to the polio 
eradication effort including the United Arab Emirates and Saudi Arabia.
    OES addresses environmental risks to human health through 
negotiations on chemicals, ozone, air quality, climate change, and 
other environmental issues--with particular attention to vulnerable 
populations such as children and nursing mothers as well as in 
communities in high risk locations such as the Arctic and Small Island 
Developing States. We are working to limit mercury deposition, improve 
quality, remove lead additives from paint, reduce risk in artisanal and 
small-scale gold mining operations and seek better interim means for 
storing mercury. These dangerous pollutants are well known to cause 
severe health effects and even death. For example, last year the World 
Health Organization released a report noting that there are 7 million 
premature deaths every year caused by largely preventable air 
pollution. We also promote cross-sectoral coordination among the 
medical, veterinary, agricultural, environmental, and security fields 
and corresponding governmental bodies. Both human health and prosperity 
are linked to animal health through organisms that can infect both 
humans and animals and the economic importance of livestock.
                      expanding space cooperation
    As the 2010 National Space Policy notes, ``Space systems allow 
people and governments around the world to see with clarity, 
communicate with certainty, navigate with accuracy, and operate with 
assurance. The United States hereby renews its pledge of cooperation in 
the belief that with strengthened international collaboration and 
reinvigorated U.S. leadership, all nations and peoples--space-faring 
and space-benefiting, will find their horizons broadened, their 
knowledge enhanced, and their lives greatly improved.'' The OES Bureau 
is furthering the goals of our national space policy by helping to 
build an international policy framework that supports the peaceful 
exploration and utilization of outer space by both public institutions 
and new private ventures. A number of U.S. companies have recently 
announced plans for unprecedented commercial activities in outer space, 
including on-orbit satellite servicing and exploitation of lunar and 
asteroid resources. Ensuring that the executive branch is in a position 
to authorize and supervise them consistent with U.S. international 
obligations, and assuring our foreign partners that these activities 
will be conducted in accordance with international law, is critical in 
providing commercial space companies and investors a degree of 
certainty enabling them to make greater investments and spurring 
innovation.
    The Bureau represents the Department on civil space policy 
formulation within the executive branch, leads interagency coordination 
on all civil space-related international agreements implementing 
important NASA, NOAA, and USGS cooperation with other space agency 
partners, and plays a key role in the implementation of National Space 
Policy focused on dual-use space applications such as space-based 
positioning, navigation, and timing, satellite-based remote sensing and 
earth observation, and the monitoring of physical phenomena in the Sun-
Earth system (space weather). A little known fact about the work of the 
Bureau is that OES maintains the official U.S. registry of objects 
launched into outer space and has primary responsibility for U.S. 
representation to the United Nations (U.N.) Committee on the Peaceful 
Uses of Outer Space (UNCOPUOS).
    A huge success for the Bureau over the past 15 years has been the 
coordination of a broad diplomatic effort to encourage acceptance of 
the U.S. Global Positioning System (GPS) as a worldwide standard for 
satellite-based navigation. GPS has grown into a global public asset. 
Its multiuse services are integral to U.S. national security, economic 
growth, transportation safety, and homeland security, and are an 
essential element of the worldwide economic infrastructure. OES leads 
both bilateral dialogues with other global navigation satellite system 
(GNSS) providers and multilateral coordination through the 
International Committee on GNSS (ICG), to promote compatibility and 
interoperability with GPS, and transparent civil service provision, and 
trade practices that ensure open and fair market-driven competition for 
GNSS goods and services.
                               conclusion
    With the support of Congress, OES is helping to promote American 
values, promote global stability and protect the environment both at 
home and abroad by leading and supporting crucial international 
negotiations and creating valuable partnerships among key stakeholders 
on crucial topics such as oceans, water and sanitation, pollution, 
science cooperation, and public health. By helping young science and 
technology entrepreneurs, we are leading the way in providing 
opportunities for U.S. businesses and economic growth. Though we 
address many complex challenges in OES, our overarching objective is to 
leave a healthier planet for generations to come than the one we 
currently occupy.
    Thank you for the opportunity to testify and I look forward to 
responding to any questions you may have.

    Senator Barrasso. Thank you very much, Secretary Garber.
    Now we will turn to Principal Deputy Assistant Secretary 
Tong. Mr. Secretary.

    STATEMENT OF HON. KURT TONG, PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY, BUREAU OF ECONOMIC AND BUSINESS AFFAIRS, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Tong. Thank you, Mr. Chairman, Mr. Ranking Member 
Udall. Let me add my thanks for this opportunity to appear 
today to discuss how the State Department's Bureau of Economic 
and Business Affairs works to keep Americans safe and 
prosperous.
    In my 25 years with the Department of State, serving mostly 
in the dynamic economies of East Asia, I have seen firsthand 
how economic ties can strengthen and transform our diplomatic 
and security relationships with other nations. I have also seen 
how vital successful economic diplomacy is to both U.S. 
leadership abroad and to American prosperity here at home.
    Although I speak for my Bureau today, we work as a global 
team, functional and regional bureaus in the State Department 
working seamlessly with our dedicated economic policy personnel 
at over 270 U.S. posts overseas, all of that in concert with 
colleagues serving in other economic policy agencies here in 
Washington.
    We have three strategic priorities.
    First, we use economic diplomacy to benefit the lives and 
livelihoods of Americans. Whether it is expanding U.S. exports 
overseas, attracting new job-creating investment to our shores, 
protecting U.S. innovations and intellectual property rights, 
crafting and implementing sanctions, promoting 
entrepreneurship, or helping U.S. air carriers expand their 
rights, every day we fight for the interests of American 
businesses, workers, farmers, travelers, consumers, and 
citizens.
    Through technology, we can now reach a broader array of 
U.S. stakeholders much more efficiently than before, for 
instance, via our Direct Line program, which is a big plus in 
responding quickly to emerging issues and commercial 
opportunities.
    Our second priority is to negotiate agreements that foster 
a more open, inclusive, and rules-based economic environment 
around the world. The scope of these agreements extends well 
beyond trade to include investment, transportation, 
telecommunications, agriculture, intellectual property, and it 
is State Department economic officers in the field who help 
ensure that these agreements are implemented.
    Third, we use economic diplomacy as a tool to advance 
broader policy objectives by supporting, for example, 
sustainable development and good governance in partner 
countries and by applying tough, targeted sanctions where 
necessary. All of these efforts, of course, are taking place in 
an increasingly complex international policy environment.
    The good news here is that the global middle class is 
expanding worldwide and expanding rapidly, creating new 
opportunities to benefit America. Also, it is good news that 
more and more nations are concentrating wholeheartedly on being 
more competitive based on market principles, and more and more 
regions around the world are cooperating to promote mutually 
beneficial growth.
    However, as more nations have a voice in shaping global 
economic policy, the United States itself must be both more 
aggressive and more sophisticated in shaping what is going on. 
Therefore, Mr. Chairman, in my remaining time, I would like to 
mention how we are tackling new challenges with new tools.
    The State Department's key asset, of course, is its people, 
but our resources in that regard are limited. So it makes sense 
that we are concentrating on training, improved communications, 
and making sure that our operations are informed by smart 
strategies. The recently issued Quadrennial Diplomacy and 
Development Review, or QDDR, has specific suggestions for how 
we can further upgrade our work on economic diplomacy by 
improving coordination between regional and functional bureaus 
at the State Department and by assuring that our most talented 
officers lead our economic teams in key embassies overseas. The 
QDDR also calls for more and enhanced training, including 
distance learning, as well as long-term detail assignments to 
give our officers firsthand experience working at U.S. 
companies and in other parts of Government. We are also 
developing new tools to make our diplomacy more agile and data-
driven, including new IT platforms to collaborate across the 
globe and an organization-wide push to better use and share 
information. The QDDR calls for investing in an agile, skilled, 
and diverse workforce ready to lead, and I could not agree 
more.
    So, Mr. Chairman, I think you will agree that it is an 
extraordinarily active period for economic diplomacy. Mr. 
Ranking Member, I thank you for using the term ``economic 
diplomacy.'' And so I welcome your questions on these and other 
issues going forward. And thank you again for the opportunity 
to testify.
    [The prepared statement of Mr. Tong follows:]

  Prepared Statement of Principal Deputy Assistant Secretary Kurt Tong

    Thank you Chairman Barrasso, Ranking Member Udall, and other 
members of the subcommittee, for this opportunity to discuss how the 
State Department works for the United States and for the U.S. economy, 
helping to create jobs and prosperity for Americans. I am here 
representing the Department's Bureau of Economic and Business Affairs; 
it is a privilege to be joined by colleagues from our Bureau of 
International Organizations, Bureau of Oceans and International 
Environmental and Scientific Affairs, and U.S. Mission to the United 
Nations.
    The Bureau of Economic and Business Affairs (``EB'') uses economic 
diplomacy to advance the prosperity and security of all Americans by 
working with partners around the world to negotiate and implement 
agreements which shape the rules of global commerce. We give the 
Secretary a global perspective on economic, financial, and development 
issues; lead efforts to expand trade, investment, transportation, and 
telecommunications links; shape U.S. engagement in global economic 
discussions including at the G7, G20, Organization for Economic 
Cooperation and Development (OECD), and the Asia-Pacific Economic 
Cooperation (APEC) forum; craft and implement U.S. sanctions; promote 
entrepreneurship overseas, especially in unstable societies; and ensure 
that the success of the U.S. economy and U.S. business is at the heart 
of our foreign policy.
                       economic diplomacy matters
    As Secretary Kerry has said on many occasions, we at the State 
Department view economic policy and foreign policy as two sides of the 
same coin: economic diplomacy and support for sustainable development 
are part and parcel of defending our Nation's interests and ensuring 
the well-being of all Americans. The 2015 Quadrennial Diplomacy and 
Development Review (QDDR), released April 28, reaffirms the central 
role of economic diplomacy and offers concrete proposals to strengthen 
our capacity to work for freedom, prosperity, and stability around the 
world. Through the Secretary's Shared Prosperity Agenda, we are working 
across regional and functional lines to ensure unity of effort in our 
foreign policy. Whether the issue is ensuring access to energy in 
Central America and South Asia, supporting economic growth and 
stability in the Middle East, building prosperity in the Mekong Delta 
region, or broadening access to the Internet and modern 
telecommunications in world's poorest countries, these efforts can and 
must be mutually reinforcing. Inclusive economic growth is a central 
pillar of these efforts and a principal driver of our commitment to 
help end extreme poverty, an aim that is central to USAID's mission.
    The rapid growth of emerging markets, particularly in east Asia and 
Africa, makes it critical that we use economic and commercial tools to 
support U.S. jobs and unlock opportunities for U.S. business in 
overseas markets, consistent with broader U.S. foreign policy 
objectives. This entails commercial advocacy to promote U.S. exports, 
protect intellectual property, and attract job-creating investment to 
the United States; economic diplomacy to shape the rules of global 
trade, finance, travel, transport, and the digital economy; and U.S. 
support for foreign government policies that advance economic 
prosperity, stability, entrepreneurship, and good governance. Sanctions 
and financial countermeasures have also become key tools to address 
broader challenges including terrorism, organized crime, and threats to 
international peace and security.
We help the U.S. economy grow, by expanding access to overseas markets 
        and attracting job-creating foreign investment to our shores
    EB has no higher priority than supporting exports of U.S. goods and 
services and the inflow of job-creating foreign investment, both of 
which sustain economic growth here in the United States. In 2014, the 
State Department contributed to U.S. Government advocacy efforts that 
supported $80 billion in U.S. export deals and 11.3 million jobs linked 
to exports. Through EB's Partner Post program with the Department of 
Commerce--in which our embassies without U.S. Foreign Commercial 
Service (CS) presence can offer CS-branded services--we are doing 
superb work supporting U.S. companies in those markets and in 
attracting foreign investors to the United States. For instance, our 
Embassy in Kosovo, a market of only about 2 million people, conducted 
trade promotion activities in 2014 contributing to $770 million in 
prospective business deals between U.S. companies and the Government of 
Kosovo. Commercial advocacy and facilitation are our top priority, 
because when U.S. firms win overseas contracts and expand into new 
markets, they benefit and so do the foreign countries in which they 
operate. In North Africa and Central America, for instance, the State 
Department and its missions work with leading U.S. companies to offer 
cost-effective solutions for those economies in transition.
    We are always looking for new ways to support and communicate with 
U.S. business. In FY 2014, EB launched the BIDS/Business Information 
Database System portal (bids.state.gov) to alert U.S. businesses to 
significant global procurement opportunities. BIDS currently features 
440 leads with a combined value of over $218 billion. Since 2013, EB 
and U.S. missions overseas have conducted over 130 ``Direct Line'' 
calls and webinars with U.S. companies. Direct Line lets U.S. 
businesses talk directly to our Ambassadors and economic officers at 
Posts ranging from Shanghai (the most recent example) to Libya, Costa 
Rica, and points in between. Since its inception in 2012, over 5,000 
U.S. companies and nearly 200 Posts have participated in Direct Line 
calls and webinars.
    On any given day, the Department and its economic officers in the 
field engage with dozens of foreign governments to ensure that U.S. 
businesses can sell their goods and services in those markets. For 
instance, when the Saudi Government implemented new fuel economy 
standards, we worked to keep that market open for our automotive 
producers while advancing U.S. climate objectives. In Kenya, we 
successfully addressed a customs issue that had made the distribution 
of U.S. films in that market uneconomical. Around the world, we address 
gaps in the protection of our intellectual property rights (IPR) and 
support public outreach to convey the importance of protecting IPR. 
Often this work is innovative. In Cambodia, EB worked with Embassy 
Phnom Penh and the local Ministry of Health to host a poster 
competition to increase awareness of the dangers of counterfeit and 
substandard medications: over 2,000 poster designs in English and Khmer 
were submitted, and the winner was printed and displayed at every 
pharmacy in the country. Another example is our support for Consulate 
General Guangzhou's hugely successful smartphone application, which 
offers job-search advice for young professionals--an influential 
segment of China's population--so that they can consider intellectual 
property issues when they apply for jobs at multinationals. The app 
features videos by top executives from Google, Hasbro, and Harley-
Davidson who talk about their companies' core values and what they seek 
in potential employees, with examples of ``good'' and ``bad'' resumes 
and cover letters, all to help instill a culture of valuing and 
protecting IPR.
    Likewise, we and our missions overseas are active on agricultural 
trade and Sanitary and Phytosanitary (SPS) issues to ensure that U.S. 
farmers--who are without peer in their productivity and innovation--can 
sell their products in fast-growing foreign markets. EB worked with 
dozens of partner countries to adopt an international standard for 
ractopamine in animal feed, enabling U.S. pork and beef producers to 
gain access to a number of foreign markets.
    My Bureau has been particularly active in the ICT (Information and 
Communications Technology) and digital economy sectors, which have 
accounted for much of our economic growth and innovation in the past 25 
years. In recent years, the Department of State has worked successfully 
to avert localization and privacy rules in foreign jurisdictions that 
would unnecessarily impede the digital infrastructure vital to U.S. 
commercial interests and to open flows of information across borders.
    Since U.S. investment overseas and U.S. exports go hand in hand--
and since the United States is a leading recipient of job-creating 
foreign investment--we work hard to ensure that U.S. companies enjoy 
the benefits of strong bilateral and multilateral investment 
provisions. In 2014, I was pleased to help launch the EB-facilitated 
``Global Enterprise Registration'' portal (www.globalereg.co), that 
makes it easier for startups to register and grow through cross-border 
investments. EB also worked closely with Commerce to recruit SelectUSA 
initiative as part of our Cross-Agency Priority Goal to attract more 
job-creating investment to the United States.
We negotiate agreements that foster a more open, inclusive, 
        transparent, and rules-based global economy
    The Department of State and its missions around the world are where 
``the rubber meets the road'' for the international agreements that 
make possible an expanding and interconnected global economy, something 
that is essential for our prosperity and that of our partners. 
Currently, public attention is focused on the administration's 
ambitious negotiations for a Trans-Pacific Partnership (TPP) and 
Transatlantic Trade and Investment Partnership (TTIP)--agreements 
which, if enacted, will substantially expand U.S. commercial 
opportunities and support continued economic growth here in the United 
States. EB sends subject matter experts to support both these key 
negotiations. At the same time, EB, State Department Posts, and our 
partners in U.S. Trade Representative and Department of Commerce work 
to negotiate and implement a wide range of bilateral and multilateral 
agreements and understandings, all with the aim of fostering a more 
open, inclusive, and rules-based global economy consistent with U.S. 
interests.
    For instance, EB and USTR cochair the negotiation of bilateral 
investment treaties (BITs), including our ongoing talks with China. 
This negotiation provides a major opportunity to engage with China on 
issues related to its economic reform, and to improve market access, 
investor protection, and transparency for U.S. firms operating in 
China's market. We are also assessing the prospects for a high standard 
BIT with India, and with other key partners, including in sub-Saharan 
Africa and Asia.
    In 2014, we helped conclude the Trade Facilitation Agreement (TFA) 
under the World Trade Organization (WTO); studies estimate that trade 
facilitation, including via the TFA, could increase global GDP by as 
much as $1 trillion. Through the WTO, OECD, World Customs Organization 
(WCO) and a number of other technical bodies, and working directly with 
host governments, we help ensure that international agreements are 
translated into national policies that allow U.S. goods and services to 
flow across borders. Given the critical role of foreign governments and 
state-owned enterprises (SOEs) in the global economy, EB continues to 
work on expanding the coverage of the WTO Government Procurement 
Agreement, to monitor the role of SOEs, and to support fiscal 
transparency efforts in partner countries. The global fight against 
corruption and foreign bribery remains critical, and EB, which 
spearheaded the OECD Anti-Bribery Convention two decades ago, continues 
to lead the U.S. effort to ensure that our partners enact and implement 
measures against foreign commercial bribery along the lines of our 
Foreign Corrupt Practices Act (FCPA); we have seen substantial progress 
in this area in recent years, but much work remains to be done.
    Here too, the ICT and digital economy sectors are critical and EB 
has led the effort to advance U.S. priorities on Internet governance, 
ensuring an open and global Internet, free from governmental controls. 
EB led the United States delegation to the International 
Telecommunication Union's (ITU) highest level treaty conference late 
last year, securing agreement that there would be no expansion of ITU's 
role in Internet governance or cybersecurity. EB is leading the U.S. 
push to expand access spectrum for mobile broadband and pave the way 
for remotely piloting aircraft and myriad space science activities at 
the ITU's World Radiocommunication Conference (WRC-15) later this year, 
seizing the opportunity to advance U.S. innovation and economic growth, 
further strengthen national security, and accelerate U.S. research and 
leadership. In multilateral discussions of ICT issues--and in our 
robust dialogues on Internet Economy issues with partners such as 
Japan, China, the Republic of Korea, Brazil, Colombia, and the European 
Union and several of its member states--the U.S. side incorporates both 
government and industry voices to ensure that U.S. business and other 
stakeholder views are considered in policy discussions.
    Aviation is another key sector where the State Department has 
pioneered agreements that expand market access for U.S. carriers and 
other U.S. business. Over the past year, we negotiated a new bilateral 
aviation agreement with Mexico that, when implemented, will allow U.S. 
airlines to fly as often as they want between any U.S. city and any 
point in Mexico, a boon for our carriers and other U.S. businesses that 
will support jobs here in the United States. Since the safety and 
security of the traveling public must always come first, EB recently 
worked to design and implement a new interagency procedure to ensure 
that information about U.S. Government actions affecting U.S. 
commercial aviation near global conflict zones is shared with foreign 
partners via the U.N. International Civil Aviation Organization (ICAO) 
and with American travelers.
    The Department of State works with the Department of Treasury to 
realize repayment of U.S. Government debts with sovereign borrowers, 
working bilaterally and through the Paris Club group of creditors. In 
May 2014, we negotiated an arrangement with the Government of Argentina 
that provides for full repayment over 5 years of $608 million in 
outstanding debt owed to U.S. taxpayers. We also work closely with U.S. 
Government creditor agencies to ensure timely payments from sovereign 
borrowers throughout the year.
We work to expand the scope of stable and prosperous democracies with 
        well-functioning, market-driven economies
    As Secretary Kerry has persuasively argued, most recently at the 
Atlantic Council on April 23, U.S. leadership on economic issues and 
our national security are inextricably connected. For that reason, the 
State Department and USAID are closely engaged in supporting the 
economic stability and prosperity of our partners around the world, and 
EB is part of that effort.
    In recent years and months, the Department of State has facilitated 
official loan guarantees to key partner countries (Jordan, Tunisia, and 
Ukraine); worked to expand U.S. economic and commercial ties with 
African partners, culminating in the historic U.S.-Africa Leaders' 
Summit in August 2014; helped lead the campaign that made 2014 the 
first year of full European Bank for Reconstruction and Development 
(EBRD) operations in the Middle East and North Africa region with over 
$1 billion in financing for Egypt, Jordan, Morocco, and Tunisia; and 
supported entrepreneurship programs around the world including high-
profile Global Entrepreneurship summits in Morocco (November 2014) and 
this summer in Kenya, among many other efforts. EB works with Treasury 
to promote debt sustainability both bilaterally as a sovereign creditor 
and multilaterally through the International Monetary Fund (IMF), the 
World Bank, the OECD, and the Paris Club. This is particularly 
important given our investment in the Heavily Indebted Poor Countries 
(HIPC) initiative that helps reduce debt burdens to sustainable levels. 
It is also increasingly important as developing countries diversify 
their financing, including through private bond offerings, many of 
which are first time or ``frontier'' issuances.
    Because national security and the economy are so closely 
intertwined, EB works closely with the Treasury Department to craft and 
implement economic sanctions and financial measures in support of U.S. 
foreign policy objectives and the international fight against terrorism 
and organized crime. Over the past year, EB helped forge sanctions 
against Russia that imposed costs for its actions in Ukraine; shaped 
new sanction measures in Central African Republic and South Sudan; and 
implemented limited sanctions relief for Iran while negotiations 
continue. Because U.S. companies and NGOs are active worldwide, 
including in conflict areas, EB has worked to speed processing of 
sanctions licenses and exemptions to civil society and the private 
sector where these are warranted.
    Telecommunications and the Internet are critical to improving 
economic conditions around the world. EB has supported the APEC 
Telecommunications Mutual Recognition Arrangement (TEL MRA), which 
helps bring new telecommunications technologies to market faster. TEL 
MRA allows mutual recognition of testing and certification of new 
technologies done in certified labs, but requires engagement from 
regulators and standards authorities in participating APEC economies. 
With more than half the world's mobile phone subscribers in Asia, this 
arrangement saves consumers and industry billions of dollars annually 
and opens new opportunities for U.S. business in fast-growing markets.
    In Africa, the Department of State is working on a broad range of 
economic issues, in particular telecommunications and the Internet. 
Following on the heels of the U.S.-African Union Commission (AUC) High 
Level Dialogue (HLD), EB is joining forces with U.S. industry and other 
U.S. agencies to accelerate the adoption of national broadband plans 
across Africa. This week, EB is partnering with our Embassy in Rwanda, 
USAID's Development Lab, the Alliance for Affordable Internet and Intel 
Corporation to host an Africa-wide National Broadband Plan and 
Universal Service Funds (NBP-USF) forum to share insights on promoting 
ICT-enabled economic growth and fostering a better investment climate. 
With this forum, EB has worked with U.S. industry to facilitate the 
training of nearly 400 African officials working on ICT issues.
    Around the world, the Department of State and our missions press 
partner governments to improve labor and environmental practices and 
workplace safety, most notably in Bangladesh's apparel and textile 
sector. I am proud of EB's role in highlighting the many exemplary 
cases of Responsible Business Conduct (RBC) by U.S. companies overseas 
via the Secretary of State's Award for Corporate Excellence (ACE), 
established in 1999, which recognizes outstanding contributions by U.S. 
businesses in their overseas operations as good corporate citizens. We 
are engaged on the administration's National Action Plan (NAP) on RBC, 
to articulate U.S. commitments to create an enabling environment for 
U.S. businesses operating abroad and to spotlight best practices by 
those companies.
We adjust our tools, tactics, and resource outlays to advance U.S. 
        economic diplomacy and to respond to world events
    Finally, EB takes the administration's performance agenda and our 
stewardship of taxpayer resources to heart. Through the BIDS portal, 
Direct Line communications, and other efforts, EB is making measurable 
progress in supporting U.S. economic and foreign policy interests. EB 
and our Posts provide critical support for the Commerce-led Cross-
Agency Priority (CAP) goal of attracting job-creating investment, which 
recently culminated in the 2015 SelectUSA Summit, to which almost 50 of 
our Ambassadors led investor delegations from their countries of 
posting. EB worked with Commerce to recruit over 1,300 potential 
foreign investors for that successful event. Expanding our engagement 
with U.S. stakeholders is also a priority, in particular through the 
State Department's Advisory Committee on International Economic Policy 
(ACIEP)
    In recent years, EB has supported the President's and Secretary's 
ambitious foreign policy agenda--including on fast-moving world events 
such as the response to economic and security challenges in Ukraine and 
the Middle East, support for U.S. business, and support for critical 
engagement on Iran and Cuba--while holding the line on our budget. We 
have met these challenges by realigning people, portfolios, and 
resources: in a resource-neutral reorganization, EB was able to 
strengthen the offices that lead on these high profile issues and 
others. At the same time, we shifted portfolios to ensure that enduring 
responsibilities such as trade and aviation negotiations were met with 
the same high-caliber expertise. We have also leveraged technologies to 
expand our commercial outreach via the aforementioned BIDS, Direct 
Line, and GER platforms. Our small investment in IT continues to reap 
benefits for the American people, and we would like to do more in this 
area.
    EB manages several relatively small, but strategically targeted, 
operational policy programs:

  <bullet> EB's Agricultural Biotechnology outreach program helps 
        missions conduct activities to encourage the adoption of 
        science-based regulatory systems and promote acceptance of 
        agricultural biotechnologies in key overseas markets. Most 
        activities are in the range of $10,000 to $25,000, with some as 
        small as $500 and others as large as $50,000.
  <bullet> Our Business Facilitation Incentive Fund (BFIF) helps 
        missions that do not have Commercial Service presence 
        (currently 56 Posts) to conduct field activities to promote 
        U.S. exports and attract inward investment to the United 
        States. For FY 14, BFIF supported 123 activities ranging from 
        $575 to $14,000.
  <bullet> EB and USAID jointly manage the Fiscal Transparency 
        Innovation Fund (FTIF), which supports mission-proposed 
        projects that assist partner governments and NGOs working to 
        improve fiscal transparency in countries that do not currently 
        meet minimum standards for fiscal transparency or have 
        continuing weaknesses in public financial management. The 
        Department will provide up to a total of $7 million in FY 2014-
        appropriated Economic Support Funds (ESF) for FTIF projects.
  <bullet> The Department's IPR Public Diplomacy outreach program 
        supports mission efforts to raise awareness in key countries on 
        the dangers of counterfeit goods (especially medicines and 
        medical products), the role of IP in commercializing 
        innovation, and the negative impact of Internet piracy. 
        Activities funded in recent years range from $2,000 to $15,000.

    The State Department has no greater resource than its people, and 
EB has worked closely with regional bureaus and our Bureau of Human 
Resources to design and implement new mechanisms to give Department 
employees a broad range of experience on economic issues--including at 
other agencies and at U.S. companies--and to improve coordination among 
functional bureaus (who focus on issue-areas), regional bureaus (who 
coordinate U.S. policy toward countries and geographic areas), and our 
missions in the field. The Department's 2015 QDDR offers significant 
innovations in this regard, which we will work to implement in the 
coming months. The QDDR, among other recommendations, calls on each 
State Department regional bureau to designate a Deputy Assistant 
Secretary to coordinate economic policy efforts; introduces procedures 
to ensure that talented individuals take senior economic positions in 
key embassies overseas; sets up rotational programs among the regional 
and functional bureaus; and enhances and expands external detail 
assignments to help deepen the professional development of our 
officers. The integration of U.S. regional foreign policy and economic 
policy is particularly critical in this era, when many emerging middle-
income economies are seeking to reduce trade and investment barriers 
with other nations in their same neighborhood. Such regional economic 
integration--as seen notably in Southeast Asia, Central America, or 
East Africa--is strongly in the interests of the United States: it 
promotes regional peace and stability, accelerates growth, creates 
regional economies of scale, and enhances opportunities for U.S. 
exporters and investors.
    The QDDR also embraces a ``data-driven'' foreign policy, informed 
by diagnostics, and suggests new ways to integrate foreign economic 
policy with our policy toward particular countries and regions. For 
instance, we are in the process of building a comprehensive inventory 
of economic challenges facing our partner countries, drawing on the 
expertise of thousands of U.S. personnel in Washington and in the field 
(from State, USAID, and other agencies). The QDDR endorses an array of 
diagnostic tools successfully used by the Millennium Challenge 
Corporation (MCC) and USAID to identify and address country-specific 
barriers to inclusive economic growth--since there is no ``one size 
fits all'' approach to fostering economic growth and addressing related 
economic challenges--and highlights key policy areas to support 
inclusive growth abroad: income inequality, corruption, and youth 
unemployment.
    Since economic diplomacy requires specialized knowledge of evolving 
issues, the State Department's Foreign Service Institute (FSI) 
currently runs over 20 training programs in economics, commercial 
diplomacy, and related areas including science, environment, energy, 
and health. Our long-standing and comprehensive 6-month Foreign Service 
Economic Studies course delivers the equivalent of a high-quality 
graduate degree in economics, along with a strong dose of applied 
economic work. The Department also assigns two employees annually to a 
1-year University Economics Training detail at prestigious U.S. 
universities. Other courses focus on trade dispute resolution, illicit 
finance and sanctions, global health diplomacy, intellectual property, 
biotechnology, aviation, telecommunications, and energy. FSI's hands-on 
tradecraft courses prepare officers for their work, stretching from 
their first tours overseas all the way to service as section chiefs, 
and its distance-learning courses cover commercial diplomacy, 
investment treaties, trade, and intellectual property rights. FSI 
recently launched a new distance-learning course on bilateral 
investment treaties and is developing another on global health 
diplomacy.
    The State Department and its missions overseas also work with FSI 
to offer economic training in the field. In January, Embassy London 
hosted a customized training course on Internet Governance and the 
Digital Economy at Embassy London, with the participation of Under 
Secretary Catherine Novelli, Assistant Secretary Charles Rivkin, and a 
number of Internet pioneers. In March, FSI and State's ENR Bureau 
coorganized extensive training in Doha on energy issues in the Middle 
East, North Africa, and Eastern Mediterranean. Later this month, FSI 
will partner with our mission in Japan to train field personnel on the 
Trans-Pacific Partnership, the economic challenges facing Japan, and 
how to ``message'' the U.S. economy.
    Whatever the economic policy issue--whether trade, finance, 
transportation, telecommunications, development, sanctions, or the 
economic dimensions of broader challenges such as terrorism, violent 
extremism, climate change, energy, and migration--we put U.S. interests 
and our citizens' well-being first, and endeavor to work as part of a 
whole-of-government effort.
                               conclusion
    Continued U.S. leadership in the world requires a dynamic economy 
at home and active engagement overseas; these objectives are fully 
consistent and mutually reinforcing. Through economic diplomacy, EB 
works to advance the livelihoods and security of Americans and makes a 
substantial contribution to a more just, free, and stable world.
    I thank you for your continued engagement on these issues and look 
forward to your questions.

    Senator Barrasso. Thank you very much, Secretary Tong.
    We will have a couple of questions, and I would like to 
start with Ambassador Coleman.
    The Office of Management and Budget has previously provided 
Congress with a list of total U.S. contributions to the United 
Nations from the State Department, as well as 18 other U.S. 
Departments and agencies. The last report from OMB explained 
that the United States contributed $7.92 billion in fiscal year 
2010. Many of us on this committee believe that the American 
people deserve to know exactly how much U.S. taxpayer money is 
going to the United Nations and how it is being spent. Do you 
know the total annual U.S. contribution to the United Nations 
from all agencies, including in-kind contributions?
    Ambassador Coleman. Thank you, Senator, for that question.
    There is not a quick, easy answer to that question because, 
as you said, there are many different sources of contributions 
to the U.N. There is our assessed contribution. There are 
voluntary contributions and in-kind contributions. So in terms 
of what we are contributing across all of it, I do not have a 
quick and easy answer for that. But what I can tell you is 
looking very closely at the assessed contribution, we do know 
that we are paying approximately $2.5 billion on the regular 
budget and more than $3 billion on the peacekeeping budget.
    But I think Assistant Secretary Crocker might be able to 
answer across the entire U.N. system more clearly than I can on 
that point.
    Senator Barrasso. Well, the reason I asked--and I did not 
expect you to give me a complete number because you are right. 
It is a complicated system. But during Ambassador Powers' 
confirmation process, I asked her if she supported Congress and 
the American people receiving an annual report from OMB of 
total U.S. contributions to the U.N., and she said yes. So the 
question is, do you support Congress and the American people 
receiving a report from OMB on the total U.S. contributions 
provided to the United Nations each year?
    Ambassador Coleman. Senator, I do support that. And what I 
really support is transparency. I think that transparency is 
critically important, and I think American taxpayers deserve 
transparency on important budgetary issues such as how much we 
are contributing to the U.N. system. Thank you.
    Senator Barrasso. And then, Secretary Crocker, following up 
with Ambassador Coleman's comments, do you also agree that the 
American people deserve--and Congress--a report from OMB on the 
total U.S. contributions?
    Ms. Crocker. Thank you, Chairman. I do agree very much that 
the American taxpayer should have full transparency, as 
Ambassador Coleman indicated, and full visibility into the full 
amount of contributions both assessed and voluntary that go to 
the entire U.N. and broader international system every year. 
And in fact, our Bureau and other parts of the Department are 
working closely with OMB and other Federal agencies to try to 
ensure that we have a more rigorous way to assess what all of 
those contributions look like.
    I can tell you that the last year for which we have from 
the United Nations a full estimate of all of their costs, their 
full budget across the full range of U.N. agencies and 
institutions was in 2013, and that number was about $44 
billion. And in 2013, that same year we reported to you that 
the full amount of U.S. contributions, again both assessed and 
voluntary contributions, was about $6.6 billion of that $44 
billion total.
    But as I said, we are working now to try to ensure that we 
can more effectively collect that kind of information and 
report to you and more broadly to the American people.
    Senator Barrasso. Thank you. That is very helpful.
    Ambassador Coleman, since 1994, there has been a 25-percent 
cap on the United States assessment to the U.N. peacekeeping 
budget. Despite the law, the U.S. contribution has risen to 
over 28 percent for the U.N. peacekeeping budget. Fiscal year 
2016 budget request from the administration--the administration 
requested funding to meet the U.N.'s 28.36 percent assessment 
despite the fact that we have this 25-percent cap authorized by 
Congress back in the 1990s.
    Do you know why the administration has not been able to 
abide by the cap on U.N. peacekeeping?
    Ambassador Coleman. Thank you, Senator, for that question.
    The scales of assessment, the rate that every country pays 
to the U.N. is negotiated every 3 years, and this is one of 
those years for scales of assessment to be reevaluated. Part of 
my job as Ambassador for U.N. Management and Reform is to lead 
those negotiations in the Fifth Committee, and what I can 
assure you is that I will be working extremely hard to make 
sure that countries pay their fair share.
    The difference between the cap that you referred to and the 
rate that we are assessed has been covered in many years, and I 
think it is extremely important that we are able to pay our 
assessed dues to the U.N. in full. As the Ambassador for 
Management and Reform, what I can tell you is that countries 
who share our values for budget discipline and reform at the 
U.N. look to the United States to lead, and we have been very 
active in leading the reform agenda, particularly on the 
peacekeeping side of the house where we have implemented a 
number of measures to ensure performance and budget discipline 
on the large peacekeeping budget. And so I do think it is 
extremely important that we are able to keep our seat at the 
table and pay our assessed rate in full.
    Thank you, Senator.
    Senator Barrasso. Thank you.
    Secretary Crocker, if I could. I want to talk about 
whistleblower protections. April of this year, nine 
whistleblowers from U.N. organizations sent a letter to the 
U.N. Secretary General asserting that U.N. whistleblower 
policies failed to protect them from retaliation. And I have a 
copy of the letter that I am going to ask to be submitted for 
the record. Without objection, submitted.

[Editor's note.--The letter mentioned above can be found in the 
``Additional Material Submitted for the Record'' section at the 
end of this hearing.]

    Senator Barrasso. They wrote, put simply, the U.N. system 
of justice fails whistleblowers and most of us have been forced 
to leave the U.N. to save our livelihoods, our health, and our 
reputations. They also wrote, without proper whistleblower 
protections, wrongdoing at the United Nations, be it sexual 
exploitation, abuse of power, fraud, or corruption, will not be 
reported and will continue to go unchecked.
    Could you share with us what steps the United States is 
taking to address the failings of the United Nations and other 
multilateral institutions from protecting whistleblowers from 
the kind of retaliation that has been addressed in this letter?
    Ms. Crocker. Thank you, Chairman Barrasso, for that 
question. And I am glad you raised it because this is one of 
the priority issues in terms of management/reform questions 
that the United States pushes both at the United Nations in New 
York and more broadly across the U.N. system. It is a high 
priority issue for us. We feel very strongly, as does this 
Congress, appropriately, that whistleblowers should receive the 
right kinds of protections across the U.N. system from 
retaliation, and we consistently raise this issue in all of our 
conversations with U.N. leadership.
    That having been said, some U.N. agencies and the U.N. 
itself have struggled to provide the appropriate kinds of 
whistleblower protections, and so we are in constant 
communication with them about where we think those standards 
should be and what we think they need to do to change their 
policies and practices. And we have appreciated the close 
coordination that we have had with this committee and your 
staffs on this question.
    We have seen some improvements. The U.N. Ethics Office at 
this moment is reviewing its own whistleblower policies in 
anticipation of issuing revised policies on whistleblower 
protection for the U.N. But we have seen some real improvements 
at some of the other U.N. agencies that we participate in. For 
example, this year, as I mentioned in my testimony, at the 
Organization of American States and the World Health 
Organization, we have seen some real efforts to correct 
shortcomings that we had seen at those two agencies previously 
on whistleblower protections.
    But we are required by law every year to look very closely 
at this question across the full range of U.N. agencies, and we 
take that responsibility very seriously. We engage our various 
multilateral missions around the world who engage directly with 
the U.N. entities to ensure that their policies and practices 
are up to speed, but also importantly to ensure that it is not 
only what is on paper, but that they are being effectively 
enforced.
    Senator Barrasso. Thank you so very much. My time has 
expired.
    Senator Udall.
    Senator Udall. Thank you, Chairman Barrasso.
    Assistant Secretary Crocker, in addition to their ongoing 
work in Syria, South Sudan, and the Central African Republic, 
the U.N. is also working to reach hundreds of thousands of 
civilians who have been displaced this year by violence in 
Iraq. Given the current strains on the U.N. humanitarian system 
caused by these crises, can you describe how the United States 
is working to support them in their work and what more can we 
do to ensure a robust global response in these emergency 
situations?
    Ms. Crocker. Well, thank you very much, Senator, for that 
question.
    Of course, the U.N.'s efforts across the humanitarian 
system and in addressing the global humanitarian emergencies 
that we face include those that you just listed, and the list 
goes on and on, including now the U.N. leading the response 
efforts in Nepal in response to the devastating earthquake.
    So I think it is very important, as you highlight, to note 
how many serious humanitarian crises we as a global community 
are facing around the world right now and how much we are 
relying on the U.N. system to help us address those crises. And 
that system is somewhat under strain, and we have seen that 
over the past year, for example, when WFP for a short period of 
time had to reduce some of what it was able to provide to the 
refugees in and around Syria because it simply did not have the 
money.
    So one thing that we have been focused on, in addition to 
the extremely generous U.S. taxpayer support for that 
humanitarian system, has been ensuring that we expand the base 
of countries that contribute to the humanitarian system so it 
is not always the same list of countries that we are going to, 
but we are actually in serious conversations around the world 
with other countries that we think it is high time for them to 
be also contributing in the same way that we do in a sustained 
manner to help ensure that this humanitarian system is able to 
respond across the board.
    We also focus on ensuring the effectiveness and efficiency 
of that system. So we work very closely with the Office for the 
Coordination of Humanitarian Affairs in New York, and we work 
to ensure that the agencies are well placed and resourced to 
respond wherever these emergencies crop up. So they were 
already under strain before the emergency in Nepal, but still 
we have WFP, UNICEF, and WHO out in full force in Nepal to try 
to help address the emergency there. It is very important to 
the United States and all of our likeminded countries around 
the world that we continue to find ways to ensure both that 
these humanitarian agencies have the resources they need but 
also that they are operating as effectively as they need to to 
really get at these problems.
    Senator Udall. Thank you very much for that answer.
    Assistant Secretary Garber, the Department of State's QDDR 
[Quadrennial Diplomacy and Development Review] rightly elevates 
climate change as a strategic priority for the State 
Department. And for years now, the Department of Defense has 
regarded climate change as a threat multiplier, a factor that 
will exacerbate conflict, resource scarcity, mass migration, 
and humanitarian crises, all of which can impact U.S. national 
security.
    How is the OES [Bureau of Oceans and International 
Environmental and Scientific Affairs] working to elevate the 
growing nexus between climate change and security, and how does 
this inform the State Department's broader diplomatic efforts? 
What do you see as the near-term security threats arising from 
climate change?
    Ms. Garber. Thank you very much for that question, Senator.
    I think as you point out, there is growing international 
recognition of the important relationship between climate 
change fragility and conflict. Climate change stresses our 
economic, political, social systems. And where institutions and 
governments are weak and unable to manage the stress, the risk 
of stability clearly increases.
    The OES is working both within the Department as well as 
with our international partners to better understand this 
dynamic and how to integrate climate security considerations 
into our work. For example, the recent G7 Foreign Minister's 
statement on April 15 highlighted the need for countries to get 
their own houses in order on the issue and to work together 
with interested partners to factor climate fragility 
considerations into our foreign policymaking.
    Senator Udall. Thank you.
    Assistant Secretary Tong, how is your Bureau working to 
advance the President's efforts to normalize relations with 
Cuba? Specifically, how can your Bureau help American 
businesses start the process to engage in Cuba and with the 
Cuban people? Would you agree that increased access to telecoms 
and the Internet will be an important part of this effort to 
engage Cuba?
    Mr. Tong. Senator, thank you for that question.
    Of course, the historic opening in our new conversation 
with Cuba is aimed at resulting in a Cuba which is democratic, 
prosperous, and stable. Let me highlight three activities that 
my Bureau is actively engaged in.
    The first is in making sure that our businesses understand 
the full range of U.S. law as it still currently applies, the 
sanctions which are still in place, the embargo which is still 
in place, and what they can and cannot do legally. And that is 
actually rather complex. And a portion of my Bureau is involved 
in sanctions policy and helps in explaining that to U.S. 
business.
    On the more proactive side of the ledger, there are two 
areas I would like to highlight. You mentioned one of them, 
which is telecommunications. Ambassador Danny Sepulveda 
recently led a team to Cuba, which is a first step in what will 
be a rather complex negotiation with Cuban authorities, to make 
it possible for U.S. telecommunications firms to be active and 
forward-leaning in bringing information to the Cuban people 
over the Internet. There is a lot of complexity to this, and 
there are again issues of licensing and legalities involved. 
But Ambassador Sepulveda is off to a good start in pushing that 
agenda forward.
    The third is in the area of aviation. There are currently 
12 licensed activities through which Americans can legally 
travel to Cuba. But despite those restrictions, there is a lot 
of interest in going there. There is also a lot of interest on 
the part of Cubans to visit family members. In order to meet 
that increased demand for transportation, our aviation people 
in my Bureau are in active dialogue, and they have had one 
round of negotiation with Cuban counterparts, the objective of 
which is to set up regularly scheduled flights under the 
current authorities.
    Senator Udall. Thank you. My time is running out.
    But the other point that I would like, as I finish here, is 
that all of us as Senators I think have agricultural sectors in 
our States, and it is terrifically important that we try to 
open up those markets and bring down the barriers and obstacles 
that have prevented our farmers from selling their goods to the 
11 million people that are there. They are there. They eat. We 
need to open up those markets.
    Thank you, Chairman Barrasso.
    Senator Barrasso. Thank you very much, Senator Udall.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thanks to the witnesses for being here today.
    Secretary Crocker, the 2016 budget--the administration 
requested $1.54 billion for the entire contributions to 
international organizations account, which a little over $1.1 
billion would fund U.S. contributions to the United Nations and 
its affiliated agencies. Of the amount designated for U.N. 
entities, about $630 million would go to the U.S. assessed 
contribution to the U.N. regular budget.
    The U.N. General Assembly's current 2014-2015 session has 
adopted a total of 20 resolutions, singling out Israel for 
criticism, and only 3 resolutions on the rest of the world 
combined.
    Given that record, do you think Americans are getting their 
money's worth at the United Nations?
    Ms. Crocker. Well, thank you, Senator, for raising that 
question, which I think is always an important one to talk 
about when we are looking at the overall credibility, 
effectiveness, efficiency, and legitimacy of the U.N. system.
    Fighting against efforts to delegitimize Israel and the 
undue structural bias that is placed on Israel across the U.N. 
system is one of my top priorities as IO Assistant Secretary 
and more broadly is one of the administration's top priorities.
    We do this for many different reasons, and I think it is 
important to recognize that in over 75 multilateral fora over 
the past 2 years, we have intervened in one way or another on 
hundreds of occasions on Israel's behalf to fight against this 
bias that you spoke of. We do this for a number of reasons, 
one, because Israel is our close friend and ally, but also, as 
I mentioned, because undue focus on any one particular country 
in the U.N. system threatens to undermine the credibility of 
the entire system which, as you suggest, is an important thing 
for us to focus on given the amount of money that the U.S. 
taxpayer contributes to that system every year.
    We also do it to protect U.S. interests. Often what that 
means is fighting against or trying to stop resolutions that 
would impact or undermine our ability ultimately to get to a 
two-state solution, which remains the ultimate U.S. objective 
on this issue.
    And we also, very importantly, support Israel's own efforts 
to enhance its normalization across the U.N. system, and this 
can take many different forms. It can mean supporting the 
efforts of Israel to get Israeli employees in U.N. jobs. It can 
mean supporting the efforts of Israel to have leadership 
positions on executive boards, for example, or to serve as the 
vice president of the U.N. General Assembly, which it did some 
years ago, and it can also mean that we fight, as we did 
recently last year in Geneva, to make sure that Israel has 
membership in regional blocs such as the one in Geneva. That 
means that it can help as we coordinate on positions that we 
take, for example, at the Human Rights Council.
    This work is not done and it is never done, as your 
statistics rightfully point out, but we slowly are making 
progress in some of these venues. And the important thing to 
realize is that Israel tells us consistently how much they 
support our efforts on their behalf across the multilateral 
system both to protect and defend their interests and also to 
support their own efforts to normalize their relationships in 
the multilateral system. And we work hand in hand and very 
closely with the Israelis on all of these efforts.
    Senator Gardner. I just want to make something clear. In 
your answer, you used the word ``bias.'' Is it then your 
position that there is a bias against Israel at the United 
Nations?
    Ms. Crocker. In certain parts of the United Nations system, 
we have seem some evidence of that bias in the sense that there 
are an undue number of resolutions, for example, or at the 
Human Rights Council, that there is a standing agenda item on 
Israel, and it is the only country that has a standing agenda 
item.
    Senator Gardner. Are there other areas where there is a 
bias against Israel at the United Nations?
    Ms. Crocker. In the U.N. General Assembly, which is the one 
that you mentioned, again we see some undue focus on Israel 
given the number of resolutions that are anti-Israel 
resolutions as opposed to the number of resolutions on other 
countries.
    But we are working consistently to fight against that. We 
have allies in that effort. And I think it is important to note 
that in the Human Rights Council, since the United States 
joined that council in 2009, we have seen a real reduction in 
the amount of time that the council focuses on Israel. And this 
is just an example of the importance of U.S. leadership across 
the board in the U.N. system because we are able to take that 
fight where we need to take it, and we are seeing some progress 
as a result of our actions.
    And again, the Israelis tell us consistently how much they 
appreciate those efforts both on the question of whether there 
is bias or exaggerated focus on Israel in the form of 
resolutions, for example, or in the case when they are 
themselves trying to run resolutions in the U.N. General 
Assembly and the United States supports them and cosponsors 
those resolutions.
    Senator Gardner. Mr. Chairman, thank you for the time.
    Senator Barrasso. Thank you very much.
    Secretary Garber, I want to talk a little bit about 
international climate change negotiations. August 26 of last 
year, the New York Times had a story entitled ``Obama Pursuing 
Climate Accord in Lieu of Treaty.'' The article says the Obama 
administration is working to forge a sweeping international 
climate change agreement to compel nations to cut their planet-
warming fossil fuel emissions but without ratification from 
Congress.
    It also talks about the administration working on a, quote, 
``politically binding deal to cut emissions rather than a 
legally binding treaty that would require approval by two-
thirds of the Senate.''
    So will any agreement be legally binding on the United 
States?
    Ms. Garber. Thank you for that question, Mr. Chairman.
    It is at an early stage in the international negotiation 
process right now, and everything is on the table.
    I understand that staff from the Office of the Special 
Envoy on Climate Change, as well as some staff from my own 
Bureau from the Office of Global Change, have been coming up 
and consulting pretty regularly in recent weeks with 
congressional staff on the progress of the negotiations. I can 
tell you that it is our intention to continue to do so as the 
negotiations proceed and we get closer to the final agreement 
in Paris.
    Senator Barrasso. So I guess the question is, does the 
administration plan to pursue a course to try to make it 
legally binding in the United States by bypassing Congress at 
the same time?
    Ms. Garber. Our objective for Paris is to have a 
significant agreement, a meaningful agreement with robust and 
transparent emissions reduction targets that include all 
countries, including the major emerging economies. At this 
point, the question of what that agreement would look like at 
the end is still an open question because we are in initial 
stages of the negotiations and everything is still on the 
table.
    Senator Barrasso. So no decision has been made about 
whether the administration plans to submit the agreement from 
Paris to the Senate for advice and consent.
    Ms. Garber. It is at a very early stage of the 
negotiations.
    Senator Barrasso. In March of last year, Jeff Kueter, who 
is President of the George C. Marshall Institute, released a 
recent study called ``Climate of Insecurity.'' And I ask that 
that study be entered into the record. Without objection.

[Editor's note.--The study mentioned above can be found in the 
``Additional Material Submitted for the Record'' section at the 
end of this hearing.]

    Senator Barrasso. The report says efforts to link climate 
change to the deterioration of U.S. national security rely on 
improbable scenarios, imprecise and speculative methods, and 
scant empirical support. It goes on to say accepting the 
connection can lead to the dangerous expansion of U.S. security 
concerns, inappropriately applied resources, and diversion of 
attention from more effective responses to known environmental 
problems.
    He also provides information to show that factors other 
than the environment are much more significant in explaining 
the onset of conflict. A recent survey cited in the report 
found that the primary causes of intrastate conflict and civil 
war are political not environmental.
    So if the cause of war is political not environmental, as 
is stated in this report, then is it not possible that the 
United States could be spending millions of dollars on foreign 
climate change assistance that will not actually prevent 
instability?
    Ms. Garber. In response to the question from the ranking 
member earlier, Mr. Chairman, I noted in my response that 
climate insecurity is something that acts as a stressor where 
other factors can be going on as well.
    In terms of climate assistance, we tend to focus it on 
three areas. Clean energy and sustainable landscapes are two 
out of those three.
    Senator Barrasso. So stressors could also be expensive 
energy, and sometimes the focus I see of the administration on 
clean energy as opposed to affordable energy--and if you talk 
to Bill Gates and say what is important--and so much of the 
work that he has done in other countries has been aimed at 
affordable energy--he said that a country grows when energy for 
transportation fuel and for electricity are affordable. It 
would just seem to me that sacrificing affordability for the 
focus of the administration, the fixation if you will, on clean 
energy could be an unnecessary stressor. And perhaps the 
administration is focused on the wrong stressors in terms of 
global instability.
    Ms. Garber. In my Bureau, we have the pleasure of working 
on over 50 bilateral science and technology dialogues with 
other countries. And one of the themes that comes up, time and 
time again, from varying countries is their interest in sort of 
the leading U.S. technological edge and our knowledge base on 
clean energy systems. This is something we see coming back 
many, many times.
    So from our perspective in OES, this is one of the key 
areas that we are working on as well is to try and get the best 
science together, create economic opportunities because the 
United States is a leader in clean energy technologies and 
being able to create those economic opportunities as well as 
bring down the affordability of these types of technologies.
    Senator Barrasso. Obviously, this is a tight budget 
environment. We have this huge debt. There are many competing 
priorities across the globe. The President's budget request 
includes $1.29 billion for the Global Climate Change 
Initiative. This is a 55-percent increase in funding from 
fiscal year 2014.
    So for fiscal year 2016, the Bureau has requested an 
increase of another $330 million in economic support funds to 
go toward a brand new green climate fund.
    Given the increasing need for humanitarian assistance, 
democracy promotion, embassy security measures, countering 
global terrorist threats, I am wondering why the administration 
is requesting such a large increase for global climate change 
where I think most people would think this could be better 
spent on the issues of humanitarian assistance, democracy 
protection, embassy security, and countering global terrorist 
threats.
    Ms. Garber. The focus of our $3 billion request for the 
green climate fund is to help reduce climate pollution and 
strengthen resilience with a particular focus on developing 
countries and the most vulnerable.
    In 2008, the Bush administration provided $2 billion to the 
climate investment funds, and we see the green climate fund as 
an opportunity to take this type of climate support and bring 
it forward to be even more robust and resilient.
    It has four different areas which is significantly 
different from the existing climate investment funds.
    One, from the get-go, it is going to have a dedicated 
private sector facility because we really believe the private 
sector has to be part of that solution working with it going 
forward.
    Second, it has a focus, as I had stated before, on the most 
vulnerable.
    Third, it is going to have a much broader donor base, which 
is something that we think is really important because we agree 
that everybody has to be part of the solution. There cannot be 
countries that are going to be sitting on the outside.
    And the fourth and also incredibly important is that it has 
much better safeguards, and we are going to make sure that it 
is transparent and that there is accountability in how those 
monies are going to be used.
    Senator Barrasso. Senator Udall, do you have additional 
questions?
    Senator Udall. Yes, thank you, Chairman Barrasso.
    I asked one question on climate change and I want to come 
back to that. It seems to me that this problem is only going to 
be solved if all of the countries in the world are working 
together. That is the first point. And so the fact that we are 
going to Paris and trying to work with countries around the 
world I think is very important because if we just sit here 
isolated, we are not going to be able to do that. And so I urge 
you to try to work with all the other countries around the 
world and work, as President Obama has, with China where both 
countries, the two biggest emitters, set specific targets of 
where they are going.
    And my understanding is that as a result of that discussion 
and the targets that are out there and how we are trying to 
move, we are seeing a dramatic change in attitude in terms of 
countries around the world going into Paris. Has that happened? 
Do you sense that, Assistant Secretary Garber, from the work 
that you are seeing being done on the ground?
    Ms. Garber. I think absolutely. The agreement between 
President Obama and President Ji and the announcement from last 
November was truly a game-changer. And we are seeing a higher 
level of ambition coming. We have seen announcements from over 
60 percent of countries that represent over 60 percent of 
global emissions as we move toward Paris since that 
announcement. So again, this is a sign of how we are trying to 
work with many other countries to get more ambitious targets so 
we can reach a meaningful agreement that would be applicable to 
all, including the major emerging economies.
    Senator Udall. And when it comes to doing the things like--
you mentioned the two of three areas you are focusing on, clean 
energy, sustainable landscapes. Is it not in our national 
interest to decrease foreign pollution, especially pollution 
that is impacting Americans negatively right now? It seems to 
me we are not just working on the international basis. We are 
trying to do things that will change the situation here at 
home. As we know, many of the measurements on our coasts 
where--Los Angeles--they can look at where the pollution comes 
from--my understanding about a third of that pollution is 
coming from across the seas. And so we are all interconnected 
in this. We just need to make sure that we are all working 
together to try to be a part of the solution.
    And the question I guess is on that impact here in America.
    Ms. Garber. Absolutely. Climate change is a global 
challenge that requires a global solution, and we believe that 
by forging a meaningful agreement we are actually helping to 
improve the quality of life and the environment here at home.
    The World Health Organization recently came out with 
statistics that one out of eight deaths worldwide is due to air 
pollution and related factors. So again, this is something that 
we believe will help to improve the situation for American 
citizens as well.
    Senator Udall. Ambassador Crocker, I want to come back to 
the question about Israel because I think it drives home a 
point in terms of our engagement with the U.N. You mentioned 
that before the Human Rights Council, there was another 
commission. We were not involved at all. But as you know, 
recently we have been very involved in this Human Rights 
Council. And as you have testified, there has been less focus 
in terms of being anti-Israel, and to me that highlights the 
point that if we get engaged, then other countries are willing 
to see us working through the process at the U.N. and allowing 
us then to move forward.
    Would you agree with that? And are there other examples of 
where direct engagement, whether it is reform area or other 
areas? Ambassador Coleman, you may want to comment on this 
also.
    Ms. Crocker. Well, thank you for coming back to that 
question because I think it is a very important point to 
underscore that we see time and again and we hear time and 
again from other countries how much they want U.S. leadership 
and strong engagement at the full range of international 
organizations in which we participate.
    The Human Rights Council is an example of where U.S. 
leadership not only has meant over the course of years since we 
have been a member of that council a decrease in focus on 
Israel, but also importantly, an increase in the council's 
focus on those things that it should be focused on, namely 
shining a spotlight on the world's worst human rights abusers.
    And since the United States has taken a leadership role and 
engaged strongly in the work of the council, we have worked 
across regional groupings and with other countries to turn the 
council's attention to some of those worst abusers from Iran 
and the DPRK to Sudan to Syria to Belarus, Eritrea, Sri Lanka. 
And we have also worked with the council to help other 
countries build their own capacities for human rights 
protections, and we are seeing that in Somalia and in Haiti and 
in Lebanon, for example.
    We have used the council effectively to elevate 
international attention on people around the world who were 
otherwise underrepresented, including persons with disabilities 
and LGBT persons. We have used it to advance U.S. interests on 
human rights, including the protections of the rights of 
expression and assembly and association. And we have been able 
to do all of this despite the fact that there are some bad 
human rights abusers on the council itself, which is something 
we also work against. But the important point is that U.S. 
leadership on the council enables us, nonetheless, to drive the 
council's agenda and to turn its focus to those things that it 
should be focused on.
    I would cite what we are doing right now on the efforts on 
peacekeeping reform as another area where we hear time and 
again and we see for ourselves that the United States being at 
the table as a full member of the United Nations, paying our 
dues in full and on time, and having the kind of standing that 
we do enables us to speak with a strong voice whether it is 
looking at mandate renewal questions, looking at new missions 
that we are agreeing on in the Security Council or encouraging 
other countries to either come back into peacekeeping when they 
have been out for some years or to enter U.N. peacekeeping for 
the first time.
    Senator Udall. Ambassador Coleman, just 30 seconds or so.
    Ambassador Coleman. Sure. I mean, I would just underscore 
what Assistant Secretary Crocker has already said. I think that 
many of the countries who share our values and are interested 
in promoting the reform agenda that we feel is so important at 
the U.N.--they really look to us for leadership. I have had 
personal experience of that in many of the negotiations in the 
Fifth Committee. It is really a number of countries who rely on 
the United States as the largest financial contributor at the 
U.N. to use its weight and to use its influence to promote that 
very important reform agenda across a whole range of different 
issues, whether it is Israeli inclusion or whether it is 
peacekeeping reform, as Assistant Secretary Crocker just 
mentioned, or budget discipline. On all of these issues, 
countries look to the United States for leadership.
    Senator Udall. Thank you.
    Thank you, Chairman Barrasso.
    Senator Barrasso. Thank you, Senator Udall.
    Senator Markey.
    Senator Markey. Thank you very much.
    Secretary Garber, you have a significant responsibility for 
carrying out a range of tasks. The White House, February 2015, 
issued the implementation plan for the national strategy for 
combating wildlife trafficking. Could you discuss your efforts, 
how they address the international conservation goals and 
anticipated challenges that oceans, environment, and science 
may face in responding to the national call to combat wildlife 
trafficking?
    Ms. Garber. Thank you very much for that question, Senator.
    Wildlife trafficking is a growing crisis. Not only are 
there species that are facing extinction, but we have seen a 
trend for this wildlife trafficking to become more of a 
security issue with the transnational criminal gangs, as well 
as some terrorist groups taking advantage of what is truly a 
low-risk, high-reward enterprise.
    The national strategy has really elevated the approach of 
the U.S. Government on this issue, and we are actually meeting 
quite regularly. We have come out, as you have pointed out, in 
February with a robust implementation plan. We are focusing it 
on three areas: strengthening law enforcement at home and 
abroad, reducing demand, as well as increasing and 
strengthening international commitment and cooperation. We are 
focused very much on some of the high-demand countries such as 
China in our international diplomacy, as well as trying to get 
this as an issue on the agenda in fora such as APEC and ASEAN. 
At an interagency level, we meet on a regular basis, and in 
fact, we are having a meeting of our task force tomorrow where 
we will be addressing many of these different approaches and 
what we can do to help solve this global crisis.
    Senator Markey. Talk a little bit about deforestation. Talk 
about the Amazon. Talk about what we can do to help to create 
sustainable landscape programs. How would that affect 
deforestation work?
    Ms. Garber. Deforestation is a focus of a lot of the effort 
of my bureau in some of our assistance programs. The drivers of 
Amazon deforestation are genuinely complicated, but agriculture 
is one of the main factors behind that. Secondly, 
infrastructure development is another key element and issue 
there.
    We are focusing our programs on better governance in those 
areas, trying to get at the heart of those issues. In addition, 
we are trying to create, such as our activities with Peru, 
better tracking systems and helping build capabilities in those 
that are forcing these particular issues.
    Senator Markey. Thank you.
    Secretary Garber, I know that our climate negotiations are 
in great hands. I know Todd Stern is doing a great job. You are 
doing a great job. Secretary Kerry is doing a great job. I love 
the progress that we have made with China and with other 
countries beginning to step up to the plate to play their role 
in making sure that every country is making a commitment. And I 
am very optimistic about what can happen, what we can unleash 
as a future.
    I just actually left a meeting with 10 MIT scientists who 
are very bullish on solar and the role that it can play in the 
years ahead in dealing with this issue. We just have to put the 
right incentives on the books, and then we can just watch this 
whole area explode.
    So I think it is in good hands. So I feel good about 
climate and the negotiations.
    So I am going to move on to something else that I am 
concerned about which is seafood fraud and illegal fishing, 
which is bad for everyone from fishermen to seafood lovers, and 
it threatens the health of the ocean and the bottom lines of 
fishermen in Massachusetts and all of America's coasts. And I 
was glad to work with my colleagues on this committee last year 
to move the Port State Agreement that will help combat illegal 
fishing and the economic and environmental harm it causes. And 
I look forward to working with the Commerce Committee to move 
additional legislation to combat illegal fishing in this 
Congress.
    But I am happy that through Secretary Kerry's leadership on 
ocean issues, the State Department is already making strides to 
level the playing field for our domestic fishing industry, 
which operates under some of the toughest conservation 
requirements in the world.
    I know the final recommendations, Ms. Garber, of the 
Presidential task force on combating illegal, unreported, and 
unregulated fishing and seafood fraud were just released in 
March. But could you tell us where you have seen positive 
results already or are anticipating seeing those results in the 
future?
    Ms. Garber. Thank you for that question, Senator.
    Our sense is that the Secretary's Our Ocean Conference and 
following ocean action plan has really changed the global 
dialogue on oceans issues. We are very excited by the 
enthusiasm that we are finding all over the world and newfound 
enthusiasm to tackle these issues. We are pressing for 
ratification of the Port State Measures Agreement in many 
different countries.
    As you noted, we just came out recently with the 
recommendations of the Presidential task force that was set up 
during the Our Ocean Conference. I hope as a Senator from 
Massachusetts you had the opportunity to see the op-ed that 
myself and Deputy Assistant Secretary Russell Smith put in 
there on the date that the task force recommendations were 
released emphasizing how important we think it is to put in 
place and explaining to the general public why it is so 
important to have seafood traceability so consumers know what 
they are eating in the United States, we know what is on our 
plate, and that we do not have illegal seafood entering the 
commercial chain and also emphasizing the international office 
that we are going to be making overseas because we believe that 
it is very difficult for us to show international leadership on 
this issue if we are not addressing some of our weaknesses here 
at home as well.
    So we are very enthusiastic about where this is going. I 
was in Colombia last week at an environmental working group 
meeting as part of our high-level policy dialogue with 
Colombia, and all my counterpart wanted to talk about was the 
Our Ocean action agenda.
    Senator Markey. That is great because if you are a 
fisherman in Gloucester or New Bedford, you got big problems if 
we do not begin to crack down on illegal fishing. It is just 
absolutely going to be devastating to us. And so I am glad that 
you are leading that effort. I think it is absolutely 
critically important.
    And we have to do something again in your portfolio on 
climate change. There were readings in the ocean off of 
Massachusetts in January, 21 degrees warmer than normal in 
January off of the ocean in Massachusetts. So the cod need cold 
water. The lobster need cold water. So it is having a 
fundamental impact on huge industries. And, in fact, that cold 
air coming down from the Arctic kept hitting this very warm 
ocean, and to a large extent, that is what gave us 111 inches 
of snow, that incredible impact that cold weather has when it 
hits warm water. And I know that you are working on that. And I 
appreciate your being here.
    My colleagues from Wyoming and New Mexico are not as close 
to the ocean as I am sure they would like to be. [Laughter.]
    Senator Markey. So these issues are central to us. But Mark 
Twain used to say that an expert is anyone who lives further 
than 500 miles from the problem. So we got people here to help 
us to solve those issues.
    So thank you, Mr. Chairman, very much for your indulgence.
    Senator Barrasso. Thank you. Thank you very much.
    I appreciate all of you being here today. Thank you for 
your service to our Nation and for working to advance the 
American interests all across the globe.
    At this time, we will take a minute to transition to the 
second panel. I would ask that second panel of witnesses to 
move to the table.
    I want to welcome our second panel of distinguished 
witnesses to the committee. I appreciate your efforts to be 
with us today to provide valuable insights. I appreciate your 
patience by sitting attentively through the first panel. 
Joining us on the second panel is Mr. Brett Schaefer, the Jay 
Kingham Senior Research Fellow in International Regulatory 
Affairs at the Heritage Foundation. Thank you very much for 
joining us. And also Mr. Reid Detchon, the Vice President for 
Energy and Climate Strategy at the United Nations Foundation.
    As I noted earlier, your full statements will be included 
in the record in their entirety, hearing no objection to that. 
I do ask that you try to summarize your statements in about 5 
minutes.
    Mr. Schaefer.

  STATEMENT OF BRETT D. SCHAEFER, JAY KINGHAM SENIOR RESEARCH 
 FELLOW IN INTERNATIONAL REGULATORY AFFAIRS, MARGARET THATCHER 
    CENTER FOR FREEDOM, HERITAGE FOUNDATION, WASHINGTON, DC

    Mr. Schaefer. Thank you, Chairman Barrasso, Ranking Member 
Udall, and other members of the subcommittee. I would like to 
thank you for the opportunity to come and speak to you today 
about key issues facing the United States at the United 
Nations.
    In my opinion, it is in the interest of the United States 
to have an effective United Nations. To be useful, the U.N. 
must carry out its responsibilities competently and 
efficiently. It must operate in a transparent and accountable 
fashion, and it must hold itself and its employees and 
representatives to the highest standards of conduct. 
Unfortunately, the current organization falls short.
    Let me focus on a few key points from my testimony which 
has a number of examples of suggestions and ways to address 
these problems.
    First, the current methodology for calculating the scale of 
assessments, the percentage of the budget assigned to 
individual countries, has over the years increasingly shifted 
costs of the organization away from the bulk of the membership 
onto a relative handful of high-income nations, particularly 
the United States. The differences are stark. The United States 
will be assessed approximately $3 billion this year based on 
the projected budgets for the regular and peacekeeping budgets, 
while the 20 least assessed countries will be assessed less 
than $37,000 this year for both of those budgets. This is not 
just a few states that are underassessed in this manner. For 
the regular budget, the United States is assessed more than 176 
other U.N. member states combined. For the peacekeeping budget, 
the United States is assessed more than 185 other U.N. members 
states combined. This year over half the U.N. membership will 
be assessed less than $1 million each for their share of the 
regular and peacekeeping budgets.
    This reality helps explain why many member states are blase 
about budget increases. The financial impact on them for 
individual budgetary decisions is relative minor and in some 
cases insignificant, which undermines the incentives for them 
to fulfill their oversight role and seriously consider 
budgetary restraint. A long-term solution requires a more 
equitable distribution of the costs of the U.N. activities so 
that all member states have an incentive to watch the bottom 
line.
    Second, because the U.N. and its employees enjoy broad 
protections and immunities, the organization has an extremely 
heavy responsibility to self-scrutinize, self-police, self-
correct, and punish wrongdoing. Unfortunately, the internal 
oversight in the organization has been lacking. A low point was 
the elimination of the incredibly effective Procurement Task 
Force by the General Assembly in 2008. Worse, however, is the 
fact that the Office of Internal Oversight Services has not 
filled the gap. No major corruption cases have been completed 
since the PTF was disbanded in 2008. This deliberate neglect is 
abetted by some member states that dislike having their 
citizens subject to corruption investigations.
    The U.N. also seems to have an embedded hostility toward 
whistleblowers who can serve as a critical safety valve for 
reporting mismanagement and misconduct. As stated by nine 
prominent whistleblowers in a recent letter to the Secretary 
General, ``retaliation against whistleblowers affects the 
entire U.N. system and goes largely unchecked at all levels.'' 
The fear of reporting wrongdoing undermines the effectiveness 
and integrity of the U.N. It must be shored up.
    Third, U.N. peacekeeping is being conducted on an 
unprecedented pace, scale, and ambition. These increasing 
demands have revealed ongoing serious flaws, including 
corruption in procurement and contracting, the potential for 
unintended tragedies such as the introduction of cholera to 
Haiti by U.N. peacekeepers, questions about the relevance and 
impact of long-standing operations, and based on recent reports 
of peacekeepers failing to respond when civilians were 
threatened, whether peacekeepers are actually prepared and 
willing to protect civilians in hostile environments even when 
instructed to do so by Security Council resolutions.
    But the most horrible problem is the troubling frequency of 
peacekeepers, both civilian and military, preying on the very 
people that they are supposed to protect. Recent harrowing 
reports of sexual exploitation and abuse underscore that this 
problem has not been resolved and more robust steps must be 
taken.
    Finally, the United States should take more proactive steps 
to increase the transparency and effectiveness of its own 
contributions to the U.N. system by reviving the annual 
reporting requirement on all U.S. contributions to the U.N. 
system conducted by OMB, conducting periodic analyses on U.S. 
participation in the U.N. system to identify those most and 
least vital to U.S. interests, those providing most and least 
value for money, using that analysis to inform decisions on 
membership and contributions, and increasing U.S. scrutiny of 
how U.S. dollars are spent in the U.N. system.
    In conclusion, I want to emphasize the critical role played 
by Congress on U.N. reform issues over the years through the 
use of financial carrots and sticks that among other reforms 
have led to the adoption of consensus-based budgeting in the 
1980s, the establishment of the OIOS in 1994, and the adoption 
of maximum assessment of the regular budget, and encouraging 
conduct and personnel changes under the Helms-Biden agreement. 
In my opinion, Congress can be a very effective ally in 
executive branch efforts to pressure the organization to adopt 
reforms and should be active in this area.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Schaefer follows:]

                Prepared Statement of Brett D. Schaefer

    My name is Brett Schaefer. I am the Jay Kingham Research Fellow in 
International Regulatory Affairs at The Heritage Foundation. The views 
I express in this testimony are my own, and should not be construed as 
representing any official position of The Heritage Foundation.
    I want to thank Chairman Barrasso, Ranking Member Udall, and the 
other members of the subcommittee for the opportunity to discuss key 
concerns facing the United States at the United Nations, including U.N. 
budgets and the scale of assessments, oversight and accountability, 
peacekeeping, and transparency and analysis from the U.S. perspective. 
While I am not able to fully discuss all of these matters in my 
testimony, I will touch on them and provide footnotes to published 
papers and articles expanding on specific points.
                 u.n. budgets and scale of assessments
    When discussing the U.N. budget, it is important to clarify what is 
being discussed. The United Nations is a complex system of 
organizations, funds, programs, offices, and other bodies. The ``core'' 
United Nations is generally considered to be the entities established 
in the U.N. Charter: the Security Council, the General Assembly, the 
Economic and Social Council (ECOSOC), the International Court of 
Justice, the largely defunct Trusteeship Council, and the Secretariat. 
These bodies conduct various activities and oversee a wide array of 
committees, commissions, and working groups. Although most of these 
activities are focused on the New York headquarters, the core U.N. 
budget also funds staff and activities at the various U.N. offices in 
other countries and affiliated bodies.
    Other bodies within the U.N. system have varying degrees of 
autonomy. Approximately two dozen U.N. funds, programs, and other 
entities--such as the United Nations Children's Fund (UNICEF) and the 
United Nations Development Program--ostensibly ``report'' to the U.N. 
General Assembly, but typically act independently and often have 
separate governing boards. Another 16 specialized U.N. agencies and 
related organizations are even more autonomous. Some of them, such as 
the International Telecommunication Union, predate the United Nations. 
Others, such as the International Monetary Fund and the World Bank, 
were established contemporaneously.
    Funding of these bodies and their activities is provided through 
agreed assessments (a percentage of the organization's budget assigned 
to individual countries), voluntary contributions, or a combination of 
both. According to U.N. data, the U.N. system nearly tripled its 
revenues from 2002 and 2012 from $14.963 billion to $41.504 billion.\1\ 
Over that period, the U.S. share of U.N. revenue has averaged about 19 
percent of total assessed and voluntary contributions.\2\
    My testimony will focus on the ``core'' United Nations, which has 
two main budgets approved by the General Assembly:

  <bullet> The regular budget. The U.N. regular budget funds the 
        activities, staff, and basic infrastructure of the Secretariat 
        and most of the activities of the entities established in the 
        U.N. Charter except for U.N. peacekeeping. The regular budget 
        also provides funds (ranging from full funding to token 
        amounts) to support the activities of various U.N. bodies 
        including the United Nations Human Rights Council, the United 
        Nations Relief and Works Agency for Palestine Refugees in the 
        Near East, and the United Nations Environment Program. It is a 
        2-year (biennial) budget that is adjusted mid-period to account 
        for new activities approved during the period. For instance, 
        the current 2014-2015 U.N. regular budget was originally 
        approved by the General Assembly at $5.538 billion, but was 
        increased to $5.654 billion this past December.\3\
  <bullet> The peacekeeping budget. The U.N. peacekeeping budget funds 
        most of the peacekeeping missions established by the Security 
        Council. Unlike the regular budget, the peacekeeping budget is 
        an annual budget. It can fluctuate significantly as missions 
        are established, expanded, contracted, or terminated. The 
        originally approved peacekeeping budget from July 2014 to June 
        2015 was $7.06 billion.\4\ The current estimate, as of March 
        31, 2015, is $8.47 billion.\5\

    There are 193 member states in the United Nations. Article 17 of 
the U.N. Charter states that the ``expenses of the Organization shall 
be borne by the members as apportioned by the General Assembly.''
    The United States has been the U.N.'s largest financial supporter 
ever since the organization's founding in 1945. The United States is 
currently assessed 22 percent of the U.N. regular budget and 28.3626 
percent of the U.N. peacekeeping budget.
    Since the U.N.'s establishment in 1945, these expenses have been 
apportioned ``broadly according to capacity to pay.'' \6\ This means 
that wealthier nations, based principally on per capita income and 
adjusted by other factors, are asked to pay larger shares of the budget 
than poorer nations.
    This was done in recognition of fiscal reality. The founders of the 
U.N. did not wish U.N. membership to cause severe financial hardship. 
However, as evidenced from their actions in establishing a minimum 
assessment of 0.04 percent in 1946, they did not believe that 
membership should be costless or insignificant, either, even though the 
original member states included very poor countries such as Haiti.
    Over the past six decades, the regular budget assessments provided 
by poor or small U.N. member states have steadily ratcheted downward. 
Specifically, the minimum assessment for the regular budget fell from 
0.04 percent to 0.02 percent in 1974 to 0.01 percent in 1978 to the 
current minimum assessment of 0.001 percent adopted in 1998. For the 
peacekeeping budget, the minimum is 0.0001 percent.
    Additional discounts have also been adopted to reduce the 
assessments of most nations, including a debt burden discount for 
countries under a specified income threshold, a low per capita income 
discount, and a maximum assessment of 0.01 percent for the nearly 50 
least-developed countries.\7\ In addition, the vast majority of the 
U.N. membership receives further discounts ranging from 7.5 percent to 
90.0 percent on their peacekeeping assessments (that are based on their 
adjusted regular budget assessments) which are then added to the 
assessments of the permanent members of the Security Council.\8\
    The primary result of these adjustments is to shift the costs of 
the organization away from the bulk of the membership onto a relative 
handful of high-income nations, particularly the United States. As 
presented in the accompanying table, for the regular budget, the United 
States is assessed more than 176 other U.N. member states combined and 
22,000 times more than the least-assessed countries.
    These differences are even starker in dollar terms:

  <bullet> The 35 countries charged the minimum assessment in 2015 each 
        will pay only $28,269 based on the current 2014-2015 regular 
        budget.
  <bullet> The 20 countries paying the minimum peacekeeping assessment 
        of 0.0001 percent in 2015 each will be assessed approximately 
        $8,470.
  <bullet> By contrast, the United States is assessed 22.0 percent of 
        the regular budget (approximately $622 million) and 28.3626 
        percent of the peacekeeping budget (approximately $2.402 
        billion).

    In other words, the United States will be assessed approximately $3 
billion this year while the 20 least-assessed countries each will be 
assessed less than $37,000. Over 40 countries will be assessed less 
than $100,000 this year. As observed by U.N. expert Edward Luck, 
``Surely it should not cost a nation less to belong to the U.N. than an 
individual to go to college or to buy a car.'' \9\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This reality helps explain why so many member states are blase 
about increases in the U.N. budget: The financial impact on them is 
miniscule and undermines incentives for them to fulfill their oversight 
role and seriously consider budgetary restraint. A long-term means for 
addressing this problem requires all member states to have financial 
skin in the game.
    Since the first scale of assessments, the United States has 
objected to excessively relying on a single member state for the budget 
and argued for establishing a maximum assessment level and, 
subsequently, lowering that maximum. The historical struggle of the 
United States to constrain growth in U.N. budgets and focus resources 
on high priority, effective activities versus outdated, duplicative, or 
unproductive activities illustrates the wisdom of this stance. The 
organization would be healthier and more effective if the costs were 
more equitably distributed. To address these concerns the United States 
should:

  <bullet> Review and seek to adjust the U.N. scale of assessment to 
        more equitably distribute the costs of the regular budget. 
        Unless a stronger relationship between budget decisions and 
        financial contributions is achieved, the United States too 
        often will remain a lonely voice calling for budgetary 
        restraint. The U.N. Committee on Contributions meets this June 
        to recommend a new 2016-2018 scale of assessments for 
        consideration by the General Assembly this fall. The United 
        States should propose options for adjusting the scale to ensure 
        that even the lowest assessed countries have a greater stake in 
        financial decisions. An example would be to return the minimum 
        assessment to 0.01 percent as it was before 1998, which would 
        have the effect of increasing the minimum assessment from 
        roughly $28,000 per year to about $280,000 per year. These 
        changes would affect approximately 80 countries, but should be 
        within the means of even the poorest sovereign nations.
  <bullet> Review and adjust the U.N. scale of assessment to more 
        equitably distribute the costs of the peacekeeping budget. To 
        address the even greater disparity in the peacekeeping 
        assessment, the United States should seek to increase the 
        peacekeeping floor to 0.001 percent. This would have the effect 
        of increasing the minimum assessment from roughly $8,470 per 
        year to about $84,700 per year. In addition, considering that 
        the peacekeeping assessment is based on the regular budget 
        where many countries already receive significant discounts, the 
        extent of additional peacekeeping discounts should be trimmed 
        as should the number of eligible countries, which currently 
        apply to wealthy nations like Saudi Arabia. Finally, the United 
        States should also seek a change in the methodology to reflect 
        the prestige of membership on the Security Council by 
        proposing: (1) a new minimum peacekeeping assessment of 0.5 
        percent for nonpermanent members of the Security Council; (2) a 
        new minimum peacekeeping assessment of 5 percent for permanent 
        members of the Security Council; and (3) barring the permanent 
        members from using the debt adjustment, low income adjustment, 
        or other regular budget scale of assessment discounts for the 
        purposes of calculating their peacekeeping assessment.
  <bullet> Enforce the 25 percent cap on America's peacekeeping 
        assessment. Fifteen years ago, Ambassador Richard Holbrooke 
        testified to the Senate that he had secured a deal to lower the 
        U.S. peacekeeping assessment to 25 percent as required under 
        U.S. law and as a condition for payment of U.S. arrears under 
        the Helms-Biden agreement.\10\ By 2009, the U.S. share had 
        fallen to less than 26 percent. In 2010, however, the U.S. 
        assessment rose sharply, costing taxpayers hundreds of millions 
        of dollars. The U.S. share of the peacekeeping budget has risen 
        to 28.3626 percent under the current scale and is likely to 
        rise even further in the next scale of assessments unless 
        changes are made.\11\ The United States should resume pressure 
        on the U.N. to fulfill its commitment to lower the U.S. 
        peacekeeping assessment to 25 percent by withholding the 
        difference between our peacekeeping assessment and the 25 
        percent cap until the U.N. implements a maximum peacekeeping 
        assessment of 25 percent.
  <bullet> Seek institutional changes to give more influence on U.N. 
        budgetary decisions to major contributors. Together, the top 17 
        contributors (those assessed more than 1 percent of the budget) 
        are assessed more than 81.6 percent of the U.N. regular budget 
        in 2015, but under U.N. rules, the 129 member states that 
        contribute just over 1.5 percent can pass the budget over their 
        objections. The United States should demand that U.N. budgetary 
        decisions, in addition to approval by two-thirds of the member 
        states, must also be approved by member states collectively 
        paying two-thirds of the regular budget assessments.

    Another part of this problem is how the U.N. budget is allocated. 
The failure to arrest growth in U.N. employment, salaries, and benefits 
is especially problematic because personnel costs account for over 70 
percent of U.N. spending according to the U.N.'s Advisory Committee on 
Administrative and Budgetary Questions (ACABQ).\12\ Without a 
significant reduction in the number of permanent U.N. posts or a 
significant reduction in staff compensation and related costs, real and 
lasting reductions in the U.N. regular budget will be difficult. 
Therefore, the United States should:

  <bullet> Rein in excessive U.N. salaries and benefits. In order to 
        attract and retain qualified staff, the U.N. has long operated 
        under the Noblemaire principle, which states that professional 
        staff compensation should be determined according to the 
        schedule of the civil service of the member state with the 
        highest national civil service compensation levels. Since the 
        U.N. was founded, this ``comparator'' has been the U.S. federal 
        civil service. In 2014, the U.N. reported that net remuneration 
        averages 32.2 percent higher than that of their U.S. equivalent 
        in Washington and 17.4 percent higher than their U.S. 
        equivalent in New York.\13\ The United States should seek to 
        ratchet this down to no more than the same level of equivalent 
        U.S. civil servants.\14\ Considering the large portion of the 
        U.N. budget consumed by salaries, this issue is critical to 
        budgetary restraint as evidenced by calls from U.N. 
        organizations like the Food and Agriculture Organization and 
        the International Maritime Organization to arrest rising staff 
        costs.\15\

    Related to this is the failure of the U.N. to regularly evaluate 
its activities or ``mandates'' in U.N. terminology. As part of the 2005 
reform agenda, the U.N., for the first time, compiled a comprehensive 
list of the more than 9,000 individual mandates of the General 
Assembly, Security Council, and Economic and Social Council. 
Unfortunately, the subsequent review was quickly ended after the first 
report concluded that a number of mandates should be eliminated. 
Specifically, the 2008 report from the cochairmen of the mandate review 
concluded that only 155 (56 percent) of the 279 mandates in the 
Humanitarian cluster were ``current and relevant'' and that only 18 (35 
percent) of the 52 mandates in the African Development cluster were 
current and relevant. There is no evidence that these outdated or 
irrelevant mandates have been terminated or altered to improve their 
relevance. The deliberate avoidance of this scrutiny wastes resources 
and undermines the U.N.'s ability to discharge its responsibilities 
effectively. To address this, the United States should:

  <bullet> Seek to revive the mandate review. Lack of progress on 
        reviewing U.N. mandates greatly inhibits the U.N.'s ability to 
        allocate funds according to priorities and eliminate 
        unnecessary tasks, personnel, and functions that drain and 
        divert resources.
                      oversight and accountability
    The U.N. and its employees enjoy broad protections and immunities 
from national and local legal jurisdiction. In practice, U.N. employees 
cannot be sued in national courts, arrested, or prosecuted for actions 
related to their official duties unless those immunities are waived. 
This places an extremely heavy responsibility on the U.N. to 
scrutinize, self-police, correct, and punish wrongdoing by the 
organization and its employees.
    Unfortunately, oversight and accountability at the U.N. have 
historically been weak. The U.N. did not have anything even resembling 
an inspector general until 1994, when the Office of Internal Oversight 
Services (OIOS) was created after U.S. demands--backed by the threat of 
financial withholding--for such an office. Three major scandals, 
including corruption in the Iraqi Oil-for-Food program, sexual abuse 
committed by U.N. peacekeepers, and corruption and mismanagement in 
U.N. procurement, spurred calls for stronger oversight and 
accountability in the mid-2000s and provoked a series of U.N. reports 
and resolutions identifying the problems and proposing solutions. 
Unfortunately, current procedures remain unacceptably weak when they 
have not been eliminated altogether.
    A depressing example is the Procurement Task Force (PTF). When the 
extent of U.N. fraud and mismanagement in the Iraqi Oil-for-Food 
program became clear, the United States was able to convince the U.N. 
to create the PTF to investigate and pursue allegations of fraud and 
mismanagement. The PTF began work in January 2006 and over the next 3 
years uncovered fraud, waste, and mismanagement in U.N. procurement and 
other activities involving contracts valued at more than $630 million. 
The evidence unearthed by the PTF led to misconduct findings against 17 
U.N. officials and the conviction of several senior U.N. officials. In 
the end, the PTF did its job too well. As punishment for pursuing cases 
against Singaporean and Russian nationals, those countries led a 
successful effort to eliminate the PTF in December 2008.\16\
    This outcome would not be so serious if the OIOS was willing and 
able to fill the gap of the eliminated PFT. Unfortunately, it does not. 
According to a 2014 Associated Press report on a senior OIOS official 
impeding an investigation and retaliating against two OIOS 
whistleblowers, it was revealed that a ``review of the reports 
submitted by OIOS to the General Assembly through mid-2013 shows that 
the U.N.'s oversight functions still have not completed any major 
corruption cases since the [Procurement Task Force] was disbanded.'' 
\17\
    This lack of U.N. internal oversight is exacerbated by the 
hostility toward U.N. whistleblowers. Whistleblowers should serve a 
particularly valuable function in the U.N. system because of the broad 
protections and immunities the organizations and their employees 
possess. In essence, whistleblowers should serve as a safety valve by 
alerting the organization to wrongdoing. Unfortunately, whistleblowers 
are themselves too often punished for coming forward. The Government 
Accountability Project (GAP), which advocates for whistleblowers, has 
compiled numerous instances illustrating ``the consistent failure of 
the United Nations and its funds, programs and agencies to protect 
whistleblowers from retaliation.'' \18\
    Only a few weeks ago, nine whistleblowers from various U.N. 
organizations sent a letter to the U.N. Secretary General asserting 
that U.N. whistleblower standards lag behind the modern standards and 
are poorly implemented affording little to no measure of real or 
meaningful protection for whistleblowers.
    As our experience shows, retaliation against whistleblowers affects 
the entire U.N. system and goes largely unchecked at all levels, 
including in the Executive suites. Some U.N. whistleblowers have been 
fired or demoted; others have been subject to more subtle forms of 
abuse like nonrenewal of contracts or sudden transfer to duty stations 
on the other side of the globe; many face plain, simple harassment and 
intimidation.
    As a result, fear of reporting wrongdoing is widespread. U.N. 
whistleblowers are forced to go through lengthy, and often expensive, 
internal appeal processes in which the burden of proof, as a practical 
matter, rests on the whistleblower to demonstrate retaliation (the 
usual standard in national systems requires the employer to justify 
their actions were not retaliatory).
    Put simply, the U.N. system of justice fails whistleblowers, and 
most of us have been forced to leave the U.N. to save our livelihoods, 
our health and our reputations.\19\
    Statistics compiled by GAP on the performance of the U.N. ethics 
office, which found that it had denied the whistleblowing allegations 
of over 96 percent of those who had come forward (more than 447 
preliminary inquiries) as of July 2014, support this conclusion.\20\ 
Considering these problems, the United States should seek to:

  <bullet> Encourage stronger whistleblower protections. Congress has 
        expressed great concern over the failure of the U.N. to 
        implement measures to protect whistleblowers. The Consolidated 
        and Further Continuing Appropriations Act, 2015, requires the 
        United States to withhold 15 percent of U.S. contributions 
        unless the Secretary of State certifies that the organization 
        has implemented specified whistleblower protections including 
        the option for external arbitration.\21\ Congress should 
        consider expanding its whistleblower protection language to 
        incorporate recommendations from the letter from U.N. 
        whistleblowers, including applying whistleblower protections to 
        U.N. peacekeepers and police.
  <bullet> Apply pressure for the implementation of current standards. 
        Although the current protections for whistleblowers in the U.N. 
        system should be improved, the biggest problem is a consistent 
        failure of the U.N. to actually adhere to those standards and 
        apply them. As noted by Beatrice Edwards, executive director of 
        the Government Accountability Project, ``[T]he problem is not 
        with the policy. It's that it's not implemented, no political 
        will at the top to protect whistleblowers.'' \22\ History has 
        shown that the U.N. will respond to financial pressure and 
        Congress should take steps to ensure that its efforts are not 
        negated by broad use of the waiver authority granted the 
        Secretary of State.
  <bullet> Reconstitute the PTF. The unwillingness of the OIOS to 
        investigate corruption necessitates a supplementary effort that 
        could be addressed by a reconstituted PTF or an equivalent 
        independent entity empowered to investigate any entity or 
        mission that receives funding from the U.N. regular budget or 
        the U.N. peacekeeping budget or reports to the General 
        Assembly.
                              peacekeeping
    One of the United Nations' primary responsibilities is to help to 
maintain international peace and security. At the end of March 2015, 
U.N. peacekeeping had more than 125,000 personnel (including 106,595 
uniformed personnel, 17,092 civilian personnel, and 1,846 volunteers) 
involved in U.N. peacekeeping and political missions overseen by the 
U.N. Department of Peacekeeping Operations. These activities are 
increasingly expensive with the current annual peacekeeping budget 
estimated at $8.47 billion.\23\
    U.N. peacekeeping is being conducted with unprecedented pace, 
scope, and ambition. Increasing demands have revealed ongoing, serious 
flaws.
    Fraud and Corruption. Over the years there have been numerous 
reports, audits, and investigations revealing mismanagement, fraud, and 
corruption in procurement for U.N. peacekeeping. For instance, in a 
2007 OIOS report, an examination of $1.4 billion of peacekeeping 
contracts turned up ``significant'' corruption schemes that tainted 
$619 million (over 40 percent) of the contracts.\24\ An audit of the 
U.N. mission in Sudan revealed tens of millions of dollars lost to 
mismanagement and waste and exposed substantial indications of fraud 
and corruption.\25\ According to then-head of OIOS Inga-Britt Ahlenius 
in 2008, ``We can say that we found mismanagement and fraud and 
corruption to an extent we didn't really expect.'' \26\
    More recent reports are scarce, most likely due to OIOS disinterest 
in pursuing investigations as detailed above, but recent news stories 
on possible corruption in U.N. air charters to favor Russian 
contractors,\27\ allegations of selling U.N. peacekeeping jobs in Haiti 
and the Democratic Republic of the Congo,\28\ and assertions by 
independent watchdogs like Transparency International that the U.N. has 
failed to prioritize fighting corruption in peacekeeping operations 
\29\ indicate that the issue remains problematic.
    Unintended Consequences. Ten months after the 2010 earthquake, 
Haiti was ravaged by cholera for the first time in over a century. Over 
8,000 Haitians have died and more than 600,000 more have been sickened 
from cholera. Infections first occurred in the vicinity of an outpost 
of U.N. peacekeepers from Nepal--where cholera is widespread--and 
quickly spread across Haiti. A U.N. investigation concluded that the 
cholera cases involved a single strain of the disease, indicating a 
single source, and that the strain was closely related to strains 
contemporaneously circulating in South Asia. Subsequent studies and 
reports, including one by the scientists that originally conducted the 
U.N. report, confirmed these conclusions and identified the Nepalese 
peacekeepers as almost certainly the source of the cholera outbreak. 
Because of the broad immunities and privileges enjoyed by the U.N., 
efforts to sue the organization have been unsuccessful. The U.N. has 
repeatedly refused to admit responsibility or take steps to provide 
compensation to the victims leaving the victims with little 
recourse.\30\
    Increasing Financial Burden. As the number and scope of 
peacekeeping operations has risen, so has the cost borne by the member 
states. As the largest contributor with an assessment of 28.3626 
percent of the peacekeeping budget, the United States has a special 
interest in constraining these increasing costs. To this end, the 
United States should more carefully scrutinize long-standing 
peacekeeping operations. The unfortunate reality is that after billions 
of dollars in international assistance and decades of U.N. peacekeeping 
efforts, many long-standing peacekeeping operations have not 
demonstrably facilitated the resolution of the conflict or situation 
that the mission was originally deployed to address. For instance, the 
United Nations Truce Supervision Organization (UNTSO) and the United 
Nations Military Observer Group in India and Pakistan (UNMOGIP) have 
been in place since the 1940s. The United Nations Peacekeeping Force in 
Cyprus (UNFICYP) has been in place since 1964, the United Nations 
Disengagement Observer Force (UNDOF) has been operational since 1974, 
the United Nations Interim Force in Lebanon (UNIFIL) since 1978, and 
the United Nations Mission for the Referendum in Western Sahara 
(MINURSO) since 1991. Peacekeeping should be a temporary endeavor, not 
a permanent presence. Priority should be given to more urgent crises 
with older, stagnating missions phased out to provide resources.
    Protection of Civilians. U.N. peacekeeping debacles in the 1990s 
led to a reevaluation of U.N. peacekeeping. However, as troubling 
situations have arisen in recent years, many of them in Africa, the 
Security Council has found itself under pressure to respond and ``do 
something'' even though it may violate the central lesson learned in 
the 1990s that ``the United Nations does not wage war.'' \31\ This does 
not mean, however, that U.N. peacekeepers are necessarily more capable 
or willing to act with force to prevent violence. A 2014 study of eight 
of the nine U.N. peacekeeping operations with a mandate to protect 
civilians found that of 570 reported instances, peacekeepers ``did not 
report responding to 406 (80 per cent) of incidents where civilians 
were attacked.'' \32\
    This also assumes that those reports are accurate or complete. 
Whistleblower Aicha Elbasri, who served as spokesperson for the African 
Union-United Nations Mission in Darfur (UNAMID) between August 2012 and 
April 2013, provided leaked documentation to Foreign Policy that showed 
in a series of articles that the mission was deliberately 
underreporting and concealing attacks by Sudanese forces on civilians 
and U.N. peacekeepers.\33\
    Sexual Exploitation and Abuse. By far the most horrible of the 
problems facing U.N. peacekeeping is the disturbing frequency of sexual 
exploitation and abuse committed by troops and civilian personnel 
participating in those operations. This is not a new problem. There 
have been numerous reports of U.N. personnel committing serious crimes 
and sexual misconduct, from rape to the forced prostitution of women 
and young girls. U.N. personnel have been accused of sexual 
exploitation and abuse in Bosnia, Burundi, Cambodia, Congo, the 
Democratic Republic of Congo, Guinea, Haiti, Kosovo, Liberia, Sierra 
Leone, and Sudan. The United States and other member states 
successfully pressured the U.N. to adopt stricter requirements for 
peacekeeping troops and their contributing countries and Secretaries 
General Kofi Annan and Ban Ki-moon repeatedly announced their 
commitment to a ``zero-tolerance policy'' on sexual exploitation and 
abuse and have commissioned and conducted numerous reports on the 
matter.\34\
    Conduct and discipline teams charged with strengthening 
accountability and upholding the highest standards of conduct in 
peacekeeping missions are now present in nearly all U.N. peacekeeping 
missions and some political missions and troops are required to undergo 
briefing and training on behavior and conduct.\35\ Statistics on the 
United Nations Conduct and Discipline Unit Web site chronicle a steep 
decline in allegations of sexual exploitation and abuse.
    Recent leaked reports, however, belie these statistics and indicate 
that the problem is as bad, if not worse, than it has ever been. A 
U.N.-commissioned experts report from November 2013, which was never 
released, was leaked earlier this year.\36\ The report directly 
challenges U.N. claims on sexual exploitation and abuse, stating:

  <bullet> ``The U.N. does not know how serious the problem of SEA 
        [sexual exploitation and abuse] is because the official numbers 
        mask what appears to be significant amounts of underreporting 
        of SEA'' due to poor record keeping, fear of retribution, a 
        culture of silence, and a sense of futility due to ``the rarity 
        of remedial outcomes including rarity of victim assistance.''
  <bullet> ``Overall, there was noted a culture of enforcement 
        avoidance, with managers feeling powerless to enforce anti-SEA 
        rules, a culture of silence around reporting and discussing 
        cases, and a culture of extreme caution with respect to the 
        rights of the accused, and little accorded to the rights of the 
        victim.''
  <bullet> ``This impunity has been debilitating for the many U.N. 
        personnel who believe in, adhere to, and try to promote the 
        zero tolerance policy, and creates unremediated harm to its 
        victims.''

    Just last week, another report carried out by UNICEF and the U.N. 
Office of the High Commissioner on Human Rights to investigate 
allegations of sexual abuse and misconduct involving young boys in the 
Central African Republic between December 2013 and June 2014 was 
leaked. The confidential investigation reportedly provided strong 
evidence of repeated rape and sexual abuse of starving boys ages 9 to 
15 by French, Chadian, and Equatorial Guinean peacekeepers present in 
the country before the United Nations Multidimensional Integrated 
Stabilization Mission in the Central African Republic (MINUSCA) was 
stood up.\37\ It is unknown if the abuse continued under MINUSCA or if 
any of the perpetrators currently serve in MINUSCA. However, the 
reluctance of the U.N. to pursue the matter is deeply troubling. As 
stated by Paula Donovan, codirector of the advocacy group Aids Free 
World, who received the leaked report: ``The regular sex abuse by 
peacekeeping personnel uncovered here and the United Nations' appalling 
disregard for victims are stomach-turning, but the awful truth is that 
this isn't uncommon. The U.N.'s instinctive response to sexual violence 
in its ranks--ignore, deny, cover up, dissemble--must be subjected to a 
truly independent commission of inquiry with total access, top to 
bottom, and full subpoena power.'' \38\
    Considering these problems, the United States should:

  <bullet> Press the U.N. to clarify the steps and circumstances 
        required for the U.N. to waive immunities for employees in 
        order to facilitate claims and efforts to punish serious 
        misconduct. The U.N. and its affiliated organizations are 
        engaged in a multitude of activities that could result in 
        casualties, property damage, or other negative consequences. 
        Elimination of U.N. immunities would likely lead to a reduction 
        in U.N. field activities, which could lead to even broader 
        suffering. Although the U.N. has a mixed record, the United 
        States has an interest in preserving the ability of the U.N. to 
        respond to crises where it is unwilling or unable to respond 
        directly. But this interest must not supersede the need of 
        victims of sexual abuse, criminality, or neglect to hold those 
        responsible for their suffering to account. U.N. privileges and 
        immunities are important, but they must not create an 
        unreasonable barrier to accountability.
  <bullet> Take steps to hold troop-contributing countries accountable. 
        The standard memorandum of understanding between the U.N. and 
        troop contributors appropriately grants troop-contributing 
        countries jurisdiction over military members who participate in 
        U.N. peace operations, but little is done if these countries 
        fail to investigate or punish those who are guilty of such 
        crimes. The U.N. should demand that troop-contributing 
        countries investigate, try, and punish their personnel in cases 
        of misconduct and publicly release updates and outcomes of 
        their investigations into allegations. U.N. resources should be 
        enhanced to more rapidly investigate potential crimes and all 
        troop contributing countries must be required to grant full 
        cooperation and access to witnesses, records, and sites where 
        crimes allegedly occurred so that evidence is collected in a 
        timely manner and preserved. Equally important, the U.N. must 
        be stricter in holding member countries to these standards. 
        States that fail to fulfill their commitments to discipline 
        their troops should be barred from providing troops for peace 
        operations or receive substantially reduced peacekeeper 
        reimbursements. Likewise, if compensation is deemed appropriate 
        for damages resulting from negligence by the troop-contributing 
        government, extracting penalties from peacekeeping payments to 
        the troop-contributing country should be the first option.\39\
  <bullet> Press the U.N. to automatically establish standing claims 
        commissions in peacekeeping missions. The current situation 
        gives the appearance of avenues of redress for damages caused 
        by U.N. action, but the failure of the U.N. to ever establish a 
        standing claims commission indicates that the system is not 
        operating as it should. A key reason for this is likely that a 
        government in a country where the U.N. has a peacekeeping 
        operation is almost always highly dependent on the U.N. for 
        security, resources, and political support. As a result, the 
        government will be reluctant to anger the U.N. by requesting 
        the establishment of a standing claims commission. To avoid 
        this complication, a standing claims commission should 
        automatically be established when a mission stands up, although 
        it would be prudent to tightly define the claims eligible for 
        consideration to avoid frivolous petitions.
  <bullet> Evaluate long-running U.N. peacekeeping missions. The United 
        States should reevaluate all U.N. operations that date back to 
        the early 1990s or earlier--some date back to the 1940s--to 
        determine whether each U.N. mission is contributing to 
        resolving the situation or retarding that process. If an 
        operation is not demonstrably facilitating resolution of the 
        situation, the United States should use its authority in the 
        Security Council to wind them down. Alternatively, if some 
        concerned countries wish to continue U.N. peacekeeping 
        operations that have not resolved the conflicts despite being 
        in place for decades, they should be asked to assume all or 
        part of the financial burden of the continued operation as is 
        currently done with the U.N. Peacekeeping Force in Cyprus 
        (UNFICYP) where Greece and Cyprus pay for a large portion of 
        the mission's cost.\40\ These long-standing missions are 
        generally relatively small and among the least costly, but such 
        a reevaluation would help to reduce the enormous peacekeeping 
        budget and send a welcome message of accountability and 
        assessment.\41\
  <bullet> Be more judicious in authorizing U.N. peacekeeping 
        operations. A U.N. peacekeeping operation may not be the best 
        option for addressing every situation, particularly those where 
        there is no peace to keep. The pressure to ``do something'' 
        must not trump sensible consideration of whether a U.N. 
        presence will improve or destabilize the situation, which 
        includes clearly establishing the objectives of the operations, 
        ensuring that they are achievable, carefully planning the 
        requirements for achieving them, and securing pledges for 
        providing what is needed to achieve them before authorizing the 
        operation.
                     u.s. transparency and analysis
    Finally, there is also a lack of transparency and analysis on the 
U.S. side. Because of the complexity of U.S. funding to the U.N., prior 
to 2006 there was no definitive data on total U.S. contributions to the 
U.N. system. In 2006, Congress required the White House Office of 
Management and Budget (OMB) to submit a comprehensive report on total 
U.S. contributions to the U.N. system for fiscal year (FY) 2001 through 
FY 2005. Because OMB is in charge of overseeing the preparation of the 
President's budget, it was able to require all U.S. agencies to report 
the requested information.
    That 2006 report confirmed that actual U.S. contributions to the 
U.N. were higher by about 25 percent than previously reported by the 
State Department. Congress mandated similar reports for FY 2006 through 
FY 2010 but was inconsistent in assigning authorship. In each instance 
where the State Department compiled the report, U.S. contributions to 
the U.N. implausibly fell below the amount reported for previous years 
by the OMB.
    The reporting requirement lapsed in 2011. As a result, a 
comprehensive accounting of U.S. contributions to the U.N. system after 
FY 2010 is not available and the last reliable accounting by the OMB 
was for FY 2010, which reported contributions totaling $7.692 
billion.\42\ Incomplete data based on State Department reports to 
Congress indicate that U.S. contributions have not declined, but 
without the OMB report it is not possible to provide a definitive 
figure.\43\
    In addition, the United States lacks a comprehensive analysis of 
whether these contributions are advancing U.S. interests or being used 
to maximum effect. An example of what the United States should do is 
the Multilateral Aid Review conducted by the United Kingdom's 
Department for International Development that assessed the relative 
value for U.K. aid money disbursed through multilateral organizations. 
This report identified those U.N. agencies providing poor value for 
money and led to the decision to zero out-funding for four U.N. 
agencies.\44\ The last time the United States conducted a similar 
exercise, albeit in a far less rigorous manner, was under the Clinton 
administration in 1995 and directly led to the U.S. decision to 
withdraw from the United Nations Industrial Development Organization 
(UNIDO).\45\ The United States should not let two decades lapse before 
repeating this type of analysis. To address these issues Congress 
should:

  <bullet> Enact a permanent annual reporting requirement on all U.S. 
        contributions to the U.N. system to be conducted by the OMB. 
        Most U.S. contributions to the U.N. system come from the State 
        Department, but millions of dollars also flow from other parts 
        of the Federal Government. Thus, relying on State Department 
        data, such as that in State's annual report to Congress on U.S. 
        contributions to international organizations, presents an 
        incomplete picture. Because the OMB is in charge of overseeing 
        the preparation of the President's budget, it is able to 
        require all U.S. agencies to report the requested information. 
        The first of these reports should require information for FY 
        2011 through the most recently completed fiscal year to fill in 
        the reporting gap.
  <bullet> Require the State Department to conduct a periodic analysis 
        of U.S. participation in all U.N. organizations and submit it 
        as a report to Congress. Although a number of U.N. 
        organizations provide important contributions to U.S. 
        diplomatic, economic, and security interests, not all do. 
        Congress should require the State Department to conduct a 
        detailed review to identify those most and least vital to U.S. 
        interests and providing the most and least value for money. 
        U.S. membership and contributions should be informed by this 
        analysis.
  <bullet> Establish a dedicated unit within the State Department 
        Office of Inspector General charged with inspecting and 
        auditing use of U.S. funds by international organizations. This 
        unit would help ensure that U.S. funds are being used 
        appropriately and, hopefully, provide independent oversight to 
        spur better performance within the U.N. system. The size of the 
        unit should be commensurate with the proportion of U.S. 
        contributions to international organizations within the 
        International Affairs budget. To ensure compliance, Congress 
        should make a portion of U.S. contributions to international 
        organizations contingent on cooperation with the unit.
                               conclusion
    It is in the interests of the United States to have an effective 
United Nations. To be useful, the U.N. must carry out its 
responsibilities competently. The current organization falls short. The 
United States should not hesitate to encourage and demand reforms 
intended to improve the organization. The cost of failing to reform the 
U.N. is high, not just for the U.N., which risks being sidelined if it 
cannot be relied upon to address key issues, but also for America, 
which would be forced to expend greater resources and effort to resolve 
problems, such as the recent Ebola outbreak in West Africa that was 
poorly addressed by the World Health Organization,\46\ that should 
normally fall under the responsibility of the U.N.
    An administration focused on advancing its policy priorities in the 
United Nations can block many counterproductive initiatives put forth 
in the U.N. Rallying support for positive change is much more 
difficult. Such efforts require the assistance of other member states 
or the use of leverage to impose reforms on an unwilling organization.
    Congress has a critical role to play in U.N. reform. Congress has 
played an active role on U.N. reform since the very beginning of the 
organization and can be a very effective ally in executive branch 
efforts to pressure the organization to adopt targeted reforms.\47\ 
Financial carrots and sticks have been effective in the past in 
spurring reform, including the establishment of the OIOS in 1994 and 
the adoption of a maximum assessment for the regular budget.48 Congress 
and reform-minded member states should not be reluctant to use such 
tactics to spur reform.
    Chairman Barrasso, Ranking Member Udall, and the other members of 
the subcommittee thank you for the opportunity to testify today and I 
look forward to your questions.

----------------
Notes

    \1\ This data has not been updated since 2012. Chief Executives 
Board for Coordination, ``United Nations System: Total Revenue by 
Revenue Type.''
    \2\ For a fuller discussion, see Brett D. Schaefer, ``U.S. Should 
Demand Increased Transparency and Accountability as U.N. Revenues 
Rise,'' Heritage Foundation Issue Brief No. 4154, February 26, 2014.
    \3\ United Nations General Assembly, ``Programme Budget for the 
Biennium 2014-2015,'' 
A/RES/69/263 A-C, December 29, 2014.
    \4\ United Nations General Assembly, ``Approved Resources for 
Peacekeeping Operations for the Period from 1 July 2014 to 30 June 
2015,'' A/C.5/69/17.
    \5\ United Nations, ``Peacekeeping Fact Sheet,'' as of March 31, 
2015.
    \6\ For a detailed history of this practice, see Brett D. Schaefer, 
``The Window of Opportunity to Overhaul the U.N. Scale of Assessments 
Is Closing,'' Heritage Foundation Backgrounder No. 2701, June 18, 2012.
    \7\ Report of the Committee on Contributions, Seventy-second 
session, June 4-29, 2012.
    \8\ United Nations General Assembly, ``Scale of Assessments for the 
Apportionment of the Expenses of United Nations Peacekeeping 
Operations,'' A/RES/55/235, January 30, 2001.
    \9\ Edward C. Luck, ``Mixed Messages: American Politics and 
International Organization, 1919-1999 (Washington, DC: Brookings 
Institution Press, 1999), p. 253.
    \10\ Richard C. Holbrooke, U.S. Permanent Representative to the 
United Nations, testimony before the Committee on Foreign Relations, 
U.S. Senate, January 9, 2001.
    \11\ For a fuller discussion, see Brett D. Schaefer, ``U.S. Must 
Enforce Peacekeeping Cap to Lower America's U.N. Assessment,'' Heritage 
Foundation Backgrounder No. 2762, January 25, 2013.
    \12\ Joseph M. Torsella, ``Remarks on the Proposed U.N. Program 
Budget for 2012-13 before the Fifth Committee,'' U.N. General Assembly, 
October 27, 2011.
    \13\ United Nations, ``Report of the International Civil Service 
Commission for the Year 2014,'' Annex VI, p. 67.
    \14\ For a fuller discussion, see Brett D. Schaefer, ``U.S. Should 
Lead Effort to Arrest Excessive U.N. Pay,'' Heritage Foundation Issue 
Brief No. 4099, November 26, 2013.
    \15\ Brett D. Schaefer, ``U.S. Should Lead Effort to Arrest 
Excessive U.N. Pay,'' Heritage Foundation Issue Brief No. 4099, 
November 26, 2013.
    \16\ For a fuller account, see Brett D. Schaefer, ``The Demise of 
the U.N. Procurement Task Force Threatens Oversight at the U.N.,'' 
Heritage Foundation WebMemo No. 2272, February 5, 2009.
    \17\ John Heilprin, ``U.N. Whistleblower Case Shows Accountability 
Limits,'' Associated Press, January 10, 2014.
    \18\ Government Accountability Project, ``GAP Releases Report on 
U.N. Whistleblower Cases,'' August 22, 2014.
    \19\ GAP, ``Letter from United Nations Whistleblowers to U.N. 
Secretary General and U.N. Executive Heads,'' April 8, 2015.
    \20\ According to GAP, ``From the time the Ethics Office was 
established through July 31, 2014 it received 447 `preliminary 
inquires.' The Ethics Office launched preliminary reviews in 140 of 
these cases. It is unclear from the Ethics Office's reports exactly how 
many preliminary reviews were completed, but it was somewhere between 
113 and 135. The Ethics Office found 14 prima facie cases of 
retaliation. If it completed preliminary reviews in 113 cases, then it 
has found a prima facie case of retaliation in 12 percent of those 
cases (14 of 113); if it has completed 135 then the number drops to 10 
percent. In these 14 cases, the Office ultimately established 
retaliation and made recommendations to the Secretary General in 4 
cases. An additional case was settled through mediation and another is 
still pending, reducing the number completed to 12. So the Ethics 
Office substantiated retaliation in 4 out of 12 cases that proceeded to 
an investigation, or 33%. If the Ethics Office completed prima facie 
reviews in 111 cases (subtracting the two that are pending or settled), 
then it ultimately substantiated retaliation in 3.6% of the cases it 
reviewed (4 of 111). If the number was 133 then this drops to 3%. So 
96% of whistleblowers who filed retaliation complaints with the Ethics 
Office received no relief. In brief, slightly over 96% of 
whistleblowers who filed retaliation complaints with the Ethics Office 
received no relief.'' E-mail communication from GAP.
    \21\ Section 7048, ``Consolidated and Further Continuing 
Appropriations Act, 2015,'' P.L. 113-235, December 16, 2014.
    \22\ Associated Press, ``Whistleblowers to U.N. Chief: World Body 
Offers Little Protection for Exposing Wrongdoing,'' April 9, 2015.
    \23\ United Nations, ``Peacekeeping Fact Sheet,'' as of March 31, 
2015.
    \24\ Office of Internal Oversight Services, ``Report of the Office 
of Internal Oversight Services on the Activities of the Procurement 
Task Force for the 18-Month Period Ended 30 June 2007,'' A/62/272, 
October 5, 2007.
    \25\ Colum Lynch, ``Audit of U.N.'s Sudan Mission Finds Tens of 
Millions in Waste,'' The Washington Post, February 10, 2008, p. A16.
    \26\ Louis Charbonneau, ``U.N. Probes Allegations of Corruption, 
Fraud,'' Reuters, January 10, 2008.
    \27\ George Russell, ``U.N. Paid Russian Air Charters Hundreds of 
Millions While Putin Invaded Ukraine,'' Fox News, April 9, 2015.
    \28\ Matthew Russell Lee, ``On Selling of U.N. Jobs in DRC & Haiti 
U.N. Says It's Up to Cote d'Ivoire: Cover Up?'' Beacon Reader, February 
11, 2015.
    \29\ Transparency International, ``Corruption & Peacekeeping: 
Strengthening Peacekeeping and the United Nations,'' October 2013.
    \30\ For a fuller discussion, see Brett D. Schaefer, ``Haiti 
Cholera Lawsuit Against the U.N.: Recommendations for U.S. Policy,'' 
Heritage Foundation Backgrounder No. 2859, November 12, 2013.
    \31\ Commonly known as the Brahimi Report after Lakhdar Brahimi, 
Chairman of the Panel on United Nations Peace Operations. United 
Nations, ``Comprehensive Review of the Whole Question of Peacekeeping 
Operations in All Their Aspects,'' A/55/305-S/2000/809, August 21, 
2000, p. 10.
    \32\ Report of the Office of Internal Oversight Services, 
``Evaluation of the Implementation and Results of Protection of 
Civilians Mandates in United Nations Peacekeeping Operations,'' A/68/
787, March 7, 2014.
    \33\ Colum Lynch, ``They Just Stood Watching,'' Foreign Policy, 
April 7, 2014.
    \34\ For instance, the 2002 Task Force on Protection from Sexual 
Exploitation and Abuse in Humanitarian Crises, the 2003 Special 
Measures for Protection from Sexual Exploitation and Sexual Abuse 
Bulletin, the 2005 Comprehensive Strategy to Eliminate Future Sexual 
Exploitation and Abuse in United Nations Peacekeeping Operations, and 
the annual report of the Secretary General on special measures for 
protection from sexual exploitation and sexual abuse.
    \35\ United Nations Conduct and Discipline Unit.
    \36\ Dr. Thelma Awori, Dr. Catherine Lutz, and General Paban J. 
Thapa, ``Expert Mission to Evaluate Risks to SEA Prevention Efforts in 
MINUSTAH, UNMIL, MONUSCO, and UNMISS,'' November 3, 2013.
    \37\ Sandra Laville, ``U.N. Aid Worker Suspended for Leaking Report 
on Child Abuse by French Troops,'' The Guardian, April 29, 2015; Sandra 
Laville and Angelique Chrisafis, ``U.N. Accused of `Reckless Disregard' 
for Allegations of Peacekeeper Child Abuse,'' The Guardian, April 30, 
2015; and George Russell, ``African Troops Involved with French in U.N. 
Rape Report Scandal,'' Fox News, May 1, 2015.
    \38\ Laville, ``U.N. Aid Worker Suspended for Leaking Report on 
Child Abuse by French Troops.''
    \39\ This policy is consistent with the position laid out in the 
1997 Report of the Secretary General, endorsed in Resolution 52/247, 
which states, ``If such claims [arising as a result of gross negligence 
or willful misconduct] are established, the Organization would assume 
liability to compensate a third party, retaining the right to seek 
recovery from the individual or the troop-contributing State 
concerned.''
    \40\ While UNFICYP is the only current example of this practice, 
there are other precedents. The U.N. Yemen Observation Mission (UNYOM), 
which was established by the Security Council in 1963 to observe and 
certify the withdrawal of Saudi Arabian and Egyptian forces from Yemen, 
was funded entirely by Saudi and Egyptian contributions. Similarly, the 
Netherlands and Indonesia evenly divided the costs of the U.N. 
Temporary Executive Authority (UNTEA), which was established in 1962 to 
administer the territory of West New Guinea until it was transferred to 
Indonesia in 1963, and the U.N. Security Force in West New Guinea 
(UNSF), which was established to monitor the cease-fire and maintain 
law and order during the transition. See United Nations, ``Yemen--
UNYOM''; United Nations, ``West New Guinea--UNSF''; and United Nations, 
``UNFICYP Background.''
    \41\ For instance, together, five of the older U.N. missions 
(MINURSO, UNFICYP, UNDOF, UNMOGIP, and UNTSO) cost approximately $273 
million. If the U.S. could shift these missions to voluntary funding, 
the U.S. could save tens of millions of dollars per year and perhaps 
focus the most affected parties on resolving these outstanding 
disputes.
    \42\ Office of Management and Budget, ``Annual Report on United 
States Contributions to the United Nations,'' June 6, 2011.
    \43\ For a fuller discussion, see Brett D. Schaefer, ``U.S. Should 
Demand Increased Transparency and Accountability as U.N. Revenues 
Rise,'' Heritage Foundation Issue Brief No. 4154, February 26, 2014.
    \44\ The United Nations Human Settlements Program (UN-HABITAT), the 
International Labor Organization (ILO), the United Nations Industrial 
Development Organization (UNIDO), and the U.N. Office for Disaster Risk 
Reduction (UNISDR).
    \45\ The assessment concluded that ``UNIDO has not been able to 
define its purpose and function very well, much less become effective 
in its programmatic activities,'' and urged member states to consider 
phasing the organization out. Brett D. Schaefer, ``The U.S. Should Not 
Rejoin the United Nations Industrial Development Organization,'' 
Heritage Foundation Issue Brief No. 4291, October 29, 2014.
    \46\ Abhik Chanda, ``WHO Pledges Reforms as It Admits Ebola 
Mistakes,'' AFP, January 25, 2015.
    \47\ Only 2 years after the U.N. was created, Congress issued a 
report calling for sweeping reform of the U.N. system. A September 1947 
study by the Senate Committee on Expenditures in the Executive 
Departments found ``serious problems of overlap, duplication of effort, 
weak coordination, proliferating mandates and programs, and overly 
generous compensation of staff within the infant, but rapidly growing, 
U.N. system.'' Edward C. Luck, ``Reforming the United Nations: Lessons 
from a History in Progress,'' Academic Council on the United Nations 
System Occasional Paper No. 1, 2003.
    \48\ Brett D. Schaefer, ``A Progress Report on U.N. Reform,'' 
Heritage Foundation Backgrounder No. 1937, May 19, 2006.

    Senator Barrasso. Thank you very much.
    Mr. Detchon.

   STATEMENT OF REID DETCHON, VICE PRESIDENT FOR ENERGY AND 
  CLIMATE STRATEGY, UNITED NATIONS FOUNDATION, WASHINGTON, DC

    Mr. Detchon. Mr. Chairman, Senator Udall, thanks for the 
opportunity to testify today. It is an honor to appear before 
you to discuss the critical role of the United Nations as a 
venue for international engagement, especially with regard to 
global climate change.
    I am vice president for Energy and Climate Strategy at the 
U.N. Foundation here in Washington, and while my background and 
expertise are in energy and climate, I will also say a few 
words about the importance of strong and constructive U.S. 
engagement with the U.N.
    The U.N.'s most important role is to serve as a forum for 
the world's nations to address global challenges. The challenge 
of climate change is a textbook case of the U.N.'s value to the 
international community. If you are confronted with a problem 
of global scale and significance, anyone would want to assemble 
the best experts from all over the world to assess it and 
propose possible responses. In fact, that describes exactly 
what the U.N. has done on climate change. For such problems, it 
is often said that if we did not have a U.N., we would have to 
invent it.
    A precedent for action was the Montreal Protocol, the 
highly successful international agreement to phase out the use 
of chlorofluorocarbons, or CFCs. As would later happen on 
climate change, countries came together under the auspices of 
the U.N., first to understand an emerging threat to the global 
environment, then to conclude a framework agreement on how to 
address it, and finally to negotiate a plan of action.
    In 1988, 27 years ago, the U.N., with the support of 
President Reagan and Margaret Thatcher, created the 
Intergovernmental Panel on Climate Change, the IPCC, to prepare 
scientific assessments on all aspects of the issue. The IPCC 
has reported five times since then, most recently last year, 
with increasingly definitive assessments endorsed by more than 
190 member states.
    In 1992, the world agreed in Rio to the U.N. Framework 
Convention on Climate Change. President George H.W. Bush, for 
whom I served in the Department of Energy, signed the treaty on 
behalf of the United States, and it was approved by the Senate 
without dissent later that year.
    The countries that ratified the convention, again more than 
190 in number, have grappled since then with how to move 
forward on this thorny topic. In December in Paris, negotiators 
will meet again for the 21st time, and this year they seem 
ready to agree.
    No country likes to be told what to do, not the United 
States or China or India. Instead, the agreement being forged 
in Paris will build on national commitments to action taken in 
each country's own self-interest.
    The U.S. position, for example, will reflect the decision 
we have made to double the fuel economy of our cars and light 
trucks, as well as new efforts to reduce carbon dioxide 
pollution from power plants.
    China will present its pledge to get 20 percent of its 
total energy consumption from zero-emission sources by 2030. 
That will require China to deploy an astonishing 800 to 1,000 
gigawatts of nuclear, wind, and solar energy, almost as much as 
the entire generating capacity of the United States today. That 
is the equivalent of building a major power plant every week 
for the next 15 years.
    India will showcase its plans to deploy 100 gigawatts of 
solar in just 7 years and another 75 gigawatts of wind, 
biomass, and hydro. These are remarkable numbers that are 
changing the global energy landscape.
    The agreement expected to be reached in Paris will involve 
action by nearly every country on earth. It reflects a new 
global approach to climate action, based on leadership by 
companies and by governors and mayors in addition to national 
governments. Investors are responding with more than $300 
billion a year in capital investment in clean energy. These 
technologies are creating business opportunities and new jobs 
today.
    In support of this direction, the U.N. Secretary General 
launched an initiative called Sustainable Energy for All, with 
an innovative new partnership model that brings together the 
public and private sectors on equal footing to support best 
policies and practices and mobilize private investment.
    Mr. Chairman, the U.N. provides a vital platform for the 
world to come together and address global challenges, from 
climate change to peacekeeping to infectious disease. This 
includes the efforts by the U.N. and partners, including the 
U.N. Foundation, to vaccinate more than 1 billion children 
against polio. And today as we speak, U.N. humanitarian 
agencies are helping to feed, shelter, and provide medical care 
to earthquake victims in Nepal.
    Efforts to reform the U.N.'s budgetary management and 
accountability processes are critical to ensuring that the U.N. 
can continue this vital work in the most effective and 
efficient way possible. The United States has been a strong 
supporter of these reforms. Some have suggested that we should 
attempt to force additional reforms by refusing to pay our 
financial obligations to the U.N.
    We believe that the United States is best positioned to 
advance a constructive reform agenda when we are fully engaged, 
which means in part paying our dues on time, in full, and 
without preconditions. Otherwise, we alienate our allies, whose 
support we need and put U.N. activities that are directly in 
our national interests such as peacekeeping in financial 
jeopardy. Maintaining our good financial standing at the U.N., 
in short, is critical to our ability to advance a constructive 
reform agenda.
    Thank you for your time and attention.
    [The prepared statement of Mr. Detchon follows:]

                   Prepared Statement of Reid Detchon

    Mr. Chairman, Senator Udall, members of the subcommittee, thank you 
for giving me the opportunity to testify today. It is an honor to 
appear before you to discuss the critical role of the United Nations as 
a venue for multilateral engagement, and especially with regard to 
global climate change.
    My name is Reid Detchon, and I am Vice President for Energy and 
Climate Strategy at the United Nations Foundation here in Washington, 
DC. While my background and expertise lie in the energy and climate 
fields, I would like to say a few more general words at the outset 
about the importance of strong and constructive U.S. engagement with 
the United Nations. This is an issue that my organization cares about 
deeply, and while partially beyond my scope, I would be happy to relay 
any questions you might have to my colleagues at the Foundation.
    The U.N. is an imperfect but necessary institution, providing a 
universal platform to address some of the most vexing challenges facing 
humanity--issues that no country, no matter how prosperous or powerful, 
can address alone. The United States has played a central role in the 
U.N.'s work from the very beginning, and will continue to do so as long 
as the organization exists. The benefits to our Nation and to the world 
range from peacekeeping to humanitarian relief, as the U.N. takes on 
the problems that are too tough for any one country to handle. One need 
look no further than the current work being undertaken by U.N. 
humanitarian agencies to help feed, shelter, and provide medical care 
to millions of people in earthquake-hit Nepal, or efforts by the U.N. 
and partners to vaccinate more than 1 billion children against polio 
over the years, to understand the ongoing need for this type of 
multilateral institution.
    Over the years, Congress has demonstrated a keen interest in 
continuing efforts to reform the U.N.'s budgetary, management, and 
accountability processes. Such initiatives are critical to the U.N.'s 
ability to meet the challenges of the 21st century and ensure that 
member state resources are used most effectively, and the U.N. has made 
notable progress in this regard. Significant changes in how the 
organization does business have occurred in a number of areas in recent 
years, from the management of peacekeeping operations, to tougher 
ethics rules, to streamlined budgeting processes, to improvements in 
how the U.N. delivers humanitarian and development aid on the ground. 
These and other measures have fundamentally strengthened the U.N. as an 
institution, although much work remains to be done to build on these 
achievements.
    Some additional, more recent reforms accomplished at the U.N. 
include, among other things: a new policy of making all of the 
institution's internal audit reports publicly available online--a 
victory for transparency that the United States called ``a turning 
point in how the U.N. does business''; the General Assembly's approval 
of a core budget for 2014-15 that cut spending, reduced staffing by 2 
percent, and stabilized compensation for U.N. employees; and 
implementation of the Global Field Support Strategy--an initiative 
aimed at improving the efficiency and speed of administrative and 
logistical support to U.N. field missions--which has led to a $250 
million reduction in operational costs for U.N. peacekeeping.
    Despite this progress, however, some have suggested that the United 
States should withhold its financial contributions to the U.N. in order 
to force additional reforms. This strategy means well but is fatally 
flawed. None of the recent reforms I just described would have been 
possible without strong U.S. engagement. That means, in part, meeting 
our financial obligations to the institution by paying our dues on 
time, in full, and without onerous preconditions. Failing to do so can 
take away our seat at the table; it reduces our influence over the 
reform process, alienates our allies, whose support is critical to 
progress on our policy objectives, and puts U.N. activities that are 
directly in our national interest--such as peacekeeping operations--in 
financial jeopardy. Maintaining our good financial standing at the 
U.N., in short, is critical to our ability to advance a constructive 
reform agenda.
    The United Nations' most important role is to serve as a convening 
body for the world's nations to address global challenges. Turning to 
the subject I know best, the challenge of assessing and responding to 
the threat of global climate change is a textbook case of the U.N.'s 
value to the international community. If confronted with a problem of 
global scale and significance, anyone would want to assemble the best 
experts from all over the world to assess it and propose possible 
responses. In fact, that describes exactly what the U.N. has done with 
regard to climate change. For such problems, it is often said that if 
we didn't have a U.N., we would have to invent it.
    Two U.N. agencies--the World Meteorological Organization and the 
United Nations Environment Program--created the Intergovernmental Panel 
on Climate Change (IPCC) 27 years ago to prepare assessments, based on 
available scientific information, on all aspects of climate change and 
its impacts, to help formulate realistic response strategies. The 
initial task for the IPCC, as outlined in a resolution of the U.N. 
General Assembly in 1988, was to prepare a comprehensive review and 
recommendations with respect to the state of knowledge of the science 
of climate change, the social and economic impacts of climate change, 
and possible response strategies and elements for inclusion in a 
possible future international convention on climate.
    The scientific evidence assembled by the first IPCC Assessment 
Report in 1990 underlined the importance of climate change as a 
challenge that inherently requires international cooperation. Two years 
later, in June 1992, the world agreed in Rio de Janeiro on the U.N. 
Framework Convention on Climate Change. President George H.W. Bush, for 
whom I served in the Department of Energy, signed this treaty on behalf 
of the United States, and it was ratified by the U.S. Senate without 
dissent later that year. Its central objective was to achieve 
``stabilization of greenhouse gas concentrations in the atmosphere at a 
level that would prevent dangerous anthropogenic interference with the 
climate system.''
    Since then the IPCC has delivered four more comprehensive 
scientific assessments on climate change. This process is based 
entirely on published, peer-reviewed studies; it does not involve 
independent research. The Fifth Assessment Report, the product of more 
than 830 experts from more than 80 countries, consisted of three 
Working Group reports and a Synthesis Report for policymakers. It was 
approved by the IPCC's member countries (195 in number) and released in 
four parts between September 2013 and November 2014.
    What did this report conclude?

  <bullet> Warming of the climate system is unequivocal.
  <bullet> It is at least 95 percent certain that human influence has 
        been the dominant cause of the observed warming since the mid-
        20th century.
  <bullet> Continued emission of greenhouse gases will cause further 
        warming and long-lasting changes in all components of the 
        climate system, increasing the likelihood of severe, pervasive, 
        and irreversible impacts for people and ecosystems.

    Those are scientific assessments, produced impartially by a U.N. 
process, to inform public policy.
    In December, negotiators from all the countries in the world will 
meet in Paris for the 21st Conference of the Parties to the U.N. 
Framework Convention on Climate Change. Ever since 1992, the U.N.'s 
member states have grappled with what to do about this thorny topic. 
This year, they seem ready to agree.
    No country likes to be told what to do--not the United States or 
China or India. Instead, the agreement being forged for Paris will 
build on national commitments to action, taken in each country's own 
self-interest. The U.S. position will reflect the decision we have made 
to double the fuel economy of our cars and light trucks, as well as new 
efforts to reduce carbon dioxide pollution from power plants. China 
will present its pledge to get 20 percent of its total energy 
consumption from zero-emission sources by 2030. That will require China 
to deploy an additional 800 to 1,000 gigawatts of nuclear, wind, and 
solar energy--almost as much as the entire electricity generation 
capacity of the United States today. India will showcase 
its plans to deploy 100 gigawatts of solar in just 7 years--that's the 
equivalent of 
100 giant nuclear or coal power plants--and another 75 gigawatts of 
wind, biomass, and hydro. These are remarkable numbers that are 
changing the global energy landscape.
    The agreement expected to be reached in Paris, incorporating the 
actions of nearly every country on Earth, will have ``legal force'' 
because it represents the sum of legally binding actions taken at the 
national level, but it is not binding on the United States in the sense 
of requiring change in existing statutory authority. Rather, it 
reflects a new global approach to climate action, based on leadership 
by companies and by governors and mayors in addition to national 
governments. New business opportunities are emerging every day as the 
cost of clean energy technologies becomes increasingly competitive 
throughout the world, and investors are responding with more than $300 
billion a year in capital investment.
    The U.N.'s Secretary General, Ban Ki-moon, recognized this 
opportunity in 2011 in launching his initiative on Sustainable Energy 
for All, which sets three ambitious but achievable global goals for 
2030:

  <bullet> Ensuring universal access to modern energy services--to 
        reach the 1.2 billion people without any electricity and the 
        2.7 billion people who still use polluting fuels like wood and 
        charcoal for cooking and heating.
  <bullet> Doubling the global rate of improvement in energy 
        efficiency--from roughly 1.3 percent to 2.6 percent a year.
  <bullet> Doubling the share of renewable energy in the global energy 
        mix--to roughly 36 percent from 18 percent today, while 
        reducing the use of traditional biomass.

    The U.N. General Assembly is poised to include all three of these 
objectives in a new Sustainable Development Goal on energy as part of 
the post-2015 development agenda, expected to be agreed in New York in 
September.
    Sustainable Energy for All also represents an innovative new 
partnership model for the U.N., bringing the public and private sectors 
together on equal footing to support best policies and practices and 
mobilize private investment toward common goals. Literally trillions of 
dollars will be required to achieve the initiative's three global 
objectives by 2030--a level of investment that governments alone cannot 
provide. The projects must therefore be economically viable, and 
private-sector investment will be needed to complement the important 
work of governments, development banks, other institutions, and civil 
society. The structure, systems, and processes of Sustainable Energy 
for All are intended to reflect this essential partnership between 
government, the private sector, and civil society.
    Another example that illustrates the value of the U.N. system for 
protecting the global environment is the Montreal Protocol, the highly 
successful international agreement to phase out the use of 
chlorofluorocarbons (CFCs), adopted pursuant to the Vienna Convention 
for the Protection of the Ozone Layer, which was itself drafted by the 
U.N. Environment Program and agreed in 1985. As would later happen on 
climate change, countries came together under the auspices of the 
U.N.--first to understand an emerging threat to the global environment, 
then to conclude a framework agreement on how to address it, and 
finally to negotiate a plan of action.
    Mr. Chairman, I hope these examples serve as vivid illustrations of 
the value of the United Nations as a forum for convening all the 
nations of the world to agree on concerted action to address global 
threats--not just in peacekeeping, but also in protection of the global 
environment.
    Thank you for your time and attention and for the honor of 
addressing this subcommittee today.

    Senator Barrasso. Well, thank you very much for your 
thoughtful testimony today.
    I would like to start with the questioning. Mr. Schaefer, 
with regard to the U.N. budget, I appreciate you providing this 
subcommittee with several concrete proposals for responsible 
reforms at the United Nations. The United States is the largest 
financial contributor to the U.N., and I am concerned that the 
financial burden at the United Nations is not shared equally or 
in accordance with current economic realities.
    So could you explain why the United States is paying more 
to the U.N. budget than all of the other permanent members of 
the U.N. Security Council combined?
    Mr. Schaefer. Well, the U.N. bases its scale of 
assessments, which is the apportionment of the expenses of the 
organization, on their portion of the global GNI. Then a number 
of discounts are applied to certain countries based on whether 
they are below income thresholds and whether they are 
considered least developing countries. If they are below a 
certain income level, they also receive debt burden adjustments 
that ratchet their assessments down. And all of these 
deductions are then added to the assessments of countries that 
do not receive those reductions.
    The United States has the largest share of the global 
economy among the Security Council members, and if you add up 
the other countries there, they do in fact have an assessment 
lower than the United States. A part of that is because China 
receives discounts for its regular budget assessment. If you 
take a look at China's share of the global economy, it should 
be between 10 and 11 percent of the U.N. regular budget, but it 
receives low-income adjustments and debt-burden adjustments to 
its regular budget assessment which reduces its final regular 
budget assessment. Since the peacekeeping budget is based on 
the regular budget assessment, this ends up reducing China's 
peacekeeping budget assessment as well.
    So all things being equal, if you just added up the share 
of the global economies, China should have a much higher 
assessment. Russia should be a little bit higher, and Britain 
and France are about the right level. And the United States 
should be lower.
    Senator Barrasso. So what actions could Congress take to 
limit the growth in the U.N. budget and ensure a more equitable 
distribution of the costs as you just outlined?
    Mr. Schaefer. Well, right now there is a maximum cap on the 
regular budget at 22 percent. That cap was implemented because 
the United States made it mandatory in return for payment of 
arrears that accrued during the 1990s as part of the Helms-
Biden agreement.
    The Helms-Biden agreement also had a requirement in there 
that the U.N. put in place a hard cap of 25 percent on 
peacekeeping assessments for the United States as well. That 
cap was not put into place, but Ambassador Holbrooke came to 
the U.S. Senate and testified that they had reached an 
agreement whereby the U.S. assessment would gradually be 
reduced over 4 or 5 years to 25 percent. That level was never 
reached.
    The U.S. assessment declined more slowly than promised by 
Ambassador Holbrooke and got below 26 percent in 2009. But it 
has increased over the past two scales of assessments and now 
is just about 28.4 percent, and it is going to reach, I think, 
higher than 29 percent with the next scale. And with the size 
of the peacekeeping budgets coming up, that has very important 
implications for the U.S. taxpayer.
    Senator Barrasso. Because it does seem the administration's 
request for funding to meet the 2016 budget for the U.N., is 
again higher than the 25 percent. I think the request this time 
was at 28.36 percent. So without any changes, you do expect the 
amount owed by the United States at the U.N. to continue to 
increase.
    Mr. Schaefer. Absolutely. And the other U.N. member states 
have very little incentive to go along with changes to lower 
the U.S. assessment down because that would, of course, lead 
them to paying higher costs. The way that the United States 
solved this problem before was withholding. Congress enacted 
and President Clinton signed into law the hard cap that led to 
arrears in the 1990s. Those arrears put pressure on the 
organization and led other member states to agree to, first of 
all, the 22 percent cap on the regular budget, but also to 
agree to other reforms, including the new formula for 
peacekeeping assessments that Ambassador Holbrooke presented to 
the U.S. Senate.
    I think that the United States should enforce that 25 
percent cap and hold the resulting arrears away from the 
organization with the promise to pay once they do, indeed, 
follow through and put a hard 25-percent cap for the United 
States and for any other member state.
    Senator Barrasso. Thank you.
    Mr. Detchon, on November 3 of this past year, you wrote a 
column entitled ``Climate Action Means a Brighter Future.'' In 
the column you said there is good reason for us to act not only 
because of the dangers, you said, of disruptive climate change. 
You said, but because of a new climate economy, it will be 
better for business. You go on to say it will improve our 
health, prosperity, and security, as well as our environment.
    I would like to highlight a letter from Wyoming Governor 
Matt Mead to the EPA Administrator, Gina McCarthy, about--this 
was a letter last week. And I am going to submit the Governor's 
letter to the record.

[Editor's note.--The letter mentioned above can be found in the 
``Additional Material Submitted for the Record'' section at the 
end of this hearing.]

    Senator Barrasso. In his letter, he highlights a recent 
study by the Center for Energy Economics and Public Policy at 
the University of Wyoming, and the study is called The Impact 
of the Coal Economy on Wyoming.'' It was published this year in 
February. And I am going to put that study in the record too.

[Editor's note.--The Wyoming Study mentioned above was too 
voluminous to include in the printed hearing. It will be 
retained in the permanent record of the committee.]

    Senator Barrasso. The study says overall proposed carbon 
regulations result in a predicted declined in the State's 
combined coal and natural gas revenues of between 36 and 46 
percent by the year 2030. It says Wyoming can expect to lose 
7,000 jobs.
    So my State is finding that the President's clean power 
plant, as part of his international climate change commitment, 
is going to cost thousands of good paying jobs, dramatically 
slash State revenue that pays for college scholarships, 
schools, medical emergency services, road safety programs, 
environmental protection programs, water quality services, 
veterans services, vital State services.
    So as a doctor, I attest that unemployment caused by any 
plan will lead to serious health impacts for unemployed 
husbands and mothers, as well as children of the unemployed. I 
have actually written a report called ``Red Tape: Making 
Americans Sick.'' I am going to put that in the record.

[Editor's note.--The report mentioned above was too voluminous 
to include in the printed hearing. It will be retained in the 
permanent record of the committee.]

    Senator Barrasso. It talks about the high impacts of 
individuals of long-term unemployment.
    So given all this information, is the deal the President is 
trying to commit America to in Paris through the United 
Nations, without approval from Congress, it seems--is this 
going to improve Wyoming's health, prosperity, and security, as 
well as our environment, as your column suggests?
    Mr. Detchon. I certainly hope so, Mr. Chairman. The 
President, of course, has to represent the whole country, and 
there will be varying impacts by State. I was very impressed to 
read about the 3,000-megawatt wind project that you have 
underway in Wyoming, and I think that is an example of some of 
the new opportunities that are emerging.
    I think that you would say that AT&T is not the same 
company it was in 1970, nor is IBM, but newer technologies that 
are more agile and deliver better outcomes were able in a 
competitive marketplace to out-compete the existing monopolies. 
And I think much the same is happening in the energy industry 
today. We are getting diversified energy supplies that, in many 
cases, are out-competing the existing ones. I think that most 
of the decline in coal demand is due to natural gas 
substitution. So that is unrelated to the clean power plan, 
which is prospective and will occur in several years as 
implemented at the State level.
    Finally, I would say that the EPA, as I understand it, has 
made very careful attempts at the State level to recognize 
existing realities that each State has different circumstances 
and needs to be given a chance to respond appropriately. And so 
I think that the impacts will vary a lot by State in generally 
positive ways.
    Senator Barrasso. Thank you very much.
    Senator Udall.
    Senator Udall. Thank you, Chairman Barrasso.
    And one of the things, Mr. Detchon, you seem to be hitting 
on is that there are opportunities for our businesses also with 
regard to, say, the Sustainability for All initiative. Do you 
believe there are opportunities for U.S. businesses to engage 
with developing countries as they work to improve access to 
renewable energy and improve energy efficiency? How can the 
State Department work with these businesses to ensure that they 
have access to these emerging markets? And do you do that too 
at the U.N. Foundation?
    Mr. Detchon. Yes. Thank you, Senator.
    The Sustainable Energy for All initiative is, as I noted in 
my testimony, a public-private partnership working with, in 
particular, financial leaders to accelerate the deployment of 
clean energy technologies.
    It is ironic that in the United States, where we invented 
many of these technologies, we have the most competitive energy 
market in the world. And so it is the hardest place in the 
world for these new technologies to penetrate. In many other 
countries, it is quite the opposite. I read recently that the 
National Bank of Abu Dhabi said that solar is competitive in 
that region with oil at $10 a barrel. So you have very 
different circumstances around the world.
    In areas that are not served by the electricity grid around 
the world, poor people are paying the equivalent of 40 to 50 
cents a kilowatt-hour for the little electricity that they get 
from diesel-fired generator sets. It has been said by Harish 
Hande, who runs SELCO Solar in India, that solar energy is a 
luxury for the rich and a bargain for the poor.
    So we need to think about the particular context in which 
these technologies compete. I think that the advent of 
available energy and clean energy in areas that now have none 
and have no prospect of economic development is going to create 
a virtuous cycle of economic growth and new markets for 
consumer companies, including those in the United States.
    Senator Udall. And you would expect that with aggressive 
action by U.S. companies, that they will get a part of those 
markets in terms of creating jobs and growing jobs here and 
probably growing jobs other places in the world.
    Mr. Detchon. Absolutely. Certainly you can see from the 
President's Power Africa initiative that General Electric was 
one of the major partners there and was concluding, I think, 
some 7 billion dollars' worth of deals to deliver electricity 
into East Africa. So I think that there are opportunities, 
large and small, around the world, and that leading the world 
in these technologies through our R&D is going to lead to the 
sort of Silicon Valley of energy.
    Senator Udall. Now, one of the things you mentioned in your 
testimony here was that it was the marketplace and the pricing 
that was driving utility companies to go to natural gas rather 
than coal. And really, what you have is, as Senator Barrasso 
and I both know, additional production of natural gas. You 
really, in a way, have a glut on the market. It has driven down 
the price. And so these utility companies looking at the 
situation and with natural gas being cheaper--they would much 
rather be burning natural gas than be burning coal. And so that 
is really the big transformation we are seeing take place, 
rather than this being the administration putting regulations 
in place. Is it not?
    Mr. Detchon. Yes, sir. I think that is exactly right.
    Senator Udall. Now, it has been mentioned several times 
with our previous panel and then with this panel about the 
total U.N. budget being about $44 billion. This amounts roughly 
to the same overall budget as Angola. In return, the U.N. 
manages 16 peacekeeping missions with over 130,000 troops--that 
is the largest deployed military in the world--11 political 
missions, including ones in Iraq and Afghanistan; the largest 
humanitarian organization in the world, the World Food 
Programme plus vital organizations like UNICEF and WHO, who 
help the U.N. vaccinate 60 percent of the world's children. If 
they were not doing that, those children were not vaccinated, 
we would have some big problems out there. Plus, there are 
dozens of specialized agencies which work closely with American 
businesses on issues like shipping, civil aviation, and of 
course, the U.N. offers a forum for all countries to gather and 
discuss the critical issues of the day.
    I think if you put those kinds of things that the U.N. is 
doing every day, put that in light, many would say the overall 
budget does not seem out of proportion. And I am wondering, Mr. 
Detchon, you looking at it from--it sounds like you specialize 
in energy and in climate. Would you agree with that in terms of 
some of the things that are out there? And what are the 
examples you would bring to the table in terms of energy and 
climate change?
    Mr. Detchon. Thank you, Senator.
    I am reminded that nobody likes to pay taxes either, and 
they get imposed upon us but that is the price we pay to keep 
society safe and secure.
    I think that trying, as Mr. Schaefer said, to find 
appropriate measures of fair share, based on capacity to pay, 
is absolutely the right metric to pursue. I would note that in 
the last round of negotiations, the General Assembly raised the 
contribution rates of China and Russia by 50 percent or more, 
and we hope that that will continue in the same direction to 
make it more equitable.
    But I would also note that there are two questions here. 
One is equity and one is cost. The equity issue has to do with 
capacity to pay, but as an absolute number, the cost of 
peacekeeping is a number that essentially is under our control 
because we have to vote for each of these missions as a member 
of the Security Council. So no mission is going to go forward 
without U.S. approval.
    And finally, I would note that money is not the only 
measure of a country's contribution. The United States provides 
roughly 100 military experts, troops, and police to U.N. 
peacekeeping. Bangladesh, the leading country, contributes 
9,500 individuals. Others among the top countries contributing 
troops are Rwanda, Nepal, Senegal, and Ghana. Now, these are 
countries that do not have the capacity to pay large amounts of 
money, but they are sharing the blood of their children to 
protect people around the world, and I think they should be 
honored as well.
    Senator Udall. Thank you.
    Senator Barrasso. Thank you, Senator Udall.
    Mr. Schaefer, I want to just follow up on this line of 
questioning regarding the U.N. peacekeepers because currently 
the United States is paying about $2.4 billion in taxpayer 
funds to U.N. peacekeeping budgets, and we have just heard the 
number of personnel that may be representing different 
countries and the issues of oversight and accountability, 
responsibility, because there have been numerous reports 
describing the sexual exploitation and abuse by the U.N. 
peacekeepers and civilian personnel participating in these U.N. 
peacekeeping missions. And I think we would all agree this is a 
very serious problem.
    So despite years of focus on this issue and the United 
States contributing such a percentage with 28 percent to the 
U.N. peacekeeping budget, really we seem to be unable to stop 
the criminal conduct of these troops. So what steps can we take 
to address the abuse and the misconduct of U.N. peacekeepers, 
as well as preventing it from happening in the future?
    Mr. Schaefer. One point I would like to make first is that 
the U.N. does good work in a number of different areas, but 
that does not mean that everything the U.N. does is equally 
valuable. The Clinton administration did a review of U.N. 
organizations back in 1995, and it led them to actually 
withdraw from the U.N. organization called the United Nations 
Industrial Development Organization because it was not 
providing any value that they could determine.
    I think similar evaluation should be done across the U.N. 
system on a periodic basis to evaluate and determine whether we 
should and should not continue to participate and provide 
support the way we have.
    There are also parts of the U.N. regular budget like the 
economic commissions that together comprise about a half a 
billion dollars. These largely replicate the activities of the 
regional development banks, the countries' own development 
plans, U.S. and other countries' bilateral development 
programs, the World Bank and other economic bodies. They are 
largely redundant and do not provide anything uniquely of 
value, but yet they are very expensive in terms of the U.N. 
regular budget.
    So these are the types of things that need to be looked at 
in terms of cost-effectiveness within the U.N. system, and the 
United States should try and focus resources where they would 
be more effective.
    In terms of sexual exploitation and abuse, it has been 
absolutely horrendous what these past two reports have 
revealed.
    The first one was a leaked experts report that was 
commissioned actually by the U.N. itself and was presented to 
the U.N. in 2013. That report found not only that there was a 
culture of secrecy in the U.N. that prohibited reporting the 
sexual exploitation and abuse, they found that the U.N. itself 
is inaccurately reporting and tabulating these numbers. 
Therefore, the claims that the U.N. is making in terms of 
advancement on these issues do not stand up to scrutiny.
    The U.N. has been making claims for a number of years to 
have a zero tolerance policy in sexual exploitation and abuse 
by its peacekeepers and its civilian personnel. Unfortunately, 
this report also revealed that it is nearly impossible to sever 
civilian employees in the U.N. system when they do these things 
partially because their process for gathering necessary 
evidence to make a case are so slow and are also not preserved 
appropriately in the U.S. system. Those matters need to be 
addressed.
    Troops are only under the authority of their militaries and 
their home country governments, which is appropriate as a 
military deployment. But they also need to be held to account. 
The U.N. should demand that troop-contributing countries 
provide the U.N. with specific data as to what they are doing 
to process these investigations, how they are proceeding, what 
the eventual results are, and to report back to the person 
making the allegations and the victims in these cases what has 
actually happened. That is not occurring either.
    Troop-contributing countries that do not cooperate with 
these measures should be constrained in their participation in 
U.N. peacekeeping operations or have their compensation to the 
troops, their per-troop compensation, severely cut back as a 
punishment for failing to comply with these things, which not 
only impugn the reputation of the organization but harm an 
untold number of people around the world that are supposed to 
be protected by those U.N. peacekeepers.
    Senator Barrasso. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Chairman Barrasso.
    On this issue of peacekeeping, I think it is important that 
we keep in mind what we are getting there. And the current 
peacekeeping budget is around $8.5 billion, and it sounds like 
a big number and is a big number. That $8.5 billion funds the 
lifesaving work of more than 130,000 uniformed personnel 
spanning 16 missions around the world. But to put it in 
context, that is less than the city of Chicago's annual budget. 
In some of these cases, if the U.N. was not there, it would 
cost the United States much more.
    And I am citing here a GAO study that has looked at this 
and found U.N. missions were eight times cheaper than U.S. 
forces acting alone. For a U.N. mission, the cost per 
peacekeeper per year is about $15,000. In 2014, each U.S. 
soldier in Afghanistan cost $2.1 million.
    Admiral Mike Mullen, the former Chairman of the Joint 
Chiefs of Staff, observed that U.N. peacekeepers ``help reduce 
the risks that major U.S. military interventions may be 
required to restore stability in a country or a region.'' So I 
think you have some of our major military people weighing in 
and saying this is important work. We need to be out there 
doing this with the U.N. Obviously, we have many 
responsibilities to do with our military also.
    Mr. Detchon, do you have any comment on that?
    Mr. Detchon. Well, I certainly agree, Senator, that it is a 
bargain for the United States.
    At the same time, I respect the chairman's comments about 
misbehavior by troops. That is extremely serious and it ought 
to be pursued vigorously and transparently. Unfortunately, such 
misbehavior is a tale as old as time and has occurred under 
every flag and now even the U.N's.
    I would recall that not only do we have more than 100,000 
peacekeepers in 16 missions around the world, but as of March, 
1,564 have given their lives to keep the peace. So I think we 
have to recognize that bad comes with good sometimes and 
balance the two. But the contribution that these peacekeepers 
are making is remarkable and also, as you say, Senator, an 
economic bargain for the United States.
    Senator Udall. And obviously, as Chairman Barrasso has made 
the point--and you have just made it too--misbehavior should 
not be tolerated. Also, we should not have situations like in 
Haiti where U.N. troops go in and apparently are the cause--it 
has been pretty well documented--of the cholera and the 
spreading of cholera. And there has been no real accountability 
there. So I mean, the U.N. needs to be just as accountable as 
other governments and organizations around the world. No doubt 
about that.
    Just a final question because you mentioned, Mr. Detchon, 
about the IPCC conclusions on climate change. And I think one 
of the things that is important to emphasize--you talked about 
190 countries agreeing. The important point there is that these 
countries are working together on the IPCC, but they have 
scientists in their own countries that are reviewing what is 
said by other scientists and they are only signing on if their 
scientists look at the science and say this is looking pretty 
solid and we believe in these conclusions. And it is pretty 
remarkable when you think of all the disagreements we have 
around the world, that 190 countries would agree with the 
conclusions and where we are. Do you have any comment on that?
    Mr. Detchon. Well, that is exactly right, Senator, and I 
would even make it stronger than that. The scientists 
participate. In the category of bargains, more than 800 
scientists participated in this last round, and they were not 
compensated for that work. They do this as a contribution to 
the world. They give their time freely to help assess the 
scientific evidence as best they can.
    And I have lost my train of thought. Your point, sir.
    Senator Udall. About the IPCC and the scientists.
    Mr. Detchon. What I wanted to say was that not only do the 
scientists participate, but these reports are approved by 
governments. Now, this is a really important point because if 
there is appropriate criticism of the IPCC process in my 
judgment, it is that governments weaken the statements that the 
scientists want to make. Governments are unwilling to be as 
clear as the scientists are willing to be. And so if anything, 
the IPCC reports represent a conservative reading of the 
evidence and, as you say, Senator, have to be approved by every 
country that participates.
    Senator Udall. Chairman Barrasso, thank you. A very 
productive hearing I thought.
    Senator Barrasso. Thank you very much, Senator Udall, for 
your thorough preparation and questioning.
    I appreciate all the witnesses for making the time to be 
here today. I will thank each of you for sharing your thoughts 
and insights with our subcommittee.
    We are going to leave the record open until the close of 
business on Monday, May 11, for any members of this committee 
who are not able to attend. They may have written questions for 
either our first or second panel. And since our committee will 
be considering a potential State Department reauthorization 
bill, I ask that you quickly respond to any written questions 
from the members of the committee. Thank you very much.
    And the hearing is adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Written Statement Submitted by Peter Yeo, Better World Campaign

    On May 6, 2015, the Senate Foreign Relations Subcommittee on 
Multilateral International Development, Multilateral Institutions, and 
International Economic, Energy, and Environmental Policy held a hearing 
to examine various aspects of U.S. foreign policy related to 
multilateral and bilateral development policy. One of the key issues 
discussed was proposals to reform the management, budgeting, and 
accountability processes of the United Nations. Given the Chair's 
interest in U.N. reform, the Better World Campaign wanted to provide 
some additional information and recommendations on several specific 
issues raised during the discussion.
                   u.n. peacekeeping assessment rates
    U.N. peacekeeping missions are one of the most important and 
publicly visible activities undertaken by the organization in the 
field. Each day, U.N. peacekeepers work to stabilize some of the 
world's most dangerous and remote conflict zones, protecting civilians 
from violence, facilitating the delivery of humanitarian assistance to 
vulnerable communities, disarming, demobilizing, and reintegrating 
former combatants into society, building the capacity of national 
police forces, and promoting free and fair elections and the creation 
of stable governing institutions. The work of these missions is 
squarely in our national interests, as countries undergoing conflict 
threaten U.S. national security, risk becoming havens for terrorist or 
criminal organizations, and feature levels of deprivation and abuses of 
human rights that are an affront to the values of the American people.
    With nearly 130,000 personnel serving on 16 missions around the 
world, U.N. peacekeeping constitutes the largest deployed military 
force in the world. Despite the sheer size of this endeavor, its 
geographic reach, and the diversity and complexity of the mandates 
described above, U.N. peacekeeping is highly cost-effective. In fact, 
the U.N.'s annual peacekeeping budget only represents around 0.5 
percent of total global military spending, and U.N. operations overall 
are eight times cheaper than fielding a comparable U.S. force. 
Peacekeeping is also an important example of global burden-sharing: 
while the United States, as a permanent member of the Security Council, 
has final say over the decision to deploy, withdraw, expand, or 
contract any U.N. peacekeeping mission, it provides very few uniformed 
personnel. Indeed, other countries--particularly developing countries 
like Bangladesh, Ethiopia, Nepal, and Ghana--provide the vast majority 
of troops for these operations.
    For these reasons, BWC strongly opposes the arbitrary 25 percent 
cap on U.S. contributions to U.N. peacekeeping operations enacted in 
the 1990s. This policy represented a troubling break from the long-
standing policy of member states paying their treaty-obligated U.N. 
membership dues. This is because if every member state chose to pay at 
a self-determined percentage level, then underfunded peacekeeping 
missions would be a constant, as countries would almost certainly pay 
less than necessary. (Little different than if individuals could choose 
how much they pay in taxes.) Unfortunately, this arbitrary cap 
continues to be on the books, forcing Congress to revisit the issue 
every year.
    Failing to lift the cap also risks putting the United States into 
arrears at the U.N.; underfunds critical peacekeeping missions--such as 
those in South Sudan and Liberia--that are clearly in our national 
interest and that we have voted for on the Security Council; and denies 
reimbursement to countries, including key U.S. allies like Jordan, who 
contribute troops to these missions so the United States doesn't have 
to. Moreover, far from saving U.S. taxpayers money, failing to pay our 
peacekeeping dues at the full rate assessed by the U.N. simply kicks 
the can down the road. Due to the fact that our contributions to U.N. 
peacekeeping missions are treaty-obligated (by virtue of our membership 
in the U.N.), failing to pay our dues in full now simply requires us to 
pay a larger sum at some point down the road. Partially because of 
this, Congress has included language lifting the cap in annual 
appropriations bills for 15 of the last 21 years. It is critical that 
Congress do the same for FY 2016 and include language in any State 
Department Reauthorization bill repealing the cap language.
    Nevertheless, we also understand the concerns expressed by members 
of the subcommittee about ensuring that all U.N. member states are 
paying their fair share of these critical efforts. After all, while 
peacekeeping rates are renegotiated every 3 years, the current 
methodology for apportioning peacekeeping expenses has not changed 
since 2000. During that same period, however, peacekeeping has become a 
much more dangerous endeavor, with peacekeeping forces being called 
upon to carry out more complex, multidimensional mandates in places 
where there is often no peace to keep. In fact, over the last decade, 
more than 1,400 peacekeepers have died on mission, representing more 
than 43 percent of all U.N. peacekeeping fatalities since the first 
mission was deployed in 1948. Consequently, it is critical that any 
effort to adjust assessment rates ensure that troop-contributing 
countries are fairly compensated.
    As such, the United States should use its voice, vote, and 
influence to advance the following four recommendations regarding U.N. 
peacekeeping assessment and reimbursement rates:

    1. Share Assessment Rate Data. While the criteria and elements of 
the scale of assessments are publicly explained by the U.N., it should 
also share the raw data used to calculate assessment rates. If 
implemented, such steps could address concerns that political 
motivations affect rate determinations.
    2. Update the Assessment Rate Formula. The current formula for 
determining peacekeeping assessments dates from 2000 and is based 
primarily on gross national income (GNI), though it is also adjusted by 
other factors like per capita income. The current system may result in 
some countries paying more or less than their fair share. The scale of 
assessments should better reflect the principle of capacity to pay by, 
for example, using GNI adjusted for purchasing power parity (PPP).
    3. Periodically Review Reimbursement Rates. Given the increasing 
danger of missions and the persistent friction between troop 
contributing countries and donor countries regarding reimbursement 
rates for U.N. peacekeepers, the rates should revisited every 3 years, 
similar to the way peacekeeping assessment rates are renegotiated.
    4. Report on Reimbursement Funds. Future decisions to raise 
reimbursement rates need to be based on accurate and timely data in 
order to ensure that such increases are evidence-based. The lack of 
such data has been decried by major funders of U.N. peacekeeping and 
the dearth also makes it difficult to know where gaps exist. 
Information on the use of funds must also highlight when countries lack 
resources due to member state funding shortfalls. Member states must 
understand how underfunding missions and/or not paying at their full 
assessed rate negatively impact the troop contributing countries (TCCs) 
ability to adequately resource missions and how it can undermine the 
overall effectiveness of U.N. peacekeeping. TCCs should report on how 
their reimbursement funds are utilized, along with--when relevant--how 
any shortfalls in member state contributions impact their ability to 
resource missions.
     strengthening oversight and accountability of u.n. procurement
    Efforts to ensure greater oversight and accountability in U.N. 
procurement are critical toward ensuring that the organization uses 
member state resources in the most efficient and effective way 
possible. One major past initiative mounted by the U.N. in this regard 
was the Procurement Task Force (PTF), a temporary entity established in 
2006 to investigate and reform procurement problems and to address 
fraud and corruption in the U.N. Secretariat. In its 3 years of 
operation, the PTF racked up successful criminal convictions of a U.N. 
employee and contractor, initiated disciplinary actions against 17 
other U.N. employees, and suspended or removed more than 45 private 
companies from the U.N. contracting process, according to records and 
interviews. It identified more than $25 million that it says was wasted 
or ended up unjustly enriching vendors.
    In 2008, the U.N. Board of Auditors issued a report which concluded 
that although some cases of fraud and corruption were found, there was 
no evidence of ``widespread corruption'' in the U.N. Accordingly, it 
recommended the ``skill and competencies of the Procurement Task 
Force'' be ``incorporated permanently'' in the U.N. We support this 
proposal, and believe that the United States should use its voice, 
vote, and influence in the U.N. General Assembly to push for the 
reestablishment of the PTF--or a similar entity--on a long-term, rather 
than ad hoc, basis, and encourage its integration within the 
Investigations Division of the Office of Internal Oversight Services 
(OIOS). Such an action could help improve the U.N.'s ability to ensure 
proper oversight and accountability over its contracts.
                       whistleblower protections
    The FY 2015 Omnibus Appropriations Act calls for the U.N. to 
implement ``best practices'' for the protection of whistleblowers from 
retaliation. BWC agrees with the spirit of these proposals, and 
recommends that the United States use its voice, vote, and influence to 
further improve whistleblower protections at the U.N. However, we 
strongly disagree with the law's requirement that the United States 
withhold 15 percent of its contributions to the U.N. unless the 
Secretary of State certifies implementation and enforcement of such 
measures. This is because the concept of withholding dues as a way to 
force progress on reform is a fundamentally flawed strategy. Recently, 
the United States has been able to use its seat at the table at the 
U.N. to support successful reform efforts on a broad range of issues, 
including:

  <bullet> Budget Cuts: In December 2013, the General Assembly approved 
        the U.N.'s core budget for 2014-2015, cutting spending from the 
        U.N.'s previous 2-year budget, following the budget reduction 
        trend seen in the previous biennium. The new budget also 
        included a 2-percent staffing cut, translating to approximately 
        221 posts, and a freeze in staff compensation.
  <bullet> Transparency: The U.N. now makes all internal audit reports 
        issued by the Office of Internal Oversight Services (OIOS) 
        publicly available online. This development followed similar 
        decisions by UNICEF, UNDP, and UNFPA. The U.S. Mission to the 
        U.N. has called this new commitment to transparency ``a turning 
        point in how the U.N. does business.''
  <bullet> Peacekeeping Reforms & Greater Efficiencies: The U.N. 
        continues to implement the Global Field Support Strategy, a 5-
        year project (2010-2015) aimed at improving the efficiency, 
        cost-effectiveness, and speed of administrative and logistics 
        support to U.N. peacekeeping and political missions. 
        Implementation of this strategy has led to a $250 million 
        reduction in operational costs for peacekeeping missions. In 
        addition, the cost per peacekeeper has declined by 18 percent, 
        and there are currently 3,000 fewer support and security staff 
        in U.N. peacekeeping missions than in 2008.

      <all>  The Secretary General recently established a High-Level 
            Panel on Peace Operations to undertake a comprehensive 
            assessment of the state of U.N. peace operations. This is a 
            significant development, as peace operations today are 
            increasingly called on to confront politically complex and 
            challenging conflicts, often in volatile security 
            environments where U.N. missions are directly targeted. Mr. 
            Jose Ramos-Horta, former President of Timor-Leste, is 
            chairing this panel. The Panel's recommendations will be 
            available for consideration by the General Assembly at its 
            2015 General Debate in September.

    None of these achievements would have been possible without strong 
U.S. engagement. That means, in part, meeting our financial obligations 
to the organization by paying our dues on time, in full, and without 
onerous preconditions. Failing to do so takes away our seat at the 
table and reduces our influence over the reform process; alienates our 
allies, whose support is critical to make progress on our policy 
objectives; and puts U.N. activities that are directly in our national 
interests--such as peacekeeping operations--in financial peril. The 
dangers of withholding our U.N. dues have been acknowledged by 
Presidents from both parties. Indeed, in 2005, the Bush administration 
strongly opposed a bill introduced in the House of Representatives that 
would have withheld a substantial percentage of U.S. contributions to 
the U.N. Regular Budget pending certain reforms, as it would ``detract 
from and undermine our efforts.'' In 2011, former George W. Bush 
Ambassador to the U.N., Mark Wallace, explained before the House 
Foreign Affairs Committee that it would not be ``wise or beneficial to 
use withholding funds to implement change.'' In conclusion, maintaining 
our good financial standing at the U.N. is critical to our ability to 
continue pushing a constructive reform agenda.
                                 ______
                                 

      Material Submitted for the Record by Senator John Barrasso 
                   of Wyoming, Subcommittee Chairman

     copy of a letter submitted to the u.n. secretary general and 
           u.n. executive heads by former u.n. whistleblowers


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              
                                 ______
                                 
               copy of a letter submitted to the epa by 
                    wyoming governor mathew h. mead
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
